<html>
<title> - ECO-TERRORISM SPECIFICALLY EXAMINING THE EARTH LIBERATION FRONT AND THE ANIMAL LIBERATION FRONT</title>
<body><pre>[Senate Hearing 109-947]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-947

ECO-TERRORISM SPECIFICALLY EXAMINING THE EARTH LIBERATION FRONT AND THE 
                        ANIMAL LIBERATION FRONT

=======================================================================

                                HEARING

                               BEFORE THE


                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

32-209 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 18, 2005
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     3
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey     5
Obama, Hon. Barack, U.S. Senator from the State of Illinois, 
  prepared statement.............................................    37
Vitter, Hon. David R., U.S. Senator from the State of Louisiana..     8

                               WITNESSES

Campbell, Bradley, commissioner, New Jersey Department of 
  Environmental Protection.......................................    23
    Prepared statement...........................................   113
    Responses to additional questions from:
        Senator Jeffords.........................................   117
        Senator Lautenberg.......................................   118
Carroll, Carson, Deputy Assistant Director, Bureau of Alcohol, 
  Tobacco, Firearms and Explosives...............................    13
    Prepared statement...........................................    43
    Responses to additional questions from Senator Obama.........    46
Lewis, John, Deputy Assistant Director, Federal Bureau of 
  Investigation..................................................    11
    Prepared statement...........................................    38
    Responses to additional questions from:
        Senator Jeffords.........................................    40
        Senator Lautenberg.......................................    40
        Senator Obama............................................    41
Martosko, David, director of research, The Center for Consumer 
  Freedom........................................................    21
    Exhibits.....................................................51-109
    Prepared statement...........................................    47
    Responses to additional questions from:
        Senator Lautenberg.......................................   112
        Senator Vitter...........................................   110
McIntyre, Monty, Esq., Garden Communities........................    27
    Prepared statement...........................................   121
Skorton, David, president, University of Iowa....................    25
    Prepared statement...........................................   119

                          ADDITIONAL MATERIAL

Charts:
    ALF Boast of Raid on University of Iowa Laboratory Including 
      Continuing Threat to Related Professors....................   127
    ALF Instructional Guide to Fire Bombs and Arson, Arson-Around 
      with Auntie Alf............................................   124
    ALF Raid on University of Iowa Laboratory November 14, 2004..   125
    Largest ELF Attack in History Garden Communities, San Diego, 
      CA, August 2003............................................   128
    PETA Supports Terrorist Activity.............................   130
    PETA Tax Return Claiming Grant to Terrorist Organization.....   129
    Dr. Best Supports Terrorist Activity as Their Liaison to the 
      Public.....................................................   131
    Contributors Blocked from Financing ALF Through the Internet.   132
    ELF Earned Commissions From Book Sales Through ELF Web site..   133
    Dr. Steven Best with 2 ALM Members, All 3 Speakers at Fresno 
      State Conference on ``Revoluntionary Environmentalism'' 
      February 13-14, 2003.......................................   134
    PETA Gives Over $70,000 to ALF Member After Burning Down 
      Michigan State Research Lab................................   135
    ELF Attacks on Development and Car Dealership................   136
    ELF Web site References EPW Committee Inquiry................   137
Letters:
    American Rivers, Friends of the Earth, Greenpeace, League of 
      Conservation Voters, Natural Resources Defense Council, 
      Sierra Club, The Wilderness Society, Union of Concerned 
      Scientists, U.S. Public Interest Research Group, May 17, 
      2005.......................................................   138
    Pacelle, Wayne, president and CEO, The Humane Society of the 
      United States, May 19, 2005................................   141
Report, Representative Bennie G. Thompson, Ranking Member, House 
  Committee on Homeland Security, April 19, 2005................145-149
Statements:
    Kerr, Jeffrey S., general counsel and director of Corporate 
      Affairs, The PETA Foundation...............................   138
    Kursban, Mindy, Esq., general counsel and executive director, 
      Physicians Committee for Responsible Medicine..............   149






























 
ECO-TERRORISM SPECIFICALLY EXAMINING THE EARTH LIBERATION FRONT AND THE 
                        ANIMAL LIBERATION FRONT

                              ----------                              


                        WEDNESDAY, MAY 18, 2005


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
406, Senate Dirksen Building, the Hon. James Inhofe (chairman 
of the committee) presiding.
    Present: Senators Inhofe, Warner, Vitter, Jeffords, and 
Lautenberg.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Today, the Committee on Environment and 
Public Works will highlight the findings of the committee's 
ongoing investigation into the issue of eco-terrorism. The 
Patriot Act defines terrorism as ``the unlawful use of force 
and violence against people or property to intimidate or coerce 
Government or civilian population in furtherance of a political 
or social objective.''
    The Department of Justice and the Department of Homeland 
Security agree that eco-terrorism is a severe problem, naming 
the serious domestic terrorist threat in the United States 
today as the Earth Liberation Front (ELF) and the Animal 
Liberation Front (ALF) which, by all accounts, is a converging 
movement with similar ideologies in common personnel.
    ELF and ALF are terrorists by definition, using 
intimidation, threats, acts of violence, and property 
destruction to force their opinions of proper environmental and 
animal rights policy upon society. ELF and ALF resort to arson, 
sabotage, and harassment in hopes of using fear to attain their 
goals of hampering development and free commerce. In fact, ELF 
and ALF are responsible for estimating conservatively, over 
$110 million in damages and 1,100 acts of terrorism in the last 
decade. ELF and ALF's weapon of choice is arson, placing 
instructions on how to effectively set fire to animal abusers 
on their Web site, which is chart No. 1, Arson-Around with 
Auntie ALF. This is a book on how to make incendiary devices 
and firebombs.
    [The referenced document follows on page 124.]
    Today, we will hear from Federal law enforcement agencies, 
the Federal Bureau of Investigation and the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives, who will discuss the problem 
of ELF and ALF and law enforcement's reaction to their 
dangerous and destructive tactics. It is these tactics, 
particularly the widespread use of arson, which makes ELF and 
ALF the No. 1 domestic terror concern over the likes of white 
supremacists, militias, and anti-abortion groups.
    We will also hear testimony today from victims of ELF and 
ALF. The University of Iowa fell victim to an ALF raid in 
November 2004, in which a laboratory suffered $450,000 in 
damages, and the associated professors' names and addresses 
were published on the ALF Web site, inviting further terror. 
Chart No. 3 is the ALF Web site with professors' names and home 
addresses.
    [The referenced document follows on page 127.]
    Unfortunately, the University of Iowa is only 1 example of 
many laboratories that have been attacked by ALF, destroying 
years of research that could have produced results that we can 
only wonder about.
    We will hear today from a victim of the largest ALF attack 
in history, causing estimated damages of $22 million. Chart No. 
4 is a picture of the construction site before and after the 
arson.
    [The referenced document follows on page 128.]
    Garden Communities, a developing company, was building a 5 
story, 306-unit condominium complex in an urban area of San 
Diego, CA, that was burned to the ground, forcing over 400 
people to be evacuated from their homes. A banner reading, ``If 
you build it, we will burn it, the ELFs are mad'' was found at 
the crime scene.
    Just like Al Qaeda and other terrorist movements, ELF and 
ALF cannot accomplish their goals without money, membership and 
the media. ELF and ALF have received support from mainstream 
activists in each of these categories. We will learn today of a 
growing network of support for extremists like ELF and ALF. For 
example, People for the Ethical Treatment of Animals, PETA, a 
501(c)(3) tax-exempt organization, has given money to ELF and 
ALF members, while acting as the spokesgroup for ELF and ALF 
after committing acts of terrorism.
    Chart No. 6 is a PETA document stating that they are the 
spokesgroup. These are not things that are accusations. These 
are facts, all documented.
    [The referenced document follows on page 130.]
    Ingrid Newkirk, the president of PETA, was invited to 
testify today at the hearing, but declined the committee's 
invitation. Along with help from above-ground organizations, 
ELF and ALF receive assistance in recruiting membership and 
media relations. Dr. Steven Best, a University of Texas 
professor, is an example of a spokesperson for ELF and ALF, who 
acts as a conduit for terrorists to the mainstream. Chart No. 7 
is an ELF and ALF contact resource document.
    [The referenced document follows on page 131.]
    Dr. Best, through his writings, speeches, and the ALF Web 
site, advocates ALF and their practices, crossing the line 
between first amendment speech and criminal behavior inciting 
violence. Mr. Best declined the committee's invitation to speak 
today to appear at this hearing.
    In addition to assistance from recruiters and well known 
501(c)(3)s, ELF and ALF are able to raise money through the 
Internet. A supporter of ELF and ALF could go to either the ELF 
or ALF Web site and literally click a button to give money to a 
terrorist movement. Chart No. 8 is the ALF Web site, 
illustrating how one could now and does donate money. As a 
result of the committee's investigation, ELF and ALF are no 
longer receiving money through the Internet from sympathizers.
    [The referenced document follows on page 132.]
    The same is true for corporate sponsorship for the sales of 
goods through the ELF Web site. Before this committee's 
investigation, ELF was receiving a commission of up to 30 
percent for the sale of books and posters. For example, 
Amazon.com paid ELF commissions for the sale of books through 
the ELF Web site. Chart No. 9 is the ELF Web site with 
Amazon.com. As a result of our investigation, Amazon.com 
removed their ad from the ELF Web site.
    [The referenced document follows on page 133.]
    The danger of ELF and ALF is imminent. Experts agree that 
although they have not killed anyone to date, it is only a 
matter of time until someone dies as a result of ELF and ALF 
criminal activity. With direct actions such as cutting the 
brake lines of 38 seafood delivery trucks, or the use of fire 
bombs and incendiary devices, it is through luck not planning, 
that there have been no ELF and ALF casualties. As a country, 
we must not only condemn terrorism, but we must also condemn 
the support and acts in furtherance of terrorism. It is time to 
take a look at the culture and the climate of support for 
criminally based activism like ELF and ALF, and do something 
about it.
    As with any other criminal enterprise, we cannot allow 
individuals and organizations to, in effect, aid and abet 
criminal behavior or provide comfort and support to them after 
the fact, just as we cannot allow the individuals and 
organizations to surf in between the laws of permissible free 
speech and speech that incites violence, when we know the goal 
is to inspire people to commit crimes of violence. This hearing 
will begin the process of scrutinizing criminally based 
activism, as well as call into question the essential support 
received from mainstream individuals and organizations.
    Before we hear testimony from our witnesses, I would like 
to show you just how serious this matter is. ELF and ALF 
recruit their membership from young people between the ages of 
18 and 25. We are going to show you a video in a minute. But 
before we do, I would like to get our opening statements out of 
the way. Feel free to take whatever time you want, because I 
went a little bit over. Then I will introduce the video that we 
will be watching.
    Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Radical extremist groups, whether eco-
terrorists, abortion clinic bombers or white supremacists have 
no role in our democratic society. No one supports violent 
criminal action, regardless of the motivation.
    I strongly condemn the actions claimed on behalf of the 
Animal Liberation Front and the Earth Liberation Front. 
Fortunately, our Nation's law enforcement agencies appear to be 
successfully countering the threat posed by radical extremist 
groups.
    Robert Mueller, Director of the FBI, testified in February 
that the serious incidents of animal rights and eco-terrorism 
decreased in 2004, largely due to law enforcement's successes.
    As we will discuss eco-terrorism, it is important to make 
clear that there is no evidence that any mainstream 
environmental organization supports the criminal activities of 
the Earth Liberation Front, ELF. In fact, I would like to 
submit for the record, a letter signed by all of the major 
environmental groups which, ``strongly condemns all acts of 
violence, including those committed in the name of 
environmental causes.''
    Timothy McVeigh's membership in the National Rifle 
Association did not make the NRA responsible for the Oklahoma 
City bombing. I have also been asked to submit for the record a 
statement from the People for Ethical Treatment of Animals, 
PETA, since they were unable to attend this hearing.
    Similarly, I request that the hearing record remain open, 
as the Humane Society of the United States, has requested the 
opportunity to respond to the charges in Mr. Martosko's 
testimony.
    [The referenced document follows on pages 138.]
    I am puzzled while the Senate Environment and Public Works 
Committee is examining the issue of animal rights and eco-
terrorism, since the committee lacks jurisdiction over the 
criminal law enforcement issues. Such matters are more 
appropriately addressed by the Judiciary or Homeland Security 
Committees.
    Nevertheless, I look forward to learning what the committee 
can do to address the problems posed by domestic terrorism. For 
that reason, I am extremely disappointed that Congressman Benny 
Thompson, the Ranking Member of the House Representative 
Homeland Security Committee has not been allowed to testify 
today. This violates the basic congressional courtesy and 
Senate tradition.
    Moreover, based on his position as the Ranking Member on 
the Homeland Security Committee, his testimony certainly would 
have been relevant to this hearing on terrorism. I would like 
to submit for the record a report that Congressman Thompson 
prepared entitled, ``Ten Years After the Oklahoma City Bombing, 
the Department of Homeland Security Must Do More To Fight Right 
Wing Domestic Terrorists.''
    [The referenced document follows on pages 145.]
    The report highlights the apparent failure of the DHS to 
address the threat posed by right-wing domestic terrorist 
groups in the Department's 5-year budget planning document. I 
share his concern that the Department of Homeland Security 
needs to protect us from all terrorist threats, and should not 
focus on eco-terrorism at the expense of other domestic 
terrorist groups, such as the KKK, right wing militias, 
abortion clinic bombers, and skin heads.
    While the Environment Committee has no jurisdiction over 
criminal law enforcement, we do have a responsibility to 
protect our communities from terrorists who target industrial 
facilities in hopes of creating massive environmental releases 
that could cause widespread havoc and countless deaths.
    Chemical plants, for example, have been called ``pre-
positioned weapons of mass destruction,'' since there are over 
100 facilities across the Nation that have the potential to 
threaten over 100 million people.
    Congress also needs to build on last year's bipartisan 
nuclear security legislation, that would require the Nuclear 
Regulatory Commission and the Department of Homeland Security 
to address the vulnerabilities at nuclear power plants and 
waste storage facilities.
    Finally, Congress should act now to reduce the risk posed 
by roughly 16,000 wastewater treatment facilities nationwide 
that still threaten their communities through the use of 
potentially deadly chlorine gas.
    In summary, Congress cannot do much about individual 
extremists committing crimes in the name of ELF or ALF, but we 
can act to significantly enhance the safety of the communities 
across the Nation. ELF and ALF may threaten dozens of people 
each year, but an incident at a chemical, nuclear, or 
wastewater facility would threaten tens of thousands.
    To truly protect our homeland security, I pledge to work 
with my colleagues to ensure that the DHS assesses all domestic 
terrorist threats, and to enact meaningful chemical, nuclear, 
and wastewater security legislation.
    Thank you.
    Senator Inhofe. Thank you, Senator Jeffords.
    Senator Lautenberg.

 OPENING STATEMENT OF HON. FRANK LAUTENBERG, U.S. SENATOR FROM 
                    THE STATE OF NEW JERSEY

    Senator Lautenberg. Yes, thanks, Mr. Chairman, for trying 
to bring some light into this situation that we see with ELF 
and ALF. You, Mr. Chairman, have been touched by terrorism in 
your home State. I have been touched by it, by the loss of 
friends and neighbors who died through the attack on the Trade 
Center on 9/11.
    Terrorists committed these acts. The fact that one was a 
domestic terrorist and the others were foreign has little to do 
with the description of the action that they took. It is 
terrorism.
    When we look at what we are seeing here, I think we must be 
careful in our anger and our disgust at the unlawful actions 
that some of these people have taken, ELF and ALF, and others, 
as often loose associations of individuals committing these 
acts. To suggest that this is a terror ring and intimate that 
environmental organizations are all kind of tinged or come 
under the umbrella of terrorism, I think it is unfair and 
unwise.
    I condemn unlawful acts wherever they occur. But if there 
is a violent killer who takes multiple lives out there, we do 
not say that he is a terrorist, not that we have to shy from 
calling him any name we want. But the label of a terrorist, a 
terrorist conspiracy that spreads through the environmental 
community, I think, is excessive name calling, and we ought not 
to engage in it.
    Now I happen to live directly across the river from where 
the World Trade Center was. I was a Commissioner of the Port 
Authority and had offices in that building when I came to the 
U.S. Senate. The lives that were touched throughout our State 
and New York State and the surrounding States left heartbreak 
that can never ever be forgotten or repaired. Because we are 
still seeing the effects on people's health who participated in 
the rescue operations at the World Trade Center.
    When I look at what has happened against Americans abroad 
by terror rings, Al Qaeda and the others, it surpasses my view 
of what are environmentalists extremes, or extremes in any 
group. We describe them as religious fanatics. They want to 
kill people, they want to behead them, so we describe them as 
religious fanatics, as terror groups.
    You have to be careful, I think, when you look at the 
issues of environmental protection and, see excesses. I condemn 
them. There is nothing worse than anyone who decides that in 
this Nation of laws that we have here, that they are entitled 
to do it their way, outside the scope of the law. There is no 
way that we can accept that.
    We should prosecute these things diligently, Mr. Chairman. 
I know that you have been here long enough, and you know the 
rules. We have no basis in this committee to conduct an 
investigation of the criminality, but to try and identify a 
problem. I share that mission.
    We are blessed in this country to have a political system. 
We are free to disagree with one another, with our Government. 
When we want to change things, we have to change them within 
the law.
    So again, I enforce my condemnation of any violence for 
political or ideological purpose. I am concerned that people in 
my State, who have been victimized by individuals or groups, 
that want to change policies regarding their treatment or the 
environment, may be classified as terrorists, even if there is 
no terrorist act, but terrorism by some kind of an association 
that is so loose it is hard to find the connection. We have to 
keep things in perspective.
    We have just seen this now, when Eric Rudolph recently 
pleaded guilty to placing a bomb in a public area during the 
Olympic Games in 1996, as well as bombing a Birmingham Women's 
Clinic and a gay night club. Since 1993, there have been at 
least 5 fatal attacks on doctors who perform legal abortions.
    I did not know whether they had been described in these 
chambers as terrorists. But certainly, the appellation would 
fit very well there. All of these cases involve loss of human 
life.
    Thank goodness, no life has been lost in the pursuit of 
these horrible goals that these organizations have set for 
themselves in the guise of trying to protect the environment. 
It is still wrong. It is wrong to destroy property and 
intimidate people who are doing their jobs. Those who commit 
crimes must be brought to justice.
    We should not allow ourselves to be blinded by the more 
serious threats posed by those who have taken innocent lives. 
We must be careful not to proclaim guilt by association. The 
acts of 1 individual do not mean that an entire organization 
can be labeled as a terrorist group.
    Mr. Chairman, one of the things that you said in your 
opening remarks is that ELF and ALF have received dollars from 
mainstream activists, which certainly is true, but not from 
mainstream environmental organizations. We ought not to let 
that thought creep out there, that perhaps environmentalism is 
a bad thing to be conscious of.
    So when we see what happened with McVeigh, a member of the 
NRA, that does not make the NRA a terrorist group. The National 
Right to Life Committee is opposed to legal abortion. Eric 
Rudolph, with his behavior, was criminal, and he was involved 
with several anti-abortion groups. That does mean that all 
members of the National Right to Life Committee are terrorists 
or that members generally are terrorists. Terror is a tactic, 
and we have to condemn that tactic wherever it raises its ugly 
head, regardless of the ideology of those who would employ it.
    But we must take care, Mr. Chairman, in all due respect, 
not to lump legitimate groups with terrorists. To do so would 
only minimize the very real threats against our society, and I 
thank you, Mr. Chairman.
    [The prepared statement of Senator Lautenberg follows:]

       Statement of Hon. Frank Lautenberg, U.S. Senator from the 
                          State of New Jersey

    Mr. Chairman, thank you for holding this hearing. I know 
that you have been personally touched by terrorism as have I. 
Your State was the site of the deadly bombing of the Federal 
building that killed 168 people and wounded more than 500. No 
American will ever forget the images of the innocent children 
who were killed or injured in that blast.
    Nor will any American forget September 11, 2001. From 
northern New Jersey, people could see the smoke rising from the 
attack on the World Trade Center that killed 700 of my fellow 
New Jerseyans.
    I mention these horrible events to provide some background 
and perspective to the issues we will be discussing today. In 
our country we are blessed to have a political system where we 
are free to disagree with one another and with our Government.
    When we want to change things, we must work for change 
within the law not break the law. So I condemn any violence for 
political or ideological purposes. I am concerned that people 
in my State have been victimized by individuals or groups that 
want to change policies regarding the treatment of animals, or 
the environment.
    Having said that, we need to keep things in perspective. As 
I mentioned, the Oklahoma City bombing killed 168 people. The 
attacks of 9/11 killed 3,000.
    Since 1993, there have been at least 5 fatal attacks on 
doctors who performed legal abortions. Eric Rudolph recently 
pleaded guilty to placing a bomb in a public area during the 
Olympic Games in 1996, as well as bombing a Birmingham women's 
clinic and a gay nightclub.
    All of these cases involved the loss of human life. To 
date, not a single incident of so-called environmental 
terrorism has killed anyone. It's wrong to destroy property and 
intimidate people who are doing their jobs and those who commit 
these crimes must be brought to justice.
    But let us not allow ourselves to be blinded to the more 
serious threats posed by those who have taken innocent lives. 
We also must be careful not to proclaim guilt by association.
    The acts of 1 individual do not mean that an entire 
organization can be labeled a terrorist group. Timothy McVeigh 
was a member of the National Rifle Association. That doesn't 
make the NRA a terrorist group.
    The National Right to Life Committee is opposed to legal 
abortion. Eric Rudolph bombed a Birmingham abortion clinic, and 
he was involved with several anti-abortion groups. That doesn't 
mean that the members of the National Right to Life Committee 
are terrorists.
    Terror is a tactic. We must condemn that tactic whenever it 
raises its ugly head regardless of the ideology of those who 
would employ it. But we must take care not to lump legitimate 
groups with terrorists. To do so would only minimize the very 
real threats against our society.

    Senator Inhofe. Well, thank you, Senator Lautenberg, and 
since you made a reference to my opening statement, I can 
respond. First of all, we have to understand that it is not 
this committee, it is the FBI that identified these groups as 
the No. 1 domestic terrorist groups that we are dealing with.
    No. 2, on the jurisdiction question, I certainly think we 
have jurisdiction. Because in spite of your statement that 
there is no relationship between legitimate mainstream 
environmental groups, there is. There is a dollar relationship 
between them.
    No. 3, I am not about to sit aside and wait until someone 
is killed with an IED, and you know it is going to happen. You 
know it is going to happen, if we allow them to continue to do 
this. I think every committee of the House and the Senate 
should get on board and put an end to this thing, and we are 
doing the job that we have to do.
    Before you came in, Senator Vitter, I commented that we are 
going to see a short video after the opening statement. So as 
soon as your statement is completed, we will do that.
    Senator Lautenberg. Mr. Chairman, since your remarks were 
directed to me, I feel that I should have a chance to respond. 
I would respond only by asking, if you would say that a large 
part of the Right to Life group have committed terrorist acts, 
because they do contribute to the Right to Life movement, 
including those who are the extremists as terrorists.
    I do not intend to sit by, either. No one who knows me 
would suggest that I tolerate this kind of thing. I just want 
us to be fair, Mr. Chairman.
    Senator Inhofe. Senator Vitter.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman, and thanks for 
your leadership with this hearing today. I applaud it. I 
applaud use of the term terrorism for these specific acts and 
these specific loose organizations, because I think it is 
absolutely appropriate.
    You look up the definition, and this is what terrorism is 
about. It is using violent and illegal activity to try to 
intimidate people, scare people into submission to go along 
with these extremist political agendas. That is basically the 
dictionary definition of terrorism. Unfortunately, that is what 
has been happening in these cases, including the ALF. The very 
name tells you something, the Animal Liberation Front.
    I know about this from direct experience, unfortunately, in 
Louisiana, at Louisiana State University. LSU experienced this 
sort of eco-terrorism twice in the last few years. It caused 
hundreds of thousands of dollars worth of damages.
    But more importantly, it really scared the heck out of a 
lot people. It made people truly fear for their safety, and 
also shut down working productive labs for a year, labs that 
were advancing science, advancing solutions to real problems 
that we need to address.
    The first attack at LSU occurred on September 24, 2003, in 
a school of veterinary facility used for inhalation and 
toxicology research. It is important to point out, and I think 
useful to point out, that even though the Animal Liberation 
Front claimed responsibility for this, there were no animals in 
the laboratory at the time. Nevertheless, the folks involved, 
associated with the ALF, vandalized the facility.
    They destroyed walls and cabinets and expensive laboratory 
equipment, and generally trashed the entire laboratory. They 
caused an estimated $250,000 worth of damage to the property. 
Even more serious, they scared the heck out of a lot of good 
people who were only doing their job, doing mainstream and 
worthwhile scientific work. Research in the laboratory, because 
of this attack, had to be suspended for about a year, as 
repairs were made. Again, that is really concerning to me. A 
few hours after that LSU attack, the ALF sent an e-mail to the 
local news media and an LSU student newspaper, taking blame for 
the damage.
    Less than a month ago, a second attack happened at LSU. 
This was on April 22. The Animal Liberation Front claimed 
responsibility for a second attack.
    Senator Inhofe. What was the date of that one, the second 
one?
    Senator Vitter. It was April 22. So very recently, there 
was a second attack at LSU, when 2 different animal facilities 
on the LSU campus were attacked. It occurred at the Life 
Sciences Facility at the central LSU campus.
    Again, these attackers entered through, in this case, 
ventilation grid, built into a rear door, that is permanently 
locked and generally just used as an emergency exit. They broke 
into several rooms. They damaged expensive equipment. They 
generally damaged the laboratory. They messed up a number of 
experiments and ongoing work that was going on.
    But even beyond the money damage, the physical damage, 
which was very significant, again, they scared the heck out of 
a lot of good people, in a clear attempt to intimidate them. 
Those 2 laboratories have had to be shut down for an extended 
period of time while repairs are being made.
    ALF posted pictures taken from within the facility on their 
Web site, moving these from server to server, to prevent 
tracking of the server. This clearly points out that this is a 
movement. This is an organization. This is not simply 1 or 2 or 
3 individuals. But they are claiming responsibility. They are 
posting pictures of their violence on their Web site.
    So I am very concerned about this activity across the 
country and, unfortunately, these 2 attacks on the campus of 
LSU are 2 interesting examples.
    I agree with you, Mr. Chairman, if we allow this to go on, 
it is only a matter of time until these sources of attacks lead 
to the loss of human life. So I thank you for this hearing. I 
thank the law enforcement and other enforcement and other 
officials here for their continuing work to counteract this 
very violent and terroristic activity. Thank you, Mr. Chairman.
    [The prepared statement of Senator Vitter follows:]

           Statement of Hon. David Vitter, U.S. Senator from 
                         the State of Louisiana

    Mr. Chairman, thank you for your leadership in putting this 
hearing together today. I also want to thank our witnesses for 
coming to testify about this very important issue.
    This an important issue in Louisiana specifically because 
Louisiana State University has experienced eco-terrorism twice 
in the last few years. It caused hundreds of thousands of 
dollars worth of damages but more importantly has also led the 
people who work there to fear for their safety.
    Over the past 3 years, the Animal Liberation Front (ALF) 
claimed responsibility for 2 attacks at the Louisiana State 
University. ALF's first attack at LSU occurred on September 24, 
2003, in a School of Veterinary Medicine facility used for 
inhalation and toxicology research. It is important to point 
out that no animals were in the laboratory at the time when ALF 
vandalized this facility. However, ALF vandals spray-painted 
slogans over several walls and cabinets, destroyed several 
pieces of expensive laboratory equipment, and generally trashed 
the entire laboratory causing an estimated $250,000 worth of 
damage to the property. Research in the laboratory was 
suspended for about a year as repairs were made. Even more 
concerning, the faculty and staff suffered fear and depression 
from ALF's attacks. This psychological harm was considerable 
and the people working in the facility feared for their safety.
    Today, we will hear from other victims who also fear they 
would be in danger since ALF has a track record of lawless 
behavior and their home addresses were public record. A few 
hours after the LSU attack, ALF sent an e-mail to local news 
media and a LSU student newspaper taking blame for the damage. 
Sending news of the attacks to an LSU student newspaper, 
reveals how ALF intentionally targets young members for 
recruitment. It is necessary to prevent our youth from 
recruitment by these terrorist activities.
    Less than a month ago on April 22, 2005, the Animal 
Liberation Front claimed responsibility for a second attack 
when ALF entered 1 of 2 animal facilities on the LSU campus. 
This attack occurred at the ``Life Sciences'' facility in 
central campus. ALF vandals entered through ventilation grids 
built into a rear door that is permanently locked and used as 
an emergency exit only. ALF also broke into another room by 
breaking the window in the door, reaching in, and unlocking the 
door. Ten mice and a few cages were stolen from the room. Then, 
ALF entered another room at the facility and destroyed 9 empty 
fish tanks. ALF also entered a third room and damaged 
equipment.
    ALF vandals again spray-painted slogans on the walls and on 
valuable equipment, they threw acetone on the walls to strip 
paint, and injected epoxy glue into door locks. ALF posted 
pictures taken from within the facility on their web site, 
moving these from server to server to prevent tracking of the 
server. This second attack resulted in an estimated $30,000 
worth of damage to the property. Again, the faculty and staff 
suffered psychological harm from the fear of their safety due 
to this incident.
    It is important to point out that ALF actually harmed mice 
in the facility which resulted in the deaths of the mice. ALF 
moved the mice from 1 cage to another, removed their 
identifying cage cards and made it impossible to identify which 
groups the mice belonged to. As a result, this necessitated the 
euthanasia of all 80+ mice in the room, and a repeat of the 
study. This will set back the research by a year.
    I am very concerned and troubled by ALF's destruction and 
harm towards LSU's faculty, staff and property in these 2 
domestic terrorist attacks. The LSU's attacks are just a few 
examples of how these domestic terrorists negatively impact 
individuals and businesses across the Nation. Today we will 
also hear from Mr. David Skorton, President of the University 
of Iowa who will testify on the attacks at his University. It 
is wrong for domestic terrorists to commit violent attacks on 
universities that are involved in research for the development 
of medicines and procedures that could benefit humans and save 
lives.
    It is only a matter of time until these attacks by domestic 
terrorists involving arson result in human deaths. We can no 
longer stand by and accept these attacks--stronger penalties 
are necessary. I look forward to hearing from our witnesses and 
gain a better understanding of how these domestic terrorist 
groups and their activities are a danger to Americans and how 
these groups attempt to unilaterally change environmental and 
animal rights policy through their acts of terrorism. Once 
again, thank you, Mr. Chairman for your efforts to organize 
this hearing.

    Senator Inhofe. Thank you, Senator Vitter.
    I have just been notified that the Democrats have objected 
to all committees meeting past 11:30 today. For that reason, I 
am going to move along here, because we want to get to both 
panels in the next hour and a half.
    I am going to ask them now to show this video. This video 
is a video of actually recruiting people as a part of this 
terrorist movement.
    [Video shown.]
    Senator Lautenberg. Mr. Chairman, in the interests of 
moving along, do we want to continue to see this?
    Senator Inhofe. You bet.
    Senator Lautenberg. The point is made. You have some crazy 
guy who is advocating violence.
    Senator Inhofe. We will go on.
    [Video shown.]
    Senator Inhofe. All right, I hope that you understand, and 
I would say to my good friend, Senator Lautenberg, that was at 
American University. It was sanctioned and it was on campus, 
raising money to go around to other campuses in New Jersey, 
Oklahoma, and elsewhere.
    We are going to go on now to our panel. First of all, our 
first panel is John Lewis, Deputy Assistant Director of the 
FBI, and the second individual on the first panel is Carson 
Carroll, Deputy Assistant Director of the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives.
    We appreciate very much both of you being here. Let us 
start with you, John, if you would please, and your statement. 
If anyone wants to abbreviate their statement, their entire 
statement will be made a part of the record.

  STATEMENT OF JOHN LEWIS, DEPUTY ASSISTANT DIRECTOR, FEDERAL 
                    BUREAU OF INVESTIGATION

    Mr. Lewis. Good morning, Chairman and members of the 
committee, I want to thank you very much for allowing us the 
opportunity to be here this morning and discuss the threat 
posed by animal rights extremists and eco-terrorists in this 
country, as well as the measures that the FBI and our partners 
are taking to address this threat.
    This is 1 of today's most serious domestic threats, coming 
from the special interest extremist movements that we have 
heard about this morning: ALF, ELF, as well as another outfit 
called Stop Huntingdon Animal Cruelty, commonly known as SHAC.
    I am gratified to hear your comments this morning, and the 
FBI certainly shares your opinion that these individuals are 
most certainly domestic terrorists, in the truest sense, 
because their agenda clearly advocates the unlawful or 
threatened use of force or violence to intimidate or coerce our 
society, our Government, for the benefit of their own 
ideological or political reasons.
    Direct action is often criminal activity that destroys 
property or causes economic loss to targeted companies. 
Traditional targets have ranged from, but have not been limited 
to, research labs, restaurants, fur farmers, and forestry 
services. Extremists have used arson, bombings, theft, animal 
releases, vandalism, and office takeovers to achieve their 
goals.
    The distinctions between Constitutionally protected 
advocacy and violent, criminal activity are extremely important 
to recognize, and law enforcement officials should be solely 
concerned with those individuals who pursue animal rights or 
environmental protection through force, violence, or criminal 
activity. Law enforcement only becomes involved when volatile 
talk turns into criminal activity.
    The FBI has seen a significant amount of such criminal 
activity. From January 1990 to June 2004, animal and 
environmental rights extremists have claimed credit for more 
than 1,200, resulting in millions of dollars of damages and 
monetary loss.
    An analysis of these incidents occurring between the year 
1977 and 2004 reflects that nearly 70 percent of these direct 
actions are acts of violence, ranging in seriousness. About 12 
percent of these are related to animal thefts and releases. 
Beyond that, about 10 percent of these are related to arson and 
other crimes.
    While most animal rights and eco-extremists have refrained 
from violence targeting human life, the FBI has observed 
troubling signs that this is changing. We have seen an 
escalation in violent rhetoric and tactics. One extremist 
recently said, ``If someone is killing, on a regular basis, 
thousands of animals, and if that person can only be stopped in 
1 way by the use of violence, then it is certainly a morally 
justifiable solution.''
    An ALF communication, recently released in 2002 on its Web 
site states the following, ``Where it is necessary, we will no 
longer hesitate to pick up the gun to implement justice and 
provide the needed protection for our planet, that decades of 
legal battles, pleading, protest, and economic sabotage have 
failed to achieve.''
    Attacks are also growing in frequency and size. Harassing 
phone calls and vandalism now co-exist with improvised 
explosive devices and personal threats to employees. ELF's 
target list has expanded to include sports utility vehicle 
dealerships, as well as new home developers. We believe these 
trends will persist, particularly with the environmental 
movement, as extremists continue to combat what they perceive 
as ``urban sprawl.''
    Preventing such criminal activity has become increasingly 
difficult, in large part, because extremists in these movements 
are very knowledgeable about the letter of the law and the 
limits of law enforcement. Moreover, they are highly 
autonomous. Lists of targets and instructions on making 
incendiary devices are posted on the Internet, but criminal 
incidents are carried out by individuals or small groups, 
acting unilaterally.
    Criminal activity by animal rights extremists and eco-
terrorists, in particular, requires relatively minor amounts of 
equipment and minimal funding. Extremists of these movements 
adhere to strict security measures, in both their 
communications as well as their operations.
    The FBI has developed a strong response to domestic 
terrorism threats. Together with our partners, we are working 
to detect, disrupt, and dismantle the animal rights and 
environmental extremist movements that are involved in this 
criminal activity.
    Our efforts are headed by a headquarters-based team of 
national intelligence analysts, program managers, and seasoned 
field agents. To address this crime problem, we have drawn upon 
our traditional criminal investigative resources, and have 
brought to this challenge additional and newer resources that 
today figure prominently in our international terrorism 
investigations.
    Examples of these, without going into too much detail, are 
what we do in the area of terrorism finance operations, as well 
as similar help that we draw from our communication 
exploitation section.
    Second, we have strengthened our intelligence capabilities. 
Since 2003, we have disseminated 64 raw intelligence reports to 
our partners throughout the United States law enforcement 
community, pertaining to animal rights extremism, as well as 
eco-terrorism activity.
    In addition, since 2004, we have disseminated 19 strategic 
intelligence assessments to our Federal, State, and local 
counterparts. Finally, we have strengthened our partnerships. 
We have combined our expertise and resources with those of our 
Federal, State, and local law enforcement partners nationwide, 
through our 103 Joint Terrorism Task Forces. We have increased 
training for our JTTF members, and have a strong and 
reoccurring liaison with foreign law enforcement agencies who 
are experiencing similar crime problems.
    Our challenges are significant, but so are our successes. 
Currently, 35 of our 56 FBI field offices have over 150 pending 
investigations off of the JTTFs in this area. Since the 
beginning of 2004, the FBI and its partners have made a high 
number of high profile arrests of individuals involved in both 
animal rights extremism, as well as eco-terrorism. These 
arrests have led to successful prosecutions.
    One of greatest challenges has been the lack of Federal 
criminal statutes to properly address the multi-state campaigns 
of intimidation, threats, and damage designed to shut 
legitimate businesses.
    On this legislative front, we are most certainly interested 
in working with you to examine Federal criminal statutes, to 
see where they might be amended or augmented. These statutes 
provide a framework for the prosecution of animal rights 
extremists, but in practice, they do not cover many of the 
criminal acts the extremists have committed.
    Investigating and preventing animal rights extremism and 
eco-terrorism is one of the FBI's highest domestic terrorism 
priorities. We are committed to working with our partners to 
disrupt and dismantle these movements, and to bring to justice 
those who commit crime in the name of animal or environmental 
rights.
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to discuss the challenges we face today in this 
area, and would be pleased to answer questions at the 
conclusion of our testimony. Thank you.
    Senator Inhofe. Thank you, Mr. Lewis, for that excellent 
opening statement.
    Senator Warner, we have just heard from the first witness, 
John Lewis of the FBI. Would you like to make an opening 
statement?
    [No response.]
    Senator Inhofe. All right, we will now hear from Mr. 
Carroll.

STATEMENT OF CARSON CARROLL, DEPUTY ASSISTANT DIRECTOR, BUREAU 
          OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES

    Mr. Carroll. Good morning, Chairman Inhofe and members of 
the committee. I want to thank you for this opportunity to 
appear before you to discuss the contributions of the Bureau of 
Alcohol, Tobacco, Firearms, and Explosives in relationship to 
the investigation of violent crimes perpetrated by 
environmental and animal rights extremists.
    Two of the most active extremists movements in the United 
States today are the Earth Liberation Front and the Animal 
Liberation Front. Both tend to engage in criminal activities 
designed to make a direct adverse economic impact on the chosen 
target. In the Pacific Northwest, where I was the special agent 
in charge of the Seattle Field Division, I gained first-hand 
experience through exposure to numerous open arson 
investigations in the region, allegedly involving ELF and ALF. 
I saw the threat posed to the communities and to the Nation.
    The most worrisome trend to law enforcement and private 
industry alike has been the increase in willingness by these 
movement to resort to the use of fire as their first weapon of 
choice. ATF has shown that suspected or known ELF and ALF 
sponsored arsons have been carried out using an assortment of 
devices ranging from primitive to sophisticated, which are 
described in ELF and ALF literature, print in print and on 
line. It is important to note that an arsonist is extremely 
dangerous. Because once the fire is set, he or she loses 
control, and the outcome is determined by the chaotic 
progression of the fire itself.
    Because of this, there have been several close calls 
connected to activity of these extremists. In one case, during 
an ELF arson incident at the Boise Cascade Office in Oregon, 
fire fighters were pulled back just before the roof collapsed. 
However, according to the U.S. Fire Administration's annual 
report, an average of over 100 fire fighters die per year in 
the line of duty.
    For the untrained eye, it is very easy to miss the remnants 
of an incendiary and explosive device, in and among the mounds 
of fire-bombed debris. The goal of ATF's arson programs is to 
provide investigative and technical expertise, rapid response, 
and state-of-the-art training, all in the service of reducing 
violent crimes involving fire.
    In addition to all field agents receiving in depth arson 
training and experience, the agents participate in ATF 
certified fire investigator CFI program, and are at the 
forefront of fire investigation. They are unequivocally the 
most highly trained origin-cause investigators in the Federal 
Government. Prior to initial certification, and in addition to 
the core curriculum, CFI's must complete a 2-year process, 
which includes examination documentation of a minimum of 100 
fire scenes. The candidates must prepare an improved 
publishable thesis in the area of fire science, fire dynamics, 
or fire behavior characteristics.
    ATF's fire protection engineers, who are experts in fire 
reconstruction and engineering analysis, provide invaluable 
expertise in this area. ATF's laboratories are instrumental in 
perfecting ATF cases, and also in serving as a resource for 
State and local law enforcement. The ATF fire research 
laboratory, located in Ammendale, MD, is a one-of-a-kind fire 
test center, with the capability of replicating fire scenarios 
for the purpose of detailed analysis.
    ATF also maintains the Arson Explosives National 
Repository, the country's most comprehensive set of data 
describing fire and explosion incidents. ATF is now using the 
latest information management technology to make case 
information available to law enforcement agencies nationwide, 
through the Bomb and Arson Tracking System.
    Several of ATF's programs, such as the National Response 
Team, and Accelerant Detection and Explosives Detection Canine 
Programs, strengthen our efforts in arson and explosives 
investigations.
    Mr. Chairman, the Anti-Arson Act of 1982 gave ATF 
jurisdiction in Federal arson offenses. Utilizing this existing 
statute, as contained in Title 18, U.S. Code Section 844(i), 
ATF has participated in over 100 investigations related to ELF 
and ALF incidents, with some noteworthy success in the 
following cases: the conviction of Jeff Leurs and Craig Marshal 
for an ELF-related arson that destroyed several sports utility 
vehicles at an automobile dealership in Eugene OR, the 
prosecution of William Jensen Cottrell for the ELF-related 
arson crimes in West Covina, CA.
    ELF members initiated a combination of pipe bombs and 
incendiary devices at the Fur Breeder Agricultural Cooperative 
in Sandy, UT. Two defendants pled guilty for that crime.
    Mr. Chairman and members of the committee, on behalf of the 
men and women of ATF, I thank you for your support of our 
crucial work. We are determined to succeed in our mission of 
reducing violent crime, preventing terrorism, and protecting 
the public. There is no greater evidence of this than our 
continued commitment in the fight against violent acts 
committed by animal rights and environmental extremists.
    Additional information on relevant ATF programs is 
contained in the long statement provided for the record. I look 
forward to responding to any questions you may have.
    Senator Inhofe. Great, thank you, Mr. Carroll, for that 
excellent opening statement.
    Before we start our 5-minute rounds of questioning, I would 
like to announce that Dr. Steven Best and Ingrid Newkirk, who 
is the president of PETA, were both invited to participate in 
today's hearing, and they declined to attend.
    Our committee investigation is ongoing. We will continue to 
examine how both organizations receive support and funding. 
While PETA has agreed to provide some information to the 
committee, Dr. Best has flat out refused to assist the 
committee in any way.
    In our investigation, if we determine that testimony from 1 
or both of the witnesses is vital, we will explore the option 
of issuing subpoenas to compel them to testify.
    We will start with 5-minute rounds of questioning. I would 
start with you, Mr. Lewis. The FBI has identified ALF and ELF 
as the No. 1 domestic terrorist organizations. I would like to 
have you describe to us what went into that decision.
    Mr. Lewis. Sir, that decision is based on a very careful 
analysis of all of the types of cases that we are involved in, 
within the domestic terrorism program. There have been several 
of those types of groups mentioned here today, right wing 
extremists, KKK, anti-abortion groups and the like.
    There is no question, as you look over the past several 
years, at the amount of damage and the amount of criminal 
activity that has been racked up by these various groups, that 
animal rights extremists and eco-terrorism, also known as ALF/
ELF predominantly are way out in front, in terms of the damage 
that they are causing here in the United States.
    We are not seeing it today from the other sectors. That 
does not mean we are not looking at them. We, of course, are, 
as I think ATF is, as well, in many cases along with us. But 
ELF and ALF, and certainly SHAC, are way out in front.
    Senator Inhofe. Thank you, Mr. Lewis. You are much more of 
an expert than I am in the area of terrorism and law 
enforcement. I sit here and I wonder how we have kept a murder 
from taking place during all these incidents. Do you have any 
ideas, or would you offer us your view as to when something 
like this could happen?
    Mr. Lewis. Well, you used language in your opening remarks, 
Mr. Chairman, that I have used several times, including with 
your staff. Plainly, I think they are lucky.
    As was mentioned by my colleague in his remarks, some of 
the arsons that we have seen around the United States, once you 
set one of these fires, they go terribly out of control. I 
think that through pure luck, we have not seen some stranger or 
employee or other type of person wonder into a site that is 
ablaze, who needed to be there for some legitimate reason. 
Frankly, they are lucky.
    Senator Inhofe. Mr. Carroll, would you characterize ELF and 
ALF as sophisticated in their preparation of attacks? Are they 
people who really are sophisticated in their methodologies?
    Mr. Carroll. Yes, they are sophisticated, and even more so 
over the last 10 years or so. I think the we have seen an 
increase in the sophistication of the devices used and their 
methodology. I think it is more so in the planning and the care 
that they take to keep their information controlled and within, 
and how they go about keeping that internal. I believe that is 
where they are very sophisticated.
    Senator Inhofe. How would you say, to advance their causes, 
they use the media, and how successful are they in using the 
media?
    Mr. Carroll. Well, they are successful in using the media. 
They use spokespersons in which somebody will announce that 
this action was carried out by ALF or ELF. Of course, when 
there is a fire or a major incendiary device, or a fire at a 
research or a university or a construction site or any of the 
other sites that we have spoken about today, it is on a news 
media. When it is on the news and it is on TV, people can see 
and watch it and it's a way of putting the word out.
    Senator Inhofe. I have heard reports also that sometimes 
the media will actually use a Web site where people are allowed 
to contribute money to promote this type of activity.
    Mr. Carroll. I am not familiar with all the details related 
to that. I would have to look into that and provide that for 
the record at a later time.
    Senator Inhofe. That would be fine.
    Mr. Lewis, in your printed testimony, you talked about some 
1,200 criminal acts that they claim responsibility for. Is that 
accurate?
    Mr. Lewis. It is accurate, sir. It is a compilation of 
cases that we know have been opened and worked, as well as 
cases they attribute to their own actions that are posted on 
their Web site.
    Senator Inhofe. Thank you very much.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Let it be clearly understood that I deplore, as much as 
anybody here, these violent acts, no matter what name they want 
to attach to it. Terrorism is kind of an umbrella name that is 
being used.
    Mr. Lewis, I noticed that you were kind enough to look at 
me every time you hit a point that you thought I ought to know. 
I thought you were looking at my pin that I got for enlisting 
in World War II, and you wanted to be sure that it was real.
    [Laughter.]
    Senator Lautenberg. I am going to ask if you would consider 
these organizations terrorist organizations. Just respond yes 
or no: Al Qaeda?
    Mr. Lewis. Definitely.
    Senator Lautenberg. Hamas?
    Mr. Lewis. Yes.
    Senator Lautenberg. Hezbollah?
    Mr. Lewis. Yes.
    Senator Lautenberg. Right to Life?
    Mr. Lewis. That requires a longer explanation.
    Senator Lautenberg. Well, you would not, or I would not 
consider it. But Mr. Carroll, they use arson. These crazies in 
the extreme movements, in the guise of environmental interests, 
they are a bunch of nuts. If you see this guy here, if he was 
near me I would punch him for the threat, and I have still a 
good fist.
    Mr. Lewis. Senator, if I may, 1 of the reasons that I 
hesitate is because there are law-abiding individuals in some 
of these groups, that spend their day trying to do the right 
thing. There are others who are obviously much more radical.
    Senator Lautenberg. The Sierra Club.
    Mr. Lewis. I will exclude Al Qaeda from those comments.
    Senator Lautenberg. How about, you said that people were 
terrorized by the notion of these actions. Let us see, you 
consider eco-terrorism the No. 1 domestic terrorist threat. Do 
I quote you properly?
    Mr. Lewis. Yes, sir.
    Senator Lautenberg. Are people not more afraid to have 
their kids kidnaped in a mall, or having a rapist breaking into 
your home, or someone who commits a murder? Terrorists acts, 
how would you describe those acts?
    Mr. Lewis. I think if you asked the common person on the 
street, they might say, yes, we are probably more afraid of 
that.
    Senator Lautenberg. Yes, because terrorism does not mean 
squat the way we talk about it.
    Mr. Lewis. The difference between what you have just 
mentioned and what we would consider to be terrorism is that 
terrorism is an ongoing relatively organized effort that is 
costing this country an awful lot of money.
    Senator Lautenberg. So environmental violence is terrorism.
    Mr. Lewis. Sir, in your own State, there is a shining 
example of how effective this terrorism campaign has been.
    Senator Lautenberg. It is awful. It does not need any 
explanation, Mr. Lewis. It does not need any. I stand against 
violence. If you talk to any of the police organizations, I was 
Commissioner of the Port Authority in New York. We had 1 of the 
best police organizations, and we lost lots of people in the 
World Trade Center.
    So I am a friend of law enforcement, and I am a friend of 
the FBI. I have great respect for what you and the organization 
does. But I am against this loose characterization that takes 
innocent people and throws them in with a bunch of thugs. Maybe 
it is the Audubon Society, the Sierra Club, the Nature 
Conservancy. I am a tree hugger. I have to tell you that. But I 
would not hug a tree and hurt anybody in the process.
    I took my grandchildren out to the forest, 10 of them, and 
we each planted a tree. The environment means a lot to me. I 
would not stand still for anyone who was trying to damage the 
environment in any way. But I think when we describe this as 
the No. 1 terrorism threat, what is it compared to, what other 
threats are in that category?
    Mr. Lewis. On the domestic terrorism side?
    Senator Lautenberg. Yes, what falls in the category of our 
number domestic threat?
    Mr. Lewis. The No. 1 domestic terrorism threat is the eco-
terrorism animal rights movement, if you will. As I indicated a 
moment ago, there is nothing else going on in this country, 
over the last several years, that is racking up the high number 
of violent crimes and terrorist actions, arsons, etc., that 
this particular area of domestic terrorism has caused.
    If you go backwards in time to the 1960's, you could look 
at the KKK, for instance, and see what kind of ruckus they were 
causing in this country. That has subsided. The abortion 
movement, over the last several years, even though they have 
had killings, as has been mentioned here this morning, cannot 
compare to the frequency, to the geographic dispersement of the 
campaign that eco-terrorists and animal rights extremists are 
creating.
    Senator Lautenberg. How about anti-homosexual?
    Senator Inhofe. Senator Lautenberg, because of the fact 
that the objection has been accepted, and all committees have 
to stop at 11:30, I would like to hold you real close to your 
time. Your time has expired.
    Senator Lautenberg. OK, because, Mr. Chairman, I honor your 
hand here and your leadership. I really do. Would you mind if I 
write some things to Mr. Lewis and ask more questions of Mr. 
Carroll?
    Senator Inhofe. If you write them? I am sorry.
    Senator Lautenberg. Ask them to respond in writing to 
questions.
    Senator Inhofe. For the record?
    Senator Lautenberg. For the record.
    Senator Inhofe. Oh, that would be fine. Yes, of course.
    Senator Lautenberg. Can I ask 1 question? Did you say you 
were going to subpoena Steven Best and Ingrid Newkirk?
    Senator Inhofe. That is 1 of the options we are looking at.
    Senator Lautenberg. I see.
    Senator Inhofe. Because we wanted them to come in. We 
wanted them to defend themselves, if there is a defense.
    Senator Lautenberg. No, I just wondered why we did not let 
Benny Thompson join us. He wanted to be here, and the other guy 
who did not want to be here, we are going to subpoena. Thank 
you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    First of all, let me just underscore a few points before my 
questions. This activity, Senator Lautenberg, is the textbook 
definition of terrorism: violent illegal activity, specifically 
for the point of intimidating and trying to change behavior in 
society or Government.
    Senator Lautenberg. Thank you for that explanation. I was 
not aware of that.
    Senator Vitter. Sure, and the other comment I would make 
directly to you is that nobody here, that I noticed, mentioned 
the Audubon Society or the Sierra Club, except you. This 
hearing is about ALF and ELF.
    Senator Lautenberg. Mr. Chairman, am I on the witness 
stand? If so, I will sit up there and Mr. Vitter can continue 
to ask me questions.
    Senator Inhofe. OK, Mr. Vitter, we have witnesses here.
    Senator Vitter. Sure, I just wanted to make those comments, 
because I thought they were pertinent.
    I would ask both the witnesses what indicators, trends, if 
you will, over time have you seen to suggest that these 
activities by ELF and ALF are becoming more violent? I am 
talking about over a longer period of time, as a general trend.
    Mr. Carroll. Well, I think with ATF, we let the crime 
itself and the investigation lead us to the suspect, terrorism 
or not. If there is a fire, we are going to be involved, and we 
have the expertise to work those scenes and we have the 
resources.
    So to answer your question related to explosive devices, 
incendiary devices, any time a device is used, it is violent. 
Whether it is more sophisticated now than it was 10 years ago, 
it is still a violent action, in which injury or death can 
occur.
    I did make reference to one of the cases in which there 
were 5 pipe bombs. The case agent for that case is currently 
stationed in our ATF Headquarters Building, and we discussed 
it. There was an incendiary device, and there was an 
individual, a caretaker, that was I think asleep in 1 of the 
buildings, and could have died because of that action. Now we 
have not seen a lot of explosive devices. But I think that 
would be the 1 indicator, when you are talking about explosive 
devices, that would show that it is more violent.
    Senator Vitter. OK, and Mr. Lewis, I do not know if you 
have any other comments. But I am trying to understand sort of 
trends over time, and what you have seen in terms of levels of 
violence, and also maybe something related, levels of 
sophistication.
    Mr. Lewis. All right, I will tell you that we have seen, 
over the past few years, a growing use of arson as the way to 
go in terms of direct actions. All of us here, I think, know 
that these wildfires can easily take lives.
    We have seen an escalation in the violent rhetoric that is 
posted on their Web site, to my mind, attempting to influence 
and incite those that follow the teachings, if you will, or the 
propaganda that is put on those Web sites.
    I would also point out, just in the last few years, to the 
use of improvised explosive devices. I do not know if you are 
going to have anyone here from Chiron or Shaklee. But there are 
a couple of devices that were used out there that contained 
shrapnel. Also, that scenario contained a second device that 
was set with a timer to go off, presumably, when first 
responders would show up to render first aid. That scenario is 
intended, in my mind, to do nothing more than to kill somebody.
    Senator Inhofe. To kill the ones who are responding--is 
this what you are saying?
    Mr. Lewis. That is exactly what I am saying. All those 
things together indicate to me that we have a serious movement 
afoot, and Federal law enforcement, FBI along with its 
partners, we have to take this seriously, and we are. I mean, 
we are doing an awful lot. Mostly, we cannot talk about it, 
because it is ongoing. But this is a serious thing for us.
    Senator Vitter. Again, without talking about any ongoing 
investigations, what can you tell us about the funding behind 
these activities?
    Mr. Lewis. It is not in any way, shape, or form resembling 
what we see in the international terrorist side of the house. 
The reasons for that are fairly simple. I will ask Mr. Carroll 
to speak of this, as well, if you do not mind.
    That is, it does not take an awful lot of money. In fact, 
it takes very little to go out and burn down a housing complex 
that might be under construction, or go into a dealership in 
the deep of the night and set ablaze 150 or whatever cars. All 
you need is something to carry gasoline or some other 
accelerant, and an ignition source. It is very little money.
    Mr. Carroll. I have no further comments to that statement.
    Senator Vitter. I appreciate what you are saying. But I 
assume there may be some funding and some transactions that 
nevertheless support this activity. Is it a focus of your 
investigations, to the extent that there is such funding?
    Mr. Lewis. As was stated in my opening remarks, we are 
drawing upon the very deep resources of the Terrorism Finance 
Operation Section, within our Counter-Terrorism Division. We 
are taking some of the tools out of that toolbox, if you will, 
and laying them over the domestic terrorism program.
    I hate to go too much deeper, because I do not want to show 
my cards. But we are using every available technique that we 
can bring into play to prosecute these individuals. Thank you 
both.
    Senator Lewis. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Vitter. We are going to 
go ahead and dismiss this panel. Because as I mentioned, and it 
might have been before you came in, we are going to have to 
stop at 11:30, because of the objection that was put on the 
committee's hearings.
    I would like to ask you though, and I know that Senator 
Lautenberg is going to write some questions for the record. I 
will be doing the same thing, and I would like also for you to 
include an explanation of what you were about to say, that had 
happened in New Jersey, so that I can have the benefit of that.
    We thank you very much for your time being here today. We 
would like to call panel 2, and I will introduce them: David 
Martosko, director of Research, the Center for Consumer 
Freedom; Bradley Campbell, commissioner, New Jersey Department 
of Environmental Protection; Dr. David Skorton, president, 
University of Iowa; and Monty McIntyre, with the Garden 
Communities.
    The last 2, I believe, were actually victims of ELF and/or 
ALF attacks. So with that, first let me thank you. I do 
apologize for the fact that we are going to have to move this a 
little faster than we thought we were going to. But it is 
something that cannot be helped.
    So I would like to ask you to limit your opening statements 
to 5 minutes. We will start with you, Mr. Martosko.
    Senator Lautenberg. Mr. Chairman, might I issue a welcome 
to Mr. Bradley Campbell?
    Senator Inhofe. Oh, I would like that, yes.
    Senator Lautenberg. He is the New Jersey Commissioner of 
the Department of Environmental Protection. We welcome him 
here. He is a very accomplished professional, and we thank you 
for being here.
    Senator Inhofe. Mr. Martosko--am I pronouncing it right, 
Martosko?
    Mr. Martosko. It is Martosko, sir.
    Senator Inhofe. Martosko.
    Mr. Martosko. Close enough.
    Senator Inhofe. Very good.

 STATEMENT OF DAVID MARTOSKO, DIRECTOR OF RESEARCH, THE CENTER 
                      FOR CONSUMER FREEDOM

    Mr. Martosko. Good morning, Mr. Chairman and members of the 
committee. My name is David Martosko. I am director of Research 
at the Center for Consumer Freedom, a nonprofit organization 
based here in Washington. It is managed by Berman and Company, 
which is a public affairs and association management firm, 
which also manages the American Beverage Institute and the 
Employment Policies Institute. Support for the center comes 
from members of the public and from private industry, including 
restaurant and food companies.
    I thank you very much for holding this very important 
hearing today.
    The ALF and the ELF, in my way of thinking, do not really 
exist in the way we think of historical underground criminal 
movements. ALF and ELF are labels of convenience, applied to 
crimes after the fact by individuals or small groups in order 
to draw public attention to their cause.
    This arrangement also gives the criminals the power to 
claim falsely that their movement is non-violent. Crimes that 
result in human bloodshed are simply not officially 
acknowledged by the ALF or ELF, but they do happen.
    These domestic terrorists who start fires, detonate bombs, 
threaten innocent lives and stalk their targets, do receive 
assistance, both financial and rhetorical, from an above-ground 
support system. I would like to walk you through some of our 
findings in that regard.
    In 1999, a magazine called ``No Compromise,'' which is 
published by and for militant ALF supporters, printed a list of 
its benefactors. They included People for the Ethical Treatment 
of Animals, the Fund for Animals, In Defense of Animals, and 
the New Jersey Animal Rights Alliance. These are all seemingly 
mainstream animal rights groups with 501(c)(3) Federal tax 
exemptions.
    The list also included PETA's president, Ingrid Newkirk, 2 
other PETA officers, and an activist now on the staff of the 
Humane Society of the United States.
    Court documents from a Federal terrorism trial scheduled to 
begin next month in New Jersey indicate that the line between 
this so-called underground and its above-ground support network 
remains quite blurry.
    Wiretap and e-mail trace warrants issued in that case 
include orders covering PETA employee Joseph Haptas, Humane 
Society of the United States employee Miyun Park, and 
University of Texas Professor Steven Best.
    One of the Defendants in this terrorism case, Joshua 
Harper, has received a $5,000 grant from PETA. When the FBI 
searched his home last year, they found, among other things, an 
envelope booby-trapped with a razor blade. This specific weapon 
has been used in ALF-like attacks in the past.
    Regarding the Humane Society of the United States, that 
organization has funded the operation of an Internet server, 
which distributed the ALF's claims for responsibility for 
violent crimes. According to 1 FBI evidence recovery log, a 
Humane Society of the United States employee named, Ariana 
Huemer passed money to Federal fugitive, Daniel Andreas San 
Diego, who is presumably responsible and wanted for the bombing 
of Chiron and Shaklee, 2 bio-med companies in California.
    John Paul Goodwin, another high-ranking employee at the 
Humane Society of the United States, has spoken publicly in 
favor of ALF crimes including arson.
    During the 1990's, People for the Ethical Treatment of 
Animals paid over $70,000 to support the legal defense of 
Rodney Coronado, the ALF member we watched on video earlier, 
who was convicted of a Michigan State University arson.
    But PETA President, Ingrid Newkirk, was herself implicated 
in that arson by the case's chief prosecutor. In his sentencing 
memorandum, U.S. Attorney, Michael Dettmer wrote that Ms. 
Newkirk arranged ``days before the MSU arson occurred'' for Mr. 
Coronado to send her materials that he would later steal from a 
targeted laboratory, along with a videotape of the arson being 
set.
    At the time, PETA's habit was to claim ignorance about the 
source of materials like these, and then hold a press 
conference to distribute them.
    In 2001, a PETA Campaign Director named Bruce Friedrich 
told an animal rights convention, ``blowing stuff up and 
smashing windows [is] a great way to bring about animal 
liberation.'' Friedrich also added that restaurants, 
slaughterhouses, medical research labs, and even their banks 
should be blown up. He has never retracted these remarks.
    I also want to note for the record that the current crop of 
Animal Liberation Front spokespersons also includes New Jersey 
Animal Rights Alliance President, Angie Metler, who is herself 
a former PETA spokesperson.
    The case of University of Texas El Paso Professor Steven 
Best, as a current ALF spokesperson, is very troubling. His 
academic position affords him a position of regrettable 
influence over young people, and he uses it in the classroom to 
promote and defend the ALF and the ELF.
    Dr. Best even wrote in a recent essay that the negative 
publicity arising from the assassination of someone from my own 
organization, the Center for Consumer Freedom, would not harm 
the reputation of the Animal Rights Movement, as a whole.
    The last self-appointed ALF spokesperson I will mention is 
Dr. Jerry Vlasak. In 2003, while appearing as a spokesperson 
for the Physicians Committee for Responsible Medicine, which is 
a PETA-affiliated group, Dr. Vlasak openly endorsed the murder 
of doctors who use animals in their research.
    When a member of his audience objected, comparing his 
approach to that of abortion clinic bombers, Vlasak replied, 
``Absolutely, I think they had a great strategy going.''
    Thank you again for holding this important hearing. I 
encourage you to seriously investigate the ALF, ELF, and 
similar phantom groups, and the above-ground individuals and 
organizations that give them aid and comfort. I urge members of 
this committee to prevail upon your colleagues to re-examine 
the tax exempt status of any groups that have helped to fund, 
directly or indirectly, these domestic terror groups.
    Thank you very much for hearing me today.
    Senator Inhofe. Thank you very much, sir.
    Commissioner Campbell.

    STATEMENT OF BRADLEY CAMPBELL, COMMISSIONER, NEW JERSEY 
             DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Mr. Campbell. Thank you very much, Mr. Chairman, for the 
opportunity to appear today on this important topic. If I may, 
I would like my entire statement to be made part of the record, 
and I will summarize briefly, in light of the time constraints.
    Senator Inhofe. OK.
    Mr. Campbell. As Senator Lautenberg mentioned at the 
beginning, terrorism of any form has a particular salience and 
importance to New Jersey. We lost nearly 700 lives in the 
attacks of September 11 of our residents.
    We were the site of the first bio-terror incident at the 
Hamilton Post Office on U.S. soil. We have ongoing efforts, 
outlined in my testimony, to ensure that the State is prepared, 
and wherever possible, terrorists acts are prevented and 
prosecuted.
    In terms of the particular organizations identified today, 
New Jersey has had particular experience in the crimes that 
have been recited. In the area of ideological eco-terrorism, 
the animal terrorist enterprises, we have had more than 16 
incidents over the past 8 years, involving crimes by these 
types of groups, and particularly, by the Animal Liberation 
Front and the Stop Huntingdon Animal Cruelty or SHAC. These 
were both mentioned in the FBI and ATF testimony, and I concur 
in their characterization.
    The damage in these cases ranged from several thousand 
dollars to several hundred thousand dollars over the course of 
time. I think, over the course of each of these incidents, 
there has been a significant learning experience on the part of 
all agencies of law enforcement, not merely my own Agency, but 
the Office of Counter Terrorism, which works closely with the 
Federal Department of Homeland Security.
    I think what is notable, in part, is the success of 
traditional law enforcement tools, in addressing these groups. 
Their methods and their crimes are akin to those of other 
felons.
    One reason the law enforcement effort has been successful 
is because Congress acted, by providing the animal terrorist 
enterprise provisions to Title 18 of the criminal code, 
Congress recognized this and gave State and Federal law 
enforcement agencies a new tool to address the threat.
    This new tool, I think, is well illustrated by the success 
of our U.S. Attorney, Chris Christey, in bringing to indictment 
7 members of SHAC, and their trial is now pending in the 
Federal Court for the District of New Jersey. We think that 
there is a broader class of eco-terror, particularly the use of 
chemical, petrochemical, and other industrial facilities as a 
weapon to inflict exposure that will result in mass casualty 
and deaths. We think that also is appropriate for congressional 
action, just as Congress acted with respect to animal terrorist 
organizations.
    Mr. Chairman, I applaud you for advancing and seeking to 
heighten nuclear security in your legislation asking NRC to 
address specific challenges with regard to nuclear security 
facilities, where we think a type of impact eco-terrorism is a 
risk.
    I applaud Senator Corzine and Senator Lautenberg for their 
leadership on chemical security, to try to put in place Federal 
standards and safeguards, and many members of this committee, 
on a bipartisan basis, who have undertaken similar leadership 
to propose and advance legislation on waste water in other 
facilities, where there is this risk that a terrorist 
organization can create, through the use of these facilities, 
that in many cases, may not have adequate safeguards, and 
certainly do not have enforceable Federal standards currently.
    Referring to the chart behind the committee, New Jersey is 
one of those States where millions are literally at risk from 
potential terrorists incidents at these facilities. In South 
Jersey, alone, we have 4 chemical and petrochemical facilities 
that put millions of residents at risk. More than 100 such 
facilities have been identified by our Domestic Security 
Preparedness Task Force, as critical infrastructure, in the 
midst of densely populated communities.
    So we ask, as the committee considers this issue, that the 
committee recognizes the success of congressional leadership, 
through provisions tailored to animal terrorist enterprises, 
and tries to follow that pattern by supporting and enacting 
legislation that will give both Federal and State agencies 
additional tools to address what we are concerned may be the 
next generation terrorists threat, in terms of terrorist acts 
at nuclear, petrochemical, and chemical facilities, where 
additional Federal safeguards are needed.
    We also hope that the committee recognizes that in this 
effort, many of the tools that are used for other terrorists 
threats, outside the realm of eco-terrorism, have been 
enormously effective in tracking, monitoring, and responding to 
ELF and SHAC and ALF in their presence in New Jersey. So our 
long-standing plea, as a State, is for better tailored funding 
formulas for domestic security is equally ethical to this 
threat, as it is to the range of threats that the Department of 
Homeland Security has identified.
    So with that, I see my time is up, and I thank you.
    Senator Inhofe. Well, thank you, Commissioner, that was an 
excellent statement. Let me just assure you and anyone else who 
might have any doubts about it, that this committee does have 
jurisdiction over nuclear security, chemical security, waste 
water security. We have introduced legislation and passed some 
legislation.
    So we are addressing those. That is not the subject of this 
hearing today. This is eco-terrorism. It does not mean that we 
are any less concerned about the other legislation that we have 
proposed in this committee in a bipartisan way.
    Dr. Skorton.

 STATEMENT OF DR. DAVID SKORTON, PRESIDENT, UNIVERSITY OF IOWA

    Dr. Skorton. Thank you, and I also ask that my entire 
statement be place in the record.
    Senator Inhofe. It is so ordered.
    Dr. Skorton. Chairman Inhofe and distinguished members of 
the committee, my name is David Skorton, and I am president of 
the University of Iowa. I am also a physician and professor of 
internal medicine, biomedical engineering, and electrical 
engineering. I am very honored to have been asked to provide 
testimony today concerning a series of events on the University 
of Iowa campus. These are events that raise a variety of issues 
related to academic freedom, the safe working and living 
environment, the place of civil disobedience on a university 
campus, and most importantly, the future environment and 
accessibility of a publicly supported institution of higher 
education.
    In the early morning hours of Sunday, November 14, 2004, 3 
or more individuals broke into our Seashore Hall and Spence 
Laboratories facilities. The intruders smashed and overturned 
equipment, and poured acid and other chemicals on equipment and 
papers. Over 300 rodents were removed from the facility. Many 
of these rodents, purpose-bred for research and being cared for 
by faculty members, veterinarians, and other animal care 
professionals, likely suffered and died as a result of this 
action.
    The University of Iowa police, in conjunction with the 
State of Iowa Department of Criminal Investigation, involved 
the FBI, which was central to the investigation of this act of 
domestic terrorism. All affected units had to be temporarily 
closed or relocated. Not only was research disrupted, but the 
academic activities and careers of faculty, undergraduate and 
graduate students and post-doctoral trainees were impaired, 
adding months to the conduct of peer-reviewed, Federally funded 
research.
    Four days after the break-in, on Thursday, November 18, 
individuals sent an e-mail to multiple local and national 
media, claiming responsibility on behalf of ALF for the 
vandalism. The e-mail included the names, home addresses, phone 
numbers, e-mail addresses, and spouses or partner's names for 
faculty, graduate students, and laboratory assistants. 
Publicizing this personal information was blatant intimidation. 
These individuals are still being harassed, and are still 
concerned about their own safety, as well as that of their 
families.
    In addition to the human cost to the researchers, their 
colleagues and families, the total direct costs for the 
incident are approximately $450,000. What cannot be measured in 
monetary terms is the loss of progress and research.
    Although the destruction was to research equipment and 
materials, it is clear from the videos that the group provided 
to the media, that the message of fear and intimidation was 
meant for a much larger audience: our university as a whole and 
the general public.
    Was this an act of informed debate or civil disobedience? I 
think not. First, the perpetrators of the vandalism took no 
personal responsibility for the acts, but performed the actions 
wearing ski masks or other garments to protect their 
identities. For example, at the heart of Mahatma Gandhi's 
philosophy of non-violent resistance was openness and 
forthrightness, ``daring to do the right and facing 
consequences, whether it is in matters social, political or 
other.'' Second, direct intimidation of the researchers and the 
families, intended to cause fear and personal anxiety, was a 
deliberate tactic. Third and most ironically, the attacks 
occurred on a campus which has for decades exceeded Federal 
regulations regarding the humane care and use of animals in 
teaching and research.
    If not civil disobedience, what was this action? In my 
estimation, it was purely and simply a criminal act. Let us 
explore very briefly the place of public civil discourse in the 
nationwide discussion of the use of animals in research and 
teaching.
    Thanks to effective decades-long interactions among 
researchers, administrators, and constructive animal welfare 
groups, the handling and use of research animals have been 
greatly improved in recent decades. On our campus, training and 
the handling of research animals is mandatory, before personnel 
can acquire a single animal.
    What has been the result on our campus, Mr. Chairman, of 
the deplorable criminal action by a group of vandals, acting in 
the dark of night, taking no responsibility for their actions? 
First, the environment for researchers at our university has 
been permanently altered. These researchers now live lives of 
fear and anger.
    Second, the university and Federal and State taxpayers have 
had to spend funds that were, in essence, wasted on the 
sequelae of this action, rather than on advancing research. 
This, no doubt, was part of the strategy. This action and 
others like it add to the increasingly significant changes in 
the openness of American university campuses.
    Finally and most importantly, what has not changed and will 
not change on our campus is that our university is completely 
and unalterably committed to allowing faculty, staff, and 
students to pursue their chosen research that is scientifically 
sound, legal, and humane. This criminal act will do nothing but 
strengthen our resolve to stand behind the principles of 
academic freedom in conducting publicly supported research 
toward the advancement of knowledge and the improvement of 
animal and human health. Thank you.
    Senator Inhofe. Thank you, Dr. Skorton.
    Mr. McIntyre.

     STATEMENT OF MONTY McINTYRE, ESQ., GARDEN COMMUNITIES

    Mr. McIntyre. Mr. Chairman and members of the committee, 
good morning. My name is Monty McIntyre, and it is my privilege 
and my honor to testify before you today on behalf of Garden 
Communities.
    President Abraham Lincoln, during his Gettysburg address, 
said these words, ``that we here highly resolved that these 
dead shall not have died in vain, that this Nation under God 
shall have a new birth of freedom, and that Government of the 
people, by the people, and for the people shall not perish from 
the earth.''
    I am here to tell you about the devastating consequences of 
violent acts by groups like the Earth Liberation Front. They 
certainly do not believe in Government of the people, by the 
people, or for the people.
    On August 1, 2003, ELF torched an apartment building that 
Garden Communities was building in San Diego, CA, totally 
destroying the building, and causing millions of dollars in 
damages. Garden Communities is a company that builds and 
operates apartment buildings in California and Arizona, 
providing homes for thousands of people. It also creates jobs, 
not only for its own employees, but also for many 
subcontractors and construction professionals that it works 
with.
    Garden Communities follows the environmental laws 
applicable to its projects. As Senator Boxer from California 
would know, California has 1 of the toughest environmental laws 
in the country, known as the California Environmental Quality 
Act, or CEQA.
    Under CEQA, the Garden Communities' project that we call La 
Jolla Crossroads was required to undergo the most intensive 
environmental study, which is called an Environmental Impact 
Report, EIR. When an EIR is being prepared, the public is 
notified and given the opportunity to provide input. The EIR 
considers the potential environmental impacts of the project, 
and also how those impacts might be eliminated or mitigated, 
and also considers alternative uses of the property.
    The La Jolla Crossroads project went through the entire 
extensive EIR process and was approved. When completed, the La 
Jolla Crossroads Project will include 9 apartment buildings and 
1 scientific research building. Before the ELF attack, the 
first building was expected to be completed by April 2004, and 
the project completion date was scheduled for August 2009. 
About 50 to 60 companies and 150 people were working on this 
project.
    On August 1, 2003, ELF started a fire that completely 
destroyed the first building under construction. Why do we 
think ELF is responsible? On the ground next to the burned 
building was a white bed sheet with spray painted letters that 
said, ``You make us mad. You build it, we burn it, ELF.''
    All framing and foundation for the building were completely 
destroyed. All construction work stopped immediately. Many of 
the companies who were working on the project struggled 
financially after the fire, and at least 2 of them either went 
bankrupt or stopped conducting business altogether.
    The fire loss also interrupted the good working 
relationships that Garden Communities had developed over the 
years with several of its subcontractors. After the fire, 
Garden Communities was forced to spend its time and resources 
figuring out the fire loss, removing the damage and debris, 
renegotiating numerous contracts with subcontractors, and 
working to get the construction going again.
    This fire loss will delay the total project completion by 
at least 1 year. Garden Communities has suffered approximately 
$22 million in damages from this terrorist act. These damages 
include the overhead and general conditions, hard costs for 
reconstruction of the building that was destroyed, and other 
damages related to the entire project, including loss of rental 
income, increased carrying costs, and increased construction 
costs.
    Garden Communities has also suffered because this fire loss 
has created a dispute with 1 of its insurance carriers. So you 
can see from the summary, Garden Communities has suffered 
enormous damages, as a result of the ELF attack.
    Garden Communities is a good company. It provides jobs for 
our citizens and builds much needed housing for folks in 
California and Arizona. Garden Communities followed the 
environmental laws and was properly building this project.
    By violently taking matters into their own hands, terrorist 
groups like ELF threaten our Nation's fundamental values, 
including the idea that our Government should be of the people, 
by the people, and for the people.
    We hope that the U.S. Senate will do everything in its 
power to stop future unlawful acts by terrorist groups like 
ELF. Thank you.
    Senator Inhofe. Thank you very much.
    What we are going to do, since I made the announcements 
that the Democrats had opposed the continuation of committee 
hearings past 11:30, I understand there will be 1 or 2 other 
members coming down, Senator Lautenberg. So we are going to 
adhere to a very strict 5-minute questioning, so that others 
who come in would have their turn, also.
    Mr. Martosko.
    Mr. Martosko. Martosko.
    Senator Inhofe. Martosko, all right, can I call you David?
    Mr. Martosko. Absolutely, I prefer that.
    [Laughter.]
    Senator Inhofe. You tried to cover so much, which is our 
fault, in the limited period of time. So I apologize for that. 
But you said something about razor blades. I did not get how 
that was connected to this subject in here. Would you share 
that with us?
    Mr. Martosko. Certainly. In its investigation of Joshua 
Harper, pursuant to the Federal charges in the SHAC case, which 
trial is being started June 1st in New Jersey, in Joshua 
Harper's residence, FBI evidence recovered logs indicate that 
they found 1 of these booby-trapped devices, that consists of a 
envelope booby-trapped and rigged with a razor blade, designed 
to slice off the finger of the person who opens the envelope.
    Now these items have been used before in attacks directed 
at, I believe, fur farmers and biomedical researchers, both in 
the United States and Canada. Generally speaking, these 
particular crimes did not get claimed by the ALF because blood 
was spilled.
    An example of this is the Canadian attacks. As soon as news 
reports got out that someone actually was harmed by opening 1 
of these envelopes, booby-trapped with a razor blade, the claim 
of responsibility for the crime was issued by a previously 
unheard of group that called itself the Justice Department. 
This was an ad hoc designation. Because, of course, if the ALF 
officially claimed it, that would completely destroy their 
claim of non-violence.
    Senator Inhofe. Thank you very much, and I have 1 other 
question that I want to ask you. We have a photograph of Rodney 
Coronado, an ALF member who we saw in the video, Dr. Steven 
Best, and PETA employees at a conference on revolutionary 
environmentalism. What is your sense of the interaction between 
the underground criminal activities and the mainstream 
activities?
    Mr. Martosko. Well, Senator, I think while a picture can 
certainly say a thousand words, this 1 is on Steven Best's own 
Web site. He seems very proud of his association with Rodney 
Coronado, who is a convicted ALF arsonist, and Mr. Gary 
Yourofsky, who is also an ALF convict. He spent 6 months in 
maximum security in Canada for raiding a farm up there.
    I should point out, Mr. Yourofsky is a contractor with 
PETA. They have him going into schools and lecturing to 
children in middle school and high school. You know, he is an 
ALF convict. It boggles the mind. Of course, Mr. Coronado, as 
we saw in the video earlier, is out teaching college students 
how to build incendiary devices.
    Yet, Dr. Best seems very comfortable in their company. I 
think anyone who follows this movement as closely as I do will 
tell you that Dr. Best is at the epicenter right now of the 
organizational aspect of what the ALF is doing.
    Dr. Best is part cheerleader, part recruiter, if you will. 
You know, he uses his classroom, freely and openly, to 
indoctrinate adolescents with animal-rights ambitions, and 
simultaneously praises the ALF and ELF.
    As I mentioned before, he has even written, within the last 
month, that it would not be such a bad thing if I personally 
were assassinated. So the mixture between the aboveground and 
underground is hard to keep track of because the line keeps 
blurring so much.
    Senator Inhofe. Thank you very much.
    Dr. Skorton, this is interesting. I know that you are not 
only a physician and a professor, but also a biomedical 
engineer and electrical engineer.
    I have a son who is a biomedical and electrical engineer 
and a hand surgeon. Coincidentally, he called me this morning 
early, because he knew this was coming up. He just asked a very 
simple question. He said, ``You know, when we are 
experimenting, it is either going to be with animals or with 
humans. Why is this a confusing issue?'' Now when you look at 
it professionally, what do you think about that? Do you agree 
with my son?
    Dr. Skorton. Well, I would never disagree with your son, 
sir, in public. However let me take a slightly broader view.
    Senator Inhofe. OK, I am going to modify the question, 
because I am almost out of time. I know in your background, No. 
1, I understand you are a vegetarian, and I know, No. 2, you 
have been active in animal rights. I would like to have you, 
coming from your perspective, say how you feel animals are used 
in the propriety.
    Dr. Skorton. I appreciate the restatement, sir. I believe 
there is plenty of room for discussion about the appropriate 
place for animals and humans in research. I consider 1 of my 
interest to be in research ethics, broadly defined.
    That whole area of constructive discussion on the place, 
the rules, and procedures, Federal laws, regulations, animal 
welfare act, USDA regulations, under which animals are used is 
certainly an area where reasonable people can disagree. As I 
tried to make clear in my brief remarks, we have made much 
progress in the last decades by having constructive interaction 
among Members of Congress, among administrators, among animal 
researchers, and constructive animal welfare groups.
    I want to set that question aside, of reasonable public 
discourse, and say, that has nothing to do with what you are 
hearing about today. It has nothing to do with it whatsoever.
    What you are hearing about today are people frustrated, in 
my estimation, by the fact that things are moving too slowly 
and not in the direction they would like. So they take matters 
in their own hands in a criminal way.
    I would like to clearly separate for the committee my 
opinion that there is plenty of room for reasonable debate on 
many issues in this country. In fact, on university campuses, 
it is our obligation to have that debate. There is no room for 
personal intimidation crime of the sort that we have heard 
about here.
    Senator Inhofe. That is very good. I am 30 seconds over, so 
Senator Lautenberg, you can go 30 seconds over.
    Senator Lautenberg. Yes, thank you.
    Mr. Martosko, are you a registered lobbyist?
    Mr. Martosko. No, sir, I am not.
    Senator Lautenberg. Is your organization supported by the 
Restaurant Association?
    Mr. Martosko. No, sir, the Restaurant Association has no 
connection with us.
    Senator Lautenberg. I thought you said that clients of your 
organization were affiliated.
    Mr. Martosko. We do not have clients. The Center for 
Consumer Freedom is supported, in part, by private industry, 
which includes individual restaurant and food companies. But we 
are not, in any way, connected to the National Restaurant 
Association.
    Senator Lautenberg. Brad Campbell, you have testified that 
there have been about 1,100 eco-terrorist incidents over the 3 
decades. But in 2003 alone, there were more than 8,700 hate 
crimes, including 1,217 where people were attacked for their 
sexual orientation.
    Perhaps it is not fair to ask you this question. What could 
highlight eco-terrorism or attacks on those who pursue any kind 
activity, non-criminal? I mean, just listening to Dr. Skorton, 
your testimony was balanced and very important. There is 
nothing more revolting than to see people interrupt research 
and science and buildings and life. I mean, these are terrible 
criminal acts.
    I think, Mr. Martosko, you ought to provide the information 
so we can nail these guys. Why do you not get it out there to 
the FBI? If your evidence and the statements you make are 
supported by fact, then why do you not promote punishing these 
people, getting them locked up?
    I mean, you make statements that suggest that, well, this 1 
is part of this organization, and he is defending so-and-so. 
Does that mean that the organization is included in your 
definition of terrorism?
    Mr. Martosko. It depends on which case you mean, Senator. 
In the case of People for the Ethical Treatment of Animals, I 
think when a U.S. Attorney is issued a finding of fact that the 
group's president implicated herself in an arson, I think that 
includes the organization in the definition of terrorism.
    Senator Lautenberg. Well, she ought to be punished.
    Mr. Martosko. I agree, and it is a mystery to me why she 
never was prosecuted. But I am not a law enforcement agent. My 
role is to provide accurate research and facts, and let 
gentlemen like you and law enforcement decide what to do with 
them.
    Senator Lautenberg. Thank you.
    Mr. Campbell, do you see the leveling of this eco-terrorism 
as being the No. 1 domestic terror concern?
    Mr. Carroll. Well, Senator, I would not necessarily dispute 
the testimony of the FBI or the ATF. But I think that testimony 
likely would have been the same in the view of our law 
enforcement officials, before September 11.
    What September 11 changed is the type of terrorists. In my 
view, it's another form of eco-terrorism, trying to create an 
ecological impact that creates casualties and damage on a 
massive scale. It changed our sense of which problem was the 
most urgent, in terms of additional measures.
    Congress enacted additional measures with respect to these 
animal terrorist groups. I think the success of the indictment 
by our U.S. Attorney, Chris Christy, with respect to the SHAC 
group that the ATF and FBI mentioned earlier, is an example of 
that.
    My concern is that that fact, which I think was a fact 
before September 11, not distract us from the types of 
populations and communities that may be at risk, due to the 
absence of Federal safeguards in some of these other sectors.
    Senator Lautenberg. I think I took it out of your realm. I 
asked the question because I am looking for some reinforcement 
here.
    When I look at what we have surrounding us, and how this 
Nation has responded to the fear or the anxiety of a terrorist 
attack, there is 1 place, as you know very well, Commissioner 
Campbell, that is described as the most dangerous 2-mile area 
as a target for terrorists in the country. Dr. Skorton, it is 
said by the Coast Guard that an attack on a chlorine plant that 
is there could kill as many as 12 million people.
    Mr. Chairman, we have railroads here, where these cars 
carry chlorine gas. It is believed here that if one of these is 
attacked and that gas escapes, that 5,000 people could be in 
danger.
    There is one thing I want to get straight here. That is, 
that I, in no way ever, condone any violence, no matter what 
the cause is. We are a Nation of laws, and by golly, we have a 
way to handle these things and we should.
    Dr. Skorton, yes, please?
    Dr. Skorton. I did not mean to interrupt you. I wanted to 
make a comment.
    Senator Lautenberg. Well, I am glad to hear from you.
    Dr. Skorton. Well, forgive me, I think the sense of your 
statement is that there are some larger kinds of issues out 
there. I want to make one more point, strictly about the narrow 
focus that I am giving on animal research in the biomedical 
research domain. It is not product testing, but research.
    That is, I think one has to calculate or estimate the so-
called opportunity cost of not doing the research, the 
opportunity cost on animal lives, the opportunity cost on human 
lives.
    I would submit that unfortunately although I cannot give 
you quantification of that opportunity cost, that it is 
massive. That for every single or generation of researcher that 
lives in a chilled environment and does not go forward to do 
research, that we are paying an opportunity cost that I would 
estimate could be calculated in many lives over the years, 
because of the huge number of discoveries that have been based 
in part, not in whole, but in part to animal research.
    So this is in no way to argue with the points that you were 
making, but just to mention the opportunity costs of the 
research not going forward, just for your consideration.
    Senator Lautenberg. Yes, Mr. Chairman, are we loose on 
time, until we have other visitors?
    Senator Inhofe. Let me go ahead and take my turn. If no one 
shows up, we will just pass it back and forth. Is that all 
right? All right, sir, thank you very much.
    Mr. McIntyre, we have a photo here of the construction site 
to which you referred. This was arson in an urban area of San 
Diego?
    Mr. McIntyre. Yes, it is called the Golden Triangle area. 
There are a lot of apartment and condominium units fairly close 
by, as well as office buildings.
    Senator Inhofe. Yes, the question I would ask you is, under 
California law, it is my understanding under their 
Environmental Quality Act and other laws, that the citizens are 
provided ample opportunity to voice objections concerning new 
construction and all that. Is that correct, and did they do 
that?
    Mr. McIntyre. That is correct. Under the CEQA law that I 
talked about, citizens are given notice and the opportunity to 
participate when an Environmental Impact Report is being 
prepared. That is the most intensive report that can be 
prepared. There are other less intensive reports that can be 
done. But this project required the most intensive report.
    Also, if people from the public are concerned about the 
project or want to take positions opposing it, they can do so. 
They have rights to appeal the process, when it goes through 
the different agencies that do it. When the agencies complete 
their review--and in this case it would be the city of San 
Diego--and approve the EIR, then citizens also have a right, if 
they think it is inappropriately approve, to file civil 
litigation to contest that finding. We went through that whole 
process, a very involved process.
    Senator Inhofe. About how many hearings do you think there 
were?
    Mr. McIntyre. Oh, in terms of the total number of hearings, 
we get in the range of about 4 or 5. Part of it also depends 
upon, if somebody files appeals or not. But we went through the 
process.
    Senator Inhofe. Did anyone with any association with ELF 
and ALF ever pose any objections at any of those hearings?
    Mr. McIntyre. Not that we know of, no.
    Senator Inhofe. Thank you very much.
    Mr. Martosko, what role do you believe that Dr. Steven Best 
plays for ALF?
    Mr. Martosko. Well, judging from his writings, I think it 
is fair to say that he is an enthusiastic supporter of every 1 
of their tactics, regardless of how violent.
    Senator Inhofe. Do you believe he advocates criminally 
based activism?
    Mr. Martosko. I think it is a fact. It is clear from the 
record of his writings and his speeches that he advocates 
criminal activity.
    Senator Inhofe. Do you believe that Dr. Best and ALF and 
ELF and PETA target youth for membership in their movements?
    Mr. Martosko. It is clear that in the case of the 
underground criminal elements, they target adolescents, 
generally. In the case of more aboveground groups like PETA, 
they target children as young as 6 years old, through the 
schools, through curriculums, and by propagandizing them 
outside of their own schools, as they walk home from school 
sometimes. Dr. Best, I think his influence is limited to 
college-age adolescents. But he is certainly targeting that age 
group, as well.
    Senator Inhofe. Well, certainly, this is something I was 
not aware of. You say that there is an effort also to motivate 
grade school kids?
    Mr. Martosko. I am not saying that PETA is motivating grade 
school kids to commit crimes. I am saying that they are 
motivating grade school kids to embrace an animal rights 
philosophy, which might in some cases lead these children to 
embrace criminal activity later in life.
    PETA's activists camp outside of middle schools and 
elementary schools. They have done this in at least 30 States, 
intercepting kids as they walk to and from school, without the 
knowledge of their parents.
    In some cases, 2 Christmases ago, outside a performance of 
the Nutcracker, PETA activists looked for women wearing fur 
coats who had children with them, and thrust a graphic comic 
book into the children's hands, which instructed the kids that 
``your mommy kills animals.''
    I encourage you to talk, if you have time, to Dr. Jeffrey 
Dolgan, who is the chief of Psychology at Children's Hospital 
in Denver, who has spoken extensively about the impact of this 
on a child's psychological development.
    In the case of Dr. Best, more pointed to your question, he 
sort of closes the loop. He closes the deal with the 
adolescents who are inclined to set fires and throw bombs. I 
think he seals the deal.
    Senator Inhofe. Do you know of any other mainstream 
organizations that have ties to criminally based activism?
    Mr. Martosko. Well, it depends on how loosely you want to 
define those ties. I mean, somebody here mentioned the Sierra 
Club earlier. That organization has a board member named Paul 
Watson, who himself told an animal rights convention 2 years 
ago that, ``There is nothing wrong with being a terrorist, as 
long as you win.''
    This is a man who trains people who wind up ALF defendants. 
He trained Rodney Coronado. He trained other folks on his boats 
at the Sea Shepherd Conservation Society. So even the Sierra 
Club does have a link here, and I wish they would disavow that 
gentleman.
    Senator Inhofe. Thank you. Dr. Skorton, as I understand, 
you are a protector of free speech in the academic world. What 
are your thoughts on speech and rhetoric that advocates and 
incites violence?
    Dr. Skorton. Well, as an example of how much of a supporter 
we are, at our university, we allowed Mr. Best to come and 
speak to our campus. He was invited by a student group on 
January 27, 2005, when the terrorist occurred on November 14, 
2004.
    A request was made to my office to prevent his appearing on 
campus, which I rejected, as evidence that I do think it is 
important to have open speech. We determined that Mr. Best was 
within First Amendment rights to speak on campus.
    I personally repudiated a lot of the things he said. If you 
would like to, I can read some of his statements that went to 
the record. But even without doing that, let me just say that I 
think it is very important that universities do not become 
closed enclaves of a particular opinion. Nonetheless, I will 
say that his statements were very strongly supportive of the 
worst violent acts.
    Senator Inhofe. All right, thank you very much.
    Senator Lautenberg.
    Senator Lautenberg. Professor, let me commend you for your 
academic charge. It is not always pleasant when we hear things 
that people say that are repulsive to us and that we challenge. 
But unfortunately, the cost of academic freedom does include 
some of what we consider abuses, but I do not know whether they 
are law-breaking.
    Mr. Martosko, you sit at this table, and I assume that you 
realize that you are under oath, even though you have not stood 
up and raised your hand.
    Mr. Martosko. Yes, sir.
    Senator Lautenberg. Now what did you say happened with Ms. 
Newkirk? She is the president of PETA.
    Mr. Martosko. She is the president and co-founder.
    Senator Lautenberg. What charge did you say was leveled 
against her?
    Mr. Martosko. I did not say a charge was leveled against 
her. What I said, Senator, was that in his sentencing document, 
in the case of Rodney Coronado, a portion of which I have 
submitted for the record, U.S. Attorney, Michael Detmer wrote 
that Ingrid Newkirk had foreknowledge of the arson at Michigan 
State University.
    Senator Lautenberg. Could she not have been prosecuted for 
aiding and abetting?
    Mr. Martosko. I think she should have been, sir. But I was 
not following the issue back then.
    Senator Lautenberg. You make these accusations fairly 
loosely here.
    Mr. Martosko. No, sir, the U.S. Attorney made the 
accusation. I am merely reporting it.
    Senator Lautenberg. Would you agree with him?
    Mr. Martosko. I have no position to agree or disagree. I am 
merely reporting the evidence, as read to the courts.
    Senator Lautenberg. I want the record to show that you are 
just reporting on that.
    Mr. Martosko. Yes, sir.
    Senator Lautenberg. That you had no basis, in fact, to 
suggest that she was violating the law in any way.
    Mr. Martosko. It is only what the U.S. Attorney reported, 
which was that she arranged ahead of time for a convicted 
arsonist to send her materials.
    Senator Lautenberg. Did you write to that particular U.S. 
Attorney, suggesting that they prosecute?
    Mr. Martosko. I am sorry, say that again.
    Senator Lautenberg. Did you write or call him to encourage 
the prosecution of Ms. Newkirk?
    Mr. Martosko. I have communicated with the U.S. Attorney's 
office, but that was long since that case was closed. I am sure 
the statute of limitations would preclude her prosecution at 
this point. This is now 10 years after.
    Senator Lautenberg. So it was dealt with effectively?
    Mr. Martosko. I would disagree. But I think certainly there 
was an opportunity to deal with it effectively that was lost.
    Senator Lautenberg. I am curious about something. Dr. 
Skorton, I am a contributor to something called the Lautenberg 
Center for Cancer Research. It is out of the country. It is a 
very effective organization.
    It is based in Israel. A scientist from New Jersey moved 
there and is a friend of mine. I funded their operation in the 
beginning. It is very good basic research. As you know, 
sometimes they will use radical treatments for someone who is 
terminally ill, to try and see if they can help someone else in 
the future.
    So I frankly like the way that you presented the question 
about experimentation with animals, etc. There is room for 
debate on that question. There is, and I am not proposing it, 
believe me.
    But the fact of the matter is, heaven forbid that it was 
one of my children or one of my grandchildren, and they knew 
that by testing a material on a particular rodent that 
responded physiologically similar to a human, I would say, go 
get it. I, quite frankly, would have to say that.
    So I have little or no patience with these violent acts 
committed in whatever name they come. The only thing I am 
concerned about is whether to elevate this to the No. 1 
domestic terror issue. Our Department of Homeland Security has 
a budget of over $40 billion. This is in anticipation that we 
are still not doing the job as well as we would like to.
    I do not understand the ugliness of these pictures. It is 
just like we have seen ugly pictures of other kinds of 
destruction. It qualifies to make this a pursuit of our 
country. I would like to catch every one of those.
    My son, Senator Inhofe, is in Colorado. He climbs and 
hikes, and he works in the mountains. When they burned the 
facility in Vale, CO, it was heartbreaking. This was a 
beautiful thing, and some part of that property is Government 
property.
    The case was never closed. I called the FBI, because I was 
there to see if they would take the case. They did, and they 
were never able to solve it. It was believed to be some eco-
terrorist group who was protesting whatever the cause was. So I 
thank you for your open-mindedness.
    Dr. Skorton. I am not in the position, and I have no 
ability or skill or knowledge to comment on whether this is No. 
1 or No. 2.
    I will garner the floor briefly to thank you for your 
support of bio-medical research that you are doing. I, too, 
have worked with colleagues at the Technian for years.
    Your example of cancer treatment is one in which all of 
these modalities have to come together. I have had the honor of 
being consultant to the FAA for a decade in medical devices. In 
cancer research, there has to be computer modeling. There has 
to be basic research that involves cells. There has to be some 
animal research. There has to be some human research, and there 
has to be follow-up of drugs and medical devices.
    My point is only, at the risk of being redundant, that a 
well organized dialog across the country of all involved 
parties toward the goal of improving the corps of knowledge, in 
animal health and human health, will bear and will produce much 
disagreement on many things. It should be done in the context 
of the way we do things in this country, and that it is openly 
taking responsibility for our views, and moving things forward 
in that fashion.
    Once again, I thank you for your personal support for the 
research endeavor.
    Senator Lautenberg. Thank you, and bless our Nation of 
laws.
    Senator Inhofe. Yes. We will have to end in 4 minutes. 
Senator Lautenberg, let me just get in here for a final couple 
of questions.
    First, I just want to give you the assurance, Commissioner 
Campbell, that we have devoted a lot of time on chemical 
security. That is not the subject of this hearing today. We 
have actually passed out new chemical security bills. Now with 
the reorganization, they have taken that from us and it is now 
under DHS. So they will continue the work that we have started.
    Mr. McIntyre, you mentioned that you could read. Why don't 
you select one statement, just so we can hear it here, as 
opposed to getting it from the record, of Dr. Best. You 
mentioned that there are some statements that you had.
    Mr. McIntyre. That was not me.
    Senator Inhofe. I am so sorry. Dr. Skorton, would you do 
that, please?
    Senator Lautenberg. Could I speak for a second, Mr. 
Chairman?
    Senator Inhofe. Sure.
    Senator Lautenberg. Unanimous consent request that the 
opening statement of Senator Obama and other members who could 
not be here today be included in the record.
    Senator Inhofe. No objection.
    [The referenced statement follows:]
           Statement of Hon. Barack Obama, U.S. Senator from 
                         the State of Illinois
    In America, we have the right to disagree over personal beliefs 
whether they are religious, philosophical or moral and to express those 
beliefs peaceably. We have the right to assemble and to demonstrate. 
However, we do not have the right to destroy others' property and to 
commit acts of violence in the name of free speech.
    Those who engage in such acts should be punished to the full extent 
of the law. We need to support our law enforcement officials in their 
efforts to apprehend these criminals and bring them to justice.
    However, in our quest to apprehend these criminals, I hope we are 
not headed down the path of infringing on the ability of legitimate 
advocacy organizations to express their opinions and to raise funds in 
order to do so. I do not want Americans to equate groups that advocate 
violence with mainstream environmental organizations.
    We also need to put these violent acts into context. The FBI has 
indicated a downward trend in the number of crimes committed by these 
groups approximately 60 in 2004. While I want these crimes stopped, I 
do not want people to think that the threat from these organizations is 
equivalent to other crimes faced by Americans every day. According to 
the FBI, there were over 7,400 hate crimes committed in 2003 half of 
which were racially motivated. More directly relevant to this 
committee, the FBI reports 450 pending environmental crimes cases 
involving worker endangerment or threats to public health or the 
environment.
    So, while I appreciate the Chairman's interest in these fringe 
groups, I urge the Committee to focus its attention on larger 
environmental threats, such as the dangerously high blood lead levels 
in hundreds of thousands of children. With all due respect, Mr. 
Chairman, I believe the Committee's time would be better spent learning 
why EPA has not promulgated regulations to deal with lead paint in 
remodeled homes. Such an oversight hearing could have a significant 
impact on improving the lives of children all over the country.
    Thank you.

    Senator Lautenberg. Thank you.
    Dr. Skorton. Forgive me for shuffling through my papers. 
These are just a couple of things that Mr. Best said on January 
27, 2005, when he appeared with our permission and support at 
the University of Iowa.

    ``We should focus on the real aggressors, the real perpetrators of 
violence. That is what people do to animals inside laboratories. That 
is the real violence. That is the real crime.''

    Then according to just war theory,

    ``Violence is acceptable, one, when it is the last of all 
alternatives that have been explored; and two, when the minimal amount 
of violence necessary to resolve the situation has been used.''

    In direct answer to a question, he said,

     ``Do I support a tax on laboratories?'' ``Folks, I am not going to 
lie to you. Yes, I do. Yes, I do.''

    Senator Inhofe. I think that is adequate. I think that gets 
the point across. I would like to have you submit anything else 
for the record. We are down to a minute and a half now.
    Again, I apologize to the first and the second panel. We 
had no control. Either party has the right to stop us from 
meeting, and the Democrats have chosen to do that. So we have 
to stop in a minute and a half.
    Do you have anything in 1 minute, David, that you would 
like to say, that you did not get a chance to say, that you are 
anxious to say?
    Mr. Martosko. Yes, sir, I want the committee to note and be 
aware that the growing movement of ALF and ELF terrorism can be 
legitimately considered a national security threat. The 2 most 
recent ELF spokesperson have formed a new group, which they 
characterize as a revolutionary movement to overthrow the U.S. 
Government.
    In a news story that we are all going to hear about very 
soon, KCRA Television in Sacramento is reporting now that 
yesterday, when investigators were investigating an ELF attack 
on some vehicles, including slashed tires and graffiti, they 
found graffiti nearby which read, ``Bomb the White House.'' 
This is disturbing, and I think if we let this get out of 
control, we are all going to be sorry later.
    Senator Inhofe. All right, sir, after this is over, I want 
you to give me any evidence you have that uses either ``Bomb 
the White House'' or your final statement there.
    Mr. Martosko. I would be more than happy to submit that to 
you, sir.
    Senator Inhofe. Very good, well, I thank very much the 
panelists for coming. Again, we wanted to have more time for 
you, but it did not work out that way. This is a very 
significant subject.
    There will be questions for the record that will be 
submitted to you folks, and we will ask you to respond to those 
questions, not just the Members that were here, but any other 
Members who may be on this committee. We are timely adjourned.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]
      Statement of John Lewis, Deputy Assistant Director, Federal 
                        Bureau of Investigation
    Good morning Chairman Inhofe, Ranking Member Jeffords, and members 
of the Committee. I am pleased to have the opportunity to appear today 
and to discuss the threat posed by animal rights extremists and eco-
terrorists in this country, as well as the measures the FBI and its 
partners are taking to address this threat.
    One of today's most serious domestic terrorism threats come from 
special interest extremist movements such as the Animal Liberation 
Front (ALF), the Earth Liberation Front (ELF), and Stop Huntingdon 
Animal Cruelty (SHAC) campaign. Adherents to these movements aim to 
resolve specific issues by using criminal ``direct action'' against 
individuals or companies believed to be abusing or exploiting animals 
or the environment.
    ``Direct action'' is often criminal activity that destroys property 
or causes economic loss to a targeted company. Traditional targets have 
ranged from, but have not been limited to, research laboratories to 
restaurants, fur farmers to forestry services. Extremists have used 
arson, bombings, theft, animal releases, vandalism, and office 
takeovers to achieve their goals.
    The distinctions between constitutionally protected advocacy and 
violent, criminal activity are extremely important to recognize, and 
law enforcement officials should be solely concerned with those 
individuals who pursue animal rights or environmental protection 
through force, violence, or criminal activity. Law enforcement only 
becomes involved when volatile talk turns into criminal activity. 
Unfortunately, the FBI has seen a significant amount of such criminal 
activity. From January 1990 to June 2004, animal and environmental 
rights extremists have claimed credit for more than 1,200 criminal 
incidents, resulting in millions of dollars in damage and monetary 
loss.
    While most animal rights and eco-extremists have refrained from 
violence targeting human life, the FBI has observed troubling signs 
that this is changing. We have seen an escalation in violent rhetoric 
and tactics. One extremist recently said, ``If someone is killing, on a 
regular basis, thousands of animals, and if that person can only be 
stopped in 1 way by the use of violence, then it is certainly a morally 
justifiable solution.''
    Attacks are also growing in frequency and size. Harassing phone 
calls and vandalism now co-exist with improvised explosive devices and 
personal threats to employees. ELF's target list has expanded to 
include sports utility vehicle dealerships and new home developers. We 
believe these trends will persist, particularly within the 
environmental movement, as extremists continue to combat what they 
perceive as ``urban sprawl.''
    Preventing such criminal activity has become increasingly 
difficult, in large part because extremists in these movements are very 
knowledgeable about the letter of the law and the limits of law 
enforcement. Moreover, they are highly autonomous. Lists of targets and 
instructions on making incendiary devices are posted on the Internet, 
but criminal incidents are carried out by individuals or small groups 
acting unilaterally. Criminal activity by animal rights extremists and 
eco-terrorists in particular requires relatively minor amounts of 
equipment and minimal funding. Extremists of these movements adhere to 
strict security measures in both their communications and their 
operations.
    The FBI has developed a strong response to domestic terrorism 
threats. Together with our partners, we are working to detect, disrupt, 
and dismantle the animal rights and environmental extremist movements 
that are involved in criminal activity.
    Our efforts are headed by a headquarters-based team of national 
intelligence analysts, program managers, and seasoned field agents. We 
draw on the resources of our Terrorist Financing Operations Section to 
support field investigations into domestic terrorism, just as we do for 
international terrorism investigations. We also draw upon our expertise 
in the area of communication analysis to provide investigative 
direction.
    Second, we have strengthened our intelligence capabilities. Since 
2003, we have disseminated 64 raw intelligence reports to our partners 
pertaining to animal rights extremism and eco-terrorism activity. In 
addition, since 2004 we have disseminated 19 strategic intelligence 
assessments to our Federal, State and local counterparts. And we have 
developed an intelligence requirement set for animal rights/eco-
terrorism, enabling us to better collect, analyze, and share 
information.
    Finally, we have strengthened our partnerships. We have combined 
our expertise and resources with those of our Federal, State and local 
law enforcement partners nationwide through our 103 Joint Terrorism 
Task Forces. We have increased training for JTTF members, and have 
strong liaison with foreign law enforcement agencies.
    Our challenges are significant, but so are our successes. 
Currently, 35 FBI offices have over 150 pending investigations 
associated with animal rights/eco-terrorist activities. Since the 
beginning of 2004, the FBI and its partners have made a number of high-
profile arrests of individuals involved with animal rights extremism or 
eco-terrorism. These arrests have led to several successful 
prosecutions.
    Let me give you a brief snapshot of our recent successes:
    In 2005,
    <bullet> An individual who had been a fugitive, was arrested and 
charged with 2 counts of Animal Enterprise Terrorism for a series of 
animal releases at mink farms in 1997;
    <bullet> Three individuals were arrested for a series of arsons and 
attempted arsons of construction sites in California; and
    <bullet> One individual was arrested for the 2003 arson of a 
McDonald's in Seattle.
    In 2004,
    <bullet> Two individuals were arrested for arson on the campus of 
Brigham Young University in Utah;

    <bullet> Seven individuals associated with SHAC were arrested in 
New Jersey, California, and Washington State;

    <bullet> An individual was arrested and indicted for arsons of 
logging and construction equipment;

    <bullet> William Cottrell was indicted and convicted last month in 
California for conspiracy to commit arson, seven counts of arson; and

    <bullet> Two individuals were arrested in Virginia during an 
attempt to firebomb a car dealership.
    These are just some of our many accomplishments, but we have much 
more work ahead of us. One of our greatest challenges has been the lack 
of Federal criminal statutes to address multi-state campaigns of 
intimidation, threats, and damage designed to shut down legitimate 
businesses.
    On the legislative front, we are interested in working with you to 
examine Federal criminal statutes, specifically 18 USC 43, ``Animal 
Enterprise Terrorism.'' The statute provides a framework for the 
prosecution of animal rights extremists, but in practice, it does not 
cover many of the criminal acts that extremists have committed.
    Additionally, the statute only applies to criminal acts committed 
by animal rights extremists, but does not address criminal activity 
related to eco-terrorism.
    Therefore, the existing statutes may need refinements to make them 
more applicable to current animal rights/eco-extremist actions and to 
give law enforcement more effective means to bring criminals to 
justice.
    Investigating and preventing animal rights extremism and eco-
terrorism is one of the FBI's highest domestic terrorism priorities. We 
are committed to working with our partners to disrupt and dismantle 
these movements, and to bring to justice those who commit crime in the 
name of animal or environmental rights. Chairman Inhofe and Members of 
the Committee, I appreciate the opportunity to discuss the challenges 
we face and the ways we can overcome them. I would be happy to answer 
any questions you may have.
    Thank you.
                                 I88___
                                 
   Response of John E. Lewis to an Additional Question from Senator 
                                Jeffords
    Question. It appears that the FBI has categorized potential 
terrorist threats based on whether the group is a domestic group or an 
international group. Can you explain why infrastructure security issues 
such as wastewater treatment plants, chemical producing facilities, and 
nuclear power plants are not included in the realm of domestic 
terrorist threats?
    Response. While clearly the threat of infrastructure attacks can 
originate from either domestic or international terrorists, the FBI 
does not align its investigative priorities based on potential targets 
or actual attacks. Investigative priorities are instead established 
based on the individuals or groups responsible for violations of the 
law, and our intelligence collection and investigative work is 
predicated on criminal activities.
    Infrastructure protection is important to the FBI, and clearly the 
United States infrastructure is a possible target of attack by domestic 
terrorists. The FBI assists in the assessment of vulnerabilities, the 
enhancement of security, and the coordination of law enforcement 
response plans through its participation in national and local liaison 
programs related to infrastructure protection. The quality of this 
assistance is significantly enhanced by the FBI's numerous outreach 
programs, through which Agents work closely with officials in the 
nuclear power, waste treatment, and chemical industries.
                                 ______
                                 
        Responses of John E. Lewis to Additional Questions from 
                           Senator Lautenberg
    Question 1. You have testified that there have been about 1,100 
eco-terrorist incidents in more than 3 decades. But in 2003 alone, 
there were more than 8,700 hate crimes, including 1,217 where people 
were attacked for their sexual orientation. Why are attacks on property 
more of a concern than attacks on people based on bigotry?
    Response. This question implies that attacks on property pose no 
threat to individual safety, whereas in fact attacks on property can 
have a devastating impact on lives, as demonstrated by the attacks on 
the World Trade Center and the Pentagon. This danger is as inherent in 
ecologically motivated terrorism as politically motivated terrorism. 
The FBI does not have more ``concern'' for one crime than another, but 
we are cognizant of the qualitative differences in the ramifications of 
various crimes.
    While the FBI has a broad mission with varied and competing 
challenges, Director Mueller has established the FBI's priorities 
according to the interaction of three factors: (1) the significance of 
the threat to the security of the United States as expressed by the 
President in National Security Presidential Decision Directive 26; (2) 
the priority the American public places on various threats; and (3) the 
degree to which addressing the threat falls most exclusively within the 
FBI's jurisdiction. Eco-terrorism has cost the United States millions 
of dollars in property damage and presents the potential for 
significant loss of life. Because of this, the FBI continues to place 
eco-terrorism as a top investigative priority. This does not preclude 
the FBI from aggressively conducting civil rights and ``color of law'' 
investigations, including the investigation of violations of Federal 
hate crime laws. The first five FBI investigative priorities are:
    1. Protect the United States from terrorist attacks.
    2. Protect the United States against foreign intelligence 
operations and espionage.
    3. Protect the United States against cyber-based attacks and high-
technology crimes.
    4. Combat public corruption at all levels.
    5. Protect civil rights.

    Question 2. It is my understanding that the number of individual 
animal-rights activists connected to such crimes is extremely small. Do 
you argue that legitimate organizations should not be tarnished by the 
acts of these criminals?
    Response. While the number of individual animal-rights activists 
connected to acts of terrorism has been proportionally small to date, 
the FBI must investigate all reported incidents of terrorism and 
determine whether those involved in these incidents are associated with 
terrorist groups. In the course of such investigations, it may be 
necessary to examine the activities of individuals associated with 
legitimate organizations. Legitimate organizations should not be 
tarnished by criminal conduct undertaken in the name of animal rights 
or environmentalism so long as those organizations do not offer 
support, either tangible or intangible, to the commission of those 
criminal acts. While the FBI regrets any harm to the reputations of 
legitimate organizations, we must ensure that our investigations are 
thorough, and this thoroughness includes examination of those who may 
be providing logistical, financial, or other support to those who 
commit these crimes.
                                 ______
                                 
 Responses of John E. Lewis to Additional Questions from Senator Obama
    Question 1a. The written testimony provided to the Committee 
referred to eco-terrorism as one of the most serious domestic terrorism 
threats in the United States today, and Mr. Lewis' oral testimony 
referred to it as the No. 1 domestic terrorist threat. Yet, the FBI's 
own statistics indicate that there have been, on average, less than 100 
criminal incidents per year over the past 14 years. How many FTE 
nationwide does the FBI devote to eco-terrorism?
    Response. While our time capture system does allow us to determine 
how many Agent hours are dedicated to investigating domestic terrorism 
activity generally, we are not able to accurately identify the amount 
of time dedicated specifically to investigations of eco-terrorism. The 
FBI calculates ``full-time equivalent'' (FTE) for Special Agents based 
on a 50-hour work week rather than the 40-hour work week used for other 
Federal employees. In fiscal year (FY) 2004, the FBI devoted 610 
``Agent FTEs'' to its Domestic Terrorism Program (this includes only 
``street'' Agents, and does not include, for example, their 
supervisors, FBI Headquarters personnel, analysts, or others involved 
in this program). Many of these Special Agents are assigned to Joint 
Terrorism Task Forces or domestic terrorism squads and are called upon 
to investigate a variety of domestic terrorism matters, including eco-
terrorism.

    Question 1b. Are hate crimes considered domestic terrorism?
    Response. As defined by 18 U.S.C. Sec. 2331, acts of domestic 
terrorism are criminal acts that appear to be intended ``to intimidate 
or coerce a civilian population,'' ``to influence the policy of a 
government by intimidation or coercion,'' or ``to affect the conduct of 
a government by mass destruction, assassination, or kidnapping.'' 
Although hate crimes generally involve acts of personal malice directed 
at individuals, and therefore typically lack the political or social 
motivation inherent in acts of domestic terrorism, the intent of these 
crimes is reviewed in order to determine whether they constitute acts 
of domestic terrorism.

    Question 1c. How many FTE nationwide does the FBI devote to hate 
crimes?
    Response. Currently the FBI devotes 153 ``Agent FTEs'' to its Civil 
Rights Program (as with the Domestic Terrorism Program statistics 
provided above, this includes only the ``street'' Agents who 
investigate these crimes). The Civil Rights Program consists of 4 
subprograms: Hate Crimes, Color of Law, Involuntary Servitude and 
Slavery, and the Freedom of Access to Clinic Entrances (FACE) Act. Over 
the most recent 4-year period (2001-2004), the FBI has devoted an 
average of 21 ``Agent FTEs'' to hate-related investigations per year. 
As noted above, the FBI calculates FTE for Special Agents based on a 
50-hour work week.

    Question 1d. On average, how many criminal incidents per year 
involve hate crimes?
    Response. The Uniform Crime Report (UCR) indicates that the average 
number of reported hate crimes during the period from fiscal year (FY) 
2000 through fiscal year 2003 was 5,996. (The UCR collects data from 
nearly 17,000 voluntary law enforcement agency participants.) In 2001, 
there were 9,730 reported hate crimes, 1,667 more than the previous 
year and 2,268 more than the subsequent year. This spike in reported 
hate crimes in 2001 was attributed to the events of September 11, 2001.

    Question 1e. Are gang-related crimes considered domestic terrorist 
acts?
    Response. As indicated in response to subpart b, above, ``domestic 
terrorism'' is defined by statute. Gang-related crimes are typically 
not considered acts of domestic terrorism because they generally 
involve acts undertaken for personal power or financial gain and lack 
the political or social motivation inherent in acts of domestic 
terrorism.

    Question 1f. How many FTE nationwide does the FBI devote to gang-
related crimes?
    Response. Over the most recent 5-year period (2000-2004), the FBI 
devoted an average of 267 ``Agent FTEs'' to gang-related investigations 
(as with the program statistics provided above, this includes only the 
``street'' Agents who investigate these crimes). In fiscal year (FY) 
2004, the ``Agent FTE'' devoted to gang-related investigations was 
approximately 435, which represents a significant increase in gang-
related investigations during that year. (As noted above, the FBI 
calculates FTE for Special Agents based on a 50-hour work week.) This 
increase was the result of the FBI's National Gang Strategy, the 
elevated emphasis placed on gang investigations, and the expansion of 
FBI-led Safe Streets Task Forces that investigate violent gangs.

    Question 1g. On average, how many criminal incidents per year 
involve gang-related violence?
    Response. While the FBI does not track the investigation of gang-
related violence in this precise way, we do track the number of gang-
related investigations opened by the FBI in its 56 Field Offices. Over 
the most recent 5-year period (2000-2004), the FBI opened an average of 
361 gang-related investigations per year. In fiscal year 2004, 370 
gang-related investigations were opened.

    Question 2. How does the FBI determine whether individual criminal 
acts are domestic terrorist acts or ordinary acts of crime?
    Response. Through the investigative process, the FBI determines 
whether the intent of a criminal act was to intimidate or coerce a 
civilian population, influence the policy of a government by 
intimidation or coercion, or affect the conduct of a government. If so, 
the criminal act is considered an act of terrorism. Acts of domestic 
terrorism are generally committed with a political or philosophical 
motivation in an attempt to effect political or societal change. In 
some instances, it is difficult to discern immediately whether a crime 
is one of domestic terrorism or is strictly criminal in nature. In 
these instances, the FBI would, as part of its investigation, attempt 
to identify the motive in order to determine the nature of the crime.

    Question 3. Has the FBI ever convicted any representatives of any 
environmental organization other than ALF, ELF or SHAC of domestic 
terrorism or as an accessory to the crime?
    Response. When an act that may be considered ``domestic terrorism'' 
is committed, as that term is defined by 18 U.S.C. Sec. 2331, the 
defendant is often prosecuted for the underlying ``traditional'' 
criminal violations (such as firearms violations, arson, or explosives 
violations), particularly when the defendant's motivation is difficult 
to prove. In addition, proof that a crime was intended ``to intimidate 
or coerce a civilian population'' or ``to influence the policy of a 
government by intimidation or coercion'' does not require demonstration 
that the defendant was affiliated with a particular group, so any such 
affiliation may not be a matter of record.
    We can offer, anecdotally, that four members of a group calling 
itself the Evan Mecham Eco-Terrorist International Conspiracy (EMETIC) 
were indicted in 1989-1990 on various Federal charges related to 
planned attacks on an Arizona ski resort and on Arizona, California, 
and Colorado energy generating facilities, including nuclear power 
plants. Each of the 4 was convicted, pursuant to a plea of guilty, on 
one of these Federal charges (the charges were different for different 
defendants, but all of the charges were for ``traditional'' crimes, 
rather than for ``domestic terrorism'' related crimes), and they were 
sentenced to serve up to six years in Federal prison and to pay up to 
$19,821 in fines.

    Question 4. How many abortion rights-related crimes have been 
committed over the past 14 years?
    Response. The Freedom of Access to Clinic Entrances (FACE) Act 
became effective in 1994. The FBI has opened 214 investigations 
pursuant to this Act, broken down by year as follows:

------------------------------------------------------------------------
                                                   Number of Abortion-
                     Year                         Rights Related Crimes
                                                        Reported
------------------------------------------------------------------------
1994..........................................                        8
1995..........................................                       25
1996..........................................                        5
1997..........................................                        4
1998..........................................                        3
1999..........................................                        7
2000..........................................                       59
2001..........................................                       43
2002..........................................                       23
2003..........................................                       19
2004..........................................                       18
------------------------------------------------------------------------

   Statement of Carson Carroll, Deputy Assistant Director, Bureau of 
               Alcohol, Tobacco, Firearms and Explosives
    Good morning Chairman Inhofe, Senator Jeffords and members of the 
committee. Thank you for the opportunity to appear before you to 
discuss the significant contributions of the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF) relating to the investigation of 
violent crimes perpetrated by animal rights and environmental 
extremists. With our law enforcement partners, we are diligently 
working together to protect America.
    The Animal Liberation Front (ALF) was formed by British anarchist 
Ronnie Lee in Great Britain in 1976 as an outgrowth of the Band of 
Mercy and the Hunt Saboteurs. ALF is primarily concerned with animal 
rights issues. ALF became active in the United States in 1979 after 
claiming responsibility for the release of five animals from the New 
York University Medical Center. The American ALF was the first and most 
active offshoot outside Britain. Until 1987, most ALF ``direct 
actions'' were limited to break-ins and vandalism in efforts to release 
animals from various university and research facilities around the 
country. However, after 1987, ALF activities have included arson and 
other explosives incidents.
    The Earth Liberation Front (ELF) was established in 1992 in 
Brighton, England, from members of the activist environmental group, 
``Earth First!'' These radical members dedicated themselves to saving 
the environment by advocating criminal acts over legal protest as a 
means of advancing their environmental agenda and beliefs. The first 
ELF action in the United States occurred in October 1996 with an arson 
attack on a U.S. Forest Service truck in Oregon's Willamette National 
Forest and was followed by the 1997 arson attack at the Bureau of Land 
Management (BLM) Wild Horse Corral in Burns, Oregon.
    Traditionally, the agendas of the two movements have overlapped, 
and in 1993 ELF declared solidarity with ALF in an open communique. 
Since then, there has been a convergence of agendas. Spokespersons for 
each movement dually claim that neither maintains a central 
organization or membership guide. They do claim many autonomous groups 
of people known only as ``cells,'' located around the world that act on 
behalf of ELF and ALF. A common misperception is that names or labels 
of a movement imply the existence of groups. ELF and ALF are more 
accurately portrayed as ideological movements, or causes, not groups. 
Both ELF and ALF assert that any individuals who wish to carry out an 
action do so based upon their own personal conscience.
    Fundamentally, each movement shares common characteristics. They 
tend to engage in criminal activities designed to make a direct adverse 
economic impact against the chosen target. Animal rights extremists 
conduct raids of mink, chinchilla, and fox farms throughout the United 
States. Breeding records are often removed and/or destroyed in these 
acts, causing significant economic losses for the fur industry. Acts of 
vandalism committed in the name of ELF and ALF include graffiti, super-
glued locks, destruction of research records and equipment, damaged 
pipes and clogged toilets. ELF extremists frequently engage in sabotage 
of industrial or construction equipment. Acts include removing primary 
nuts and bolts from machinery, tree spiking, pouring sand or sugar in 
gas tanks, and cutting hydraulic lines or cables.
    The most worrisome trend to law enforcement and private industry 
alike has been the increase in willingness by these movements to resort 
to the use of incendiary and explosive devices. The use of incendiary 
devices has become a popular tactic employed by ELF and ALF. ATF field 
agents and our law enforcement partners, coupled with the expertise of 
ATF's laboratories, have shown that suspected or known ELF and ALF 
sponsored arsons have been carried out using an assortment of devices 
described in ELF and ALF literature and on the Internet. The devices 
range from a primitive and easily constructed design to sophisticated 
electronically ignited devices. ELF and ALF serial arsonists are 
conscious of the potential ignition failure of the devices and have 
deployed multiple devices at the target locations to ensure that at 
least some damage will occur. Instructions for the creation and use of 
these timed incendiary devices represent a fraction of the 
instructional material available to ELF and ALF members, and society as 
a whole, on the Internet.
    ELF and ALF are engaged in substantial intelligence gatherings 
against animal or environmental businesses and share this information 
at rallies, protests and on the Internet. They also secure employment 
with an animal or environmental business for the purpose of gaining 
inside intelligence for raids or other forms of illegal ``direct 
action.''
    ELF and ALF activists wear gloves during their illegal activity to 
avoid leaving behind fingerprints, and wear non-descript clothing to 
include hoods and hats to hide their identity. They are knowledgeable 
of the implications of DNA evidence. Also, in the event bolt cutters 
are used during an attack, they are instructed to sharpen the bolt 
cutters afterwards in order to thwart law enforcement tool mark 
analysis.
    ELF and ALF activists rely upon the publicity generated by their 
attacks to bring attention to their causes, and thereby win converts 
for their movements. However, ELF and ALF's ``direct action'' is unique 
as they typically use fire as their weapon. Once the fire is set, 
complete control is lost by the ELF/ALF member and the outcome is 
determined by fire progression itself. There have been several 
instances where ``close calls'' have occurred for first responders as a 
result of ELF and ALF-related violent actions. At the Boise Cascade 
Office in Monmouth, OR, the scene of an ELF arson incident, the Chief 
of the local volunteer fire department pulled back his firefighters 
just before the roof collapsed. An ALF member initiated an incendiary 
device at the Fur Breeders Agricultural Cooperative, in Sandy, Utah, 
without knowing that the caretaker of the facility was asleep in the 
next room, but luckily, the device failed to function.
    Since 1987, ATF has initiated over 100 investigations related to 
ELF and ALF incidents. Some of the investigations involved explosives 
incidents, as well as, acts of arson. While the number of ELF and ALF 
incidents has fluctuated from year to year, the magnitude of the 
incidents appears to be on the rise with a number of high-damage arsons 
occurring since 1999. Between 1999 and 2005, ATF opened 58 
investigations related to ELF and ALF acts of violence.
    Using existing statutes, Title 18, United States Code (USC), 
Section 844, Federal Arson, ATF has had noteworthy successes with 
regard to ELF and ALF investigations. Most notably in 1992, ATF 
Certified Fire Investigators (CFIs) and the ATF laboratory, working 
jointly with law enforcement partners, investigated and successfully 
prosecuted Rodney Coronado, who received a 57-month sentence for 
actions tied to various ALF crimes throughout the Pacific Northwest and 
Michigan. In 2000, an arson incident at Joe Romania Chevrolet in 
Eugene, Oregon, resulted in the destruction of several sports utility 
vehicles. An ATF CFI and the Eugene Police Department, supported by the 
ATF laboratory, contributed to the successful prosecution of Jeff Leurs 
and Craig Marshal for violating State arson laws. Leurs received a 23-
year sentence in State prison and Marshal received 6 years in State 
prison. In 2004, ATF CFIs and an ATF accelerant detection K-9 were 
involved in the investigation and prosecution of William Jensen 
Cottrell for his ELF-related crimes in West Covina, CA. Cottrell, a PhD 
candidate at California Institute of Technology, received a 100-month 
sentence and was ordered to pay $3.5 million in restitution as a result 
of his conviction for arson, Title 18, USC, Section 844 (i), and 
conspiracy. In 2004, the ATF National Response Team, working with law 
enforcement partners, was called in to investigate a fire at the Stock 
Lumber Supply Yard in West Jordan, Utah. An ATF CFI, through an origin 
and cause investigation, determined that an arson had occurred. The 
case culminated in the conviction of Justus Allen Ireland, who pled 
guilty to violating Federal arson laws, Title 18, USC, Section 844 (i). 
Ireland was sentenced to 87 months in prison and ordered to pay 
$1,643,692.80 in restitution as a result of his acts of violence in the 
name of ELF. At the time of Ireland's arrest, he was on life probation 
for sexual assault of a minor.
    Mr. Chairman, the Anti-Arson Act of 1982 gave ATF broad-based 
jurisdiction in Federal arson offenses. ATF's arson enforcement efforts 
include preventing arson, providing effective post-incident response, 
and reducing the community impact of crimes involving fire. As a former 
Special Agent in Charge of the Seattle Field Division which covers the 
Pacific Northwest region, and now one of the Deputy Assistant Directors 
of ATF Field Operations, I have seen and continue to see, first-hand, 
our efforts to reduce violent crime and protect the public. Through our 
dedicated work, the men and women of ATF are improving the lives of 
Americans. Our efforts produce real results with safer neighborhoods 
where all of us, including children and senior citizens, can live 
without fear. In our continued effort to protect America, ATF has a 
number of programs designed to make an impact on violent crime.
    The long-term strategic goal of ATF's arson program is to provide 
effective investigative and technical expertise, rapid response 
assistance, and state-of-the-art training to reduce the impact of 
violent crimes that involve fire. ATF investigative efforts are 
generally focused on arsons of Federal interest, more broadly defined 
as arsons affecting interstate commerce.
    The agents participating in ATF's Certified Fire Investigator 
Program are at the forefront of fire investigation. These agents are 
federally trained and certified as origin and cause investigators. 
These CFIs are able to qualify as expert witnesses in fire origin and 
cause determinations. The CFI program has received national and 
international acclaim.
    ATF's laboratories are an invaluable resource in perfecting ATF 
cases and in serving as a resource for State and local law enforcement. 
ATF's laboratory system is composed of the National Laboratory Center 
(NLC) in Ammendale, MD, and the regional laboratories in Atlanta, GA, 
and Walnut Creek, CA. One of ATF's fire investigation resources is the 
Fire Research Laboratory (FRL). Also located in Ammendale, MD, it is a 
one-of-a-kind fire test center with the capability of replicating 
initial fire scenarios approaching a quarter acre in size, to scale, 
and under controlled conditions allowing for detailed analysis. This 
facility is the only such facility in the United States that is 
dedicated to providing case support in fire investigations using 
forensic fire science.
    In addition, ATF Special Agents investigate bombings, unlawful 
distribution of explosives, thefts of explosives and other explosives 
violations. ATF has explosives and arson groups nationwide, each 
consisting of Special Agents, CFIs, and CESs, as well as State and 
local police and fire personnel. Special Agent CESs are among the most 
experienced, best-trained explosives experts in the Federal Government.
    ATF has other experts in the field of explosives, including 
Explosive Enforcement Officers (EEOs) and Industry Operations 
Investigators. EEOs provide technical assistance and support in 
explosives matters, and Industry Operations Investigators conduct 
inspections of Federal explosives licensees and permittees.
    ATF maintains the Arson and Explosives National Repository (AENR), 
the country's most comprehensive set of data describing fire and 
explosion incidents. ATF is also using the latest information 
management technology to make case information available to law 
enforcement nationwide through the Bomb and Arson Tracking System 
(BATS). This program facilitates and promotes the collection and 
dissemination of fire, arson, and explosives incidents and information 
among participating agencies.
    ATF continues to share its expertise by training Federal, State, 
local, military, and international bomb technicians and investigators 
in Explosives Disposal and Investigation Techniques at the National 
Center for Explosives Training and Research (NCETR). ATF offers 
numerous advanced courses related to explosives disposal and post-blast 
investigation techniques at the NCETR.
    Several of ATF's programs, such as the National Response Team (NRT) 
and the Accelerant Detection and Explosives Detection Canine Programs, 
strengthen our efforts in explosives and arson investigations. They 
contribute to our missions of reducing violent crime and protecting the 
public. In the wake of a major fire or explosives incident, law 
enforcement investigators can rely on the expertise and advanced 
technology of ATF's NRT. Capable of responding within 24 hours to major 
explosives or fire incidents anywhere in the country, NRT members work 
at reconstructing the scene, identifying the seat of the blast or 
origin and cause of the fire, conducting interviews, sifting through 
debris to obtain evidence related to the explosion and/or fire, 
assisting with the ensuing investigation, and providing expert court 
testimony.
    ATF's Explosives and Accelerant Detection Canine Program also plays 
a critical role in ensuring public safety. ATF's unique training 
methodology enables its 34 explosives detection canines to locate 
explosives and gunpowder sidue in many forms, for example, Improvised 
Explosives Devices (IEDs), post-blast debris, firearms, ammunition, 
bulk explosives, and shell casings. The canines can detect explosives 
from the five explosives categories. Sixty ATF trained and certified 
accelerant detection canines help to identify potential points of 
origin at a fire scene.
    ATF fosters innovation and cooperation through liaison efforts and 
through research and development efforts. ATF employees hold key 
positions in many prestigious professional organizations. Since 1990, 
an ATF agent has chaired the Arson and Explosives Committee of the 
International Association of Chiefs of Police. Similarly, ATF has 
maintained outstanding relationships with the International Association 
of Bomb Technicians and Investigators, the International Association of 
Arson Investigators and the National Bomb Squad Commanders Advisory 
Board.
    At ATF, we believe that working together is not just a good 
strategy, it is a matter of national security. Our agency has a long 
history of collaborating effectively with other Federal, State, and 
local law enforcement agencies and they consistently turn to ATF 
because of our expertise and our commitment to partnerships.
    Mr. Chairman, Senator Jeffords, and Members of the Subcommittee, on 
behalf of the men and women of ATF, I thank you for your support of our 
crucial work. Year after year, we continue to stop those whose violent 
and criminal behavior threatens the peace of our communities. For many 
years, we have investigated major explosives incidents and major 
arsons, and have shared our knowledge with other law enforcement 
personnel through extensive training programs and effective 
partnerships. Yet I believe that our greatest achievements are still to 
come. We have made much progress but we know there is much more to do. 
We are determined to succeed in our missions of reducing violent crime, 
preventing terrorism, and protecting the public.
    I look forward to responding to any questions you may have.
                                 ______
                                 
      Responses of Carson W. Carroll to Additional Questions from 
                             Senator Obama
    Question 1. How many FTE nationwide does the ATF currently devote 
to eco-terrorism?
    Response. ATF dedicates approximately 25 percent of its resources 
toward arson and explosives related issues, and does not track FTE's 
attributed specifically to eco-terrorist crimes. ATF responds to fires 
and explosions, and if evidence is present, classifies them as arson, 
bombings or accidents. ATF investigators then follow the evidence to 
determine who may have been responsible for any crimes committed. In 
some cases, the act on its face may appear as though it was related to 
eco-terrorism, but evidence has proven to the contrary. A good example 
was the series of arsons that destroyed 10 unoccupied new homes in 
Charles County, Maryland, in early December, 2004. During the first few 
days of the investigation, many attributed the acts to eco-terrorists. 
Evidence proved differently.
    ATF has a cadre of Certified Fire Investigators (CFI) and Certified 
Explosives Specialists (CES) who possess extensive experience and 
training in arson and explosives matters. ATF CFIs complete a 2-year 
training program before they are certified, and complete yearly 
recertification requirements. ATF CESs complete more than 700 hours of 
training requirements during their first 5 years working as explosives 
specialists.
    ATF's commitment to investigating violent acts carried out by 
environmental extremists and animal rights extremists is also evidenced 
by the fact that all ATF special agents are highly trained in arson and 
explosives investigative techniques, and are capable of responding 100 
percent of the time to violent incidents involving the Earth Liberation 
Front (ELF) and the Animal Liberation Front (ALF) extremists. Every ATF 
agent, while attending Special Agent Basic Training, receives more 
training in arson and explosives related matters (150 hours) than most 
Federal agents receive in their careers.
    To put it in context, since the year 2000, ATF has initiated 
roughly 2600 fire and explosion cases each year. Since 1987, evidence 
has linked 185 incendiary and/or explosives devices to environmental 
extremists and animal rights extremists.

    Question 2. What percentage of total ATF FTE does that represent?
    Response. ATF dedicates approximately 25 percent of its resources 
toward arson and explosives related issues. We do not specifically 
track FTE's to ELF or ALF type investigations. However, all ATF agents 
are highly trained in arson and explosives related matters, and have 
the expertise and knowledge to respond to and investigate the violent 
acts committed by environmental extremist and animal rights extremist 
movements.

    Question 3. Has the ATF ever convicted any representative of any 
environmental organization other than ALF, ELF or SHAC of domestic 
terrorism or as an accessory to the crime?
    Response. Since there are no official membership logs for these 
movements, it is difficult to quantify who the ``representatives'' are. 
ATF databases don't lend themselves to non-specific queries. With 
regard to ELF, ALF and SHAC, ATF has been involved in, and successfully 
investigated violent acts since 1987, and recommended prosecution 
through existing statutes for violations of 18 U.S.C. Sec. Sec. 844(i) 
(Federal Arson and Explosives) and 844(n) (Conspiracy), 18 U.S.C. 
Sec. 924(c) (Use Of Firearm/Destructive Device During Commission Of 
Drug Trafficking Crime Or Crime Of Violence), 26 U.S.C. Sec. 5861 
(Possession of Unregistered Destructive Device) and State arson laws.

    Question 4. Another witness made the allegation that PETA President 
Ingrid Newkirk had prior knowledge of the Michigan State University 
arson. Please address whether the ATF's investigation revealed that 
allegation to be true.
    Response. During the 1992 investigation of the fire at Anthony Hall 
on the campus of Michigan State University, ATF investigated and 
arrested Rod Coronado for the incident. Subsequently, Coronado was 
convicted and served 57 months in Federal prison for Federal arson 
violations. During the course of the investigation, ATF did not uncover 
evidence of Ingrid Newkirk's prior knowledge of the violent act.
                               __________
           Statement of David Martosko, Director of Research,
                      Center for Consumer Freedom
    Good morning Mr. Chairman, and members of the committee. My name is 
David Martosko. I am director of Research at the Center for Consumer 
Freedom, a nonprofit organization based in Washington, DC. The Center 
does not solicit and has never accepted government funding.
    Thank you for holding this hearing today. The threat from domestic 
terrorism motivated by environmental and animal-rights ideologies is 
well documented, unambiguous, and growing.
    The ALF and ELF don't really exist in the way we think of advocacy 
groups or even underground criminal movements like the Symbionese 
Liberation Army or the Weather Underground. ALF and ELF are labels of 
convenience, applied to crimes after the fact by individuals or small 
groups in order to draw public attention to their actions.
    Those who engage in ``direct action'' crimes, such as starting 
fires, detonating bombs, threatening lives, and stalking innocent 
people, receive demonstrable cooperation and assistance--both 
rhetorical and financial--from an above-ground support system. Today 
I'd like to walk you through some of our findings in this regard.
    A good place to start is No Compromise, a self-described 
``militant, direct action magazine'' for ALF supporters. In 1999, No 
Compromise published a list of its benefactors, which included People 
for the Ethical Treatment of Animals (PETA), the Fund for Animals, In 
Defense of Animals, and the New Jersey Animal Rights Alliance--all 
groups with 501(c)(3) Federal tax exemptions. The list also included 
PETA's president and two other PETA officers, and an activist now on 
the staff of the Humane Society of the United United States (HSUS).\1\
---------------------------------------------------------------------------
    \1\ Published list of financial supporters of No Compromise 
magazine, dating from 1999. http://web.archive.org/web/19990501135838/
http://www.enviroweb.org/nocompromise/about.html accessed on May 13, 
2005.
---------------------------------------------------------------------------
    HSUS, PETA, and PETA's quasi-medical affiliate, the Physicians 
Committee for Responsible Medicine (PCRM), are troubling examples of 
animal-rights charities which have connections to their movement's 
militant underbelly. In some cases, the line between the direct-action 
underground and more ``mainstream'' protest groups is quite blurry.
    Miyun Park, the same HSUS employee named in 1999 as a No Compromise 
benefactor, is the subject of at least six Federal wiretap warrants in 
connection with an upcoming Federal Animal Enterprise Terrorism 
trial.\2\ These warrants also cover ALF apologist (and UTEP professor) 
Steven Best, PETA grantee (and terror defendant) Joshua Harper, and 
PETA employee Joe Haptas.
---------------------------------------------------------------------------
    \2\ ``Listing of Affidavits and Applications'' covering wiretap and 
e-mail tap-and-trace warrants issued pursuant to the Federal animal-
enterprise terrorism investigation of Stop Huntingdon Animal Cruelty 
USA [USA v. SHAC USA et al., U.S. District Court for the District of 
New Jersey #04-cr-00373 MLC].
---------------------------------------------------------------------------
    HSUS has funded the operation of an Internet server called 
``Waste.org'' while it was the source of ALF-related ``communiques'' 
issued after the commission of crimes.\3\<SUP>,}</SUP>\4\ This server 
also hosted No Compromise magazine's e-mail account.
---------------------------------------------------------------------------
    \3\ Pages from ``Form 990'' filed with the IRS by the Humane 
Society of the United States (HSUS) for the tax years 1998 and 1999, 
showing disbursements to ``Waste.'' Waste.org still acknowledges HSUS 
as a current financial benefactor last checked on May 13, 2005).
    \4\ Animal Liberation Front ``communique'' claiming responsibility 
for arson attacks on meat delivery trucks in New York. It was 
distributed in 2001 by the ``ALF Frontline'' e-mail listserv, hosted by 
waste.org.
---------------------------------------------------------------------------
    The case of Daniel Andreas San Diego is a chilling story of animal-
rights terrorism, involving 10-pound shrapnel bombs detonated in 2003 
at two California biomedical research companies, built with the same 
ingredients used in the 1995 Oklahoma City blast site.\5\ One of these 
bombs was accompanied by a ``secondary'' device, timed to detonate 
after first-responders (e.g., paramedics, firefighters, and police) 
arrived on the scene.
---------------------------------------------------------------------------
    \5\ E-mail, attributed by FBI investigators to Daniel Andreas San 
Diego, describing the use of an improvised explosive device to attack a 
company targeted by animal-rights militants. It was distributed by a No 
Compromise magazine staffer to a listserv operated by Earth First!.
---------------------------------------------------------------------------
    Mr. San Diego is a fugitive on the FBI's ``Most Wanted'' list. An 
FBI evidence recovery log from the search of his automobile describes a 
check written to him by Ariana M. Huemer--who was then an employee of 
the Humane Society of the United States (HSUS). It remains to be seen 
why an HSUS staffer was passing money to an alleged bomber.\6\
---------------------------------------------------------------------------
    \6\ Page from an FBI Evidence Recovery Log related to the search of 
bombing suspect Daniel Andreas San Diego's automobile.
---------------------------------------------------------------------------
    John Paul ``J.P.'' Goodwin represents another disturbing tie 
between HSUS and the violent animal-rights underground. In 1997, when 
Goodwin was the national director of the Coalition To Abolish the Fur 
Trade, he wrote in No Compromise that he and his group ``support these 
[ALF] actions 100 percent. We will never ever work with anyone who 
helps the FBI stop the ALF--this is one of the best things to happen in 
a long time.'' \7\ In March 1997, following the $1 million ALF arson of 
a fur farmers' feed co-op in Utah, Goodwin told reporters: ``We're 
ecstatic.'' \8\
---------------------------------------------------------------------------
    \7\ ``Fur Wars Heat Up: A.L.F. is on the Warpath!'' by J.P. Goodwin 
(No Compromise) Issue 4, Fall 1996.
    \8\ ``Activists take credit for Sandy fur fire'' (The Deseret 
News), March 11, 1997.
---------------------------------------------------------------------------
    In 2000, HSUS sent Goodwin as its emissary on a tour of Chinese fur 
farms. By 2001 he was an HSUS employee, and remains on the animal-
rights group's full-time staff.
    People for the Ethical Treatment of Animals has even clearer 
connections with the ALF and ELF. During the 1990's PETA made grants 
and loans totaling $70,990 in support of the legal defense of Rodney 
Coronado, a self-described Animal Liberation Front member who was later 
convicted of an ALF arson at Michigan State University.\9\
---------------------------------------------------------------------------
    \9\ Pages from ``Form 990'' filed with the IRS by People for the 
Ethical Treatment of Animals for the tax year 1994, showing 
disbursements to the ``Rodney Coronado Support Committee'' and a loan 
to Mr. Coronado's father.
---------------------------------------------------------------------------
    PETA president Ingrid Newkirk was herself implicated in this arson 
by U.S. Attorney Michael Dettmer, who wrote that Newkirk arranged 
``days before the MSU arson occurred'' for Coronado to send her 
materials stolen from the targeted laboratory, along with a videotape 
of the fire being set.\10\
---------------------------------------------------------------------------
    \10\ Excerpt pp. (8-10) from Government Sentencing Memorandum of 
U.S. Attorney Michael Dettmer, in the case of USA v. Rodney Coronado 
(signed Michael H. Dettmer, U.S. Attorney, July 31, 1995).
---------------------------------------------------------------------------
    In February 2003, Mr. Coronado (since, released from prison) 
appeared at American University in Washington, DC as part of the 
National Conference on Organized Resistance. During his speech, he 
demonstrated before an audience of over 100 college-age activists how 
to build a crude incendiary device using household materials, for a 
cost of ``about two dollars.'' \11\
---------------------------------------------------------------------------
    \11\ Photograph and partial transcript of remarks by Rodney 
Coronado at American University (Washington, DC) on January 26, 2003.
---------------------------------------------------------------------------
    Later that year, appearing on ABC's 20/20, PETA president, Ingrid 
Newkirk was shown this videotape. After viewing it, she referred to 
Coronado as ``a fine young man and a schoolteacher.''
    Publicly, PETA has consistently claimed to have no information 
about the identity of any Animal Liberation Front criminals. Yet on at 
least 2 separate occasions, PETA published interviews with self-
described ALF members in its own newsletter.\12\ Early in its history, 
this newsletter included a full-page advertisement promoting the ALF as 
a ``rescue'' organization.\13\
---------------------------------------------------------------------------
    \12\ ``ALF Talks'' (PETA News), November/December 1989; and ``PETA 
Talks with the Animal Liberation Front'' (PETA News, no. 4), undated, 
circa 1986.
    \13\ Full-page advertisement (PETA News), March/April 1990.
---------------------------------------------------------------------------
    Also in this newsletter, PETA advertised Ingrid Newkirk's first 
book, Free The Animals!, as ``an intimate look at the ALF,'' and wrote 
that Newkirk ``speaks for the Animal Liberation Front.'' \14\
---------------------------------------------------------------------------
    \14\ Book-promotion advertisement (PETA News), spring 1993.
---------------------------------------------------------------------------
    In 2001 PETA campaign director, Bruce Friedrich told an animal-
rights convention audience that ``blowing stuff up and smashing windows 
[is] a great way to bring about animal liberation--Hallelujah to the 
people who are willing to do it.'' \15\
---------------------------------------------------------------------------
    \15\ Partial transcript of remarks by Bruce Friedrich at the 
``Animal Rights 2001'' national conference on July 2, 2001.
---------------------------------------------------------------------------
    PETA has employed and continues to pay regular stipends to an 
activist named, Gary Yourofsky, who was convicted by a Canadian court 
of a farm burglary for which a claim of responsibility was issued in 
the name of the ALF. Mr. Yourofsky told a reporter in 2002 that he 
would ``unequivocally support'' the death of medical researchers in 
ALF-related arson fires.\16\
---------------------------------------------------------------------------
    \16\ ``Activist Devotes Life to Animal Rights'' (The Toledo Blade), 
June 24, 2001.
---------------------------------------------------------------------------
    PETA hired Yourofsky after he gave this interview.\17\ The group 
acknowledges having employed him to speak to children in middle-school 
and high-school classrooms, and continues to pay him as an independent 
contractor.
---------------------------------------------------------------------------
    \17\ ``Open Letter from Gary Yourofsky'' dated May 28, 2002 and 
distributed to animal-rights-oriented electronic mailing lists.
---------------------------------------------------------------------------
    That same year PETA wrote a $1,500 check payable to the North 
American Earth Liberation Front\18\, a donation which PETA 
spokespersons have publicly attempted to justify with multiple and 
contradictory explanations.\19\
---------------------------------------------------------------------------
    \18\ Page from ``Form 990'' filed with the IRS by People for the 
Ethical Treatment of Animals for the tax year 2000, showing a 
disbursement to the ``North American Earth Liberation Front.''
    \19\ Explanations given for PETA's donation to the ELF by PETA 
spokespersons.
---------------------------------------------------------------------------
    Regardless of which explanation (if any) is accurate, any 
organization funding a bona fide FBI-designated terrorist group should 
not be permitted to claim that it is not, in fact, funding terrorism. 
That logic would never pass muster if the terrorist group in question 
were Al Qaeda or the Ku Klux Klan.
    PETA has made a $5,000 cash grant to Joshua Harper, an activist 
presently awaiting trial in New Jersey on Federal Animal Enterprise 
Terrorism charges.\20\ An FBI evidence recovery log from the search of 
his residence describes a razor-blade booby-trapped envelope,\21\ 
similar to those used in a string of attacks claimed by an ALF-like 
group calling itself ``The Justice Department.'' \22\ Harper has 
reported that he is working on a video documentary, called ``Speaking 
With Fire,'' which will encourage and defend animal-rights-related 
arson.
---------------------------------------------------------------------------
    \20\ Page from ``Form 990'' filed with the IRS by People for the 
Ethical Treatment of Animals for the tax year 2000, showing a 
disbursement to the ``Josh Harper Support Fund.''
    \21\ Page from an FBI Evidence Recovery Log related to the search 
of animal-enterprise-terrorism defendant Josh Harper's residence.
    \22\ ``Scientists Get Letters Rigged With Razors'' (The Oregonian), 
October 27, 1999.
---------------------------------------------------------------------------
    PETA also gave $2,000 to David Wilson, an activist who served as an 
official ALF ``spokesperson'' during the 1990's.\23\ In a 1999 
interview with Mother Jones magazine, Wilson explained the ALF-ELF 
nexus: ``We started with animal rights, but we've expanded to wildlife 
actions like the one in Vail. We're the ones bridging the environmental 
gap.'' \24\
---------------------------------------------------------------------------
    \23\ Page from ``Form 990'' filed with the IRS by People for the 
Ethical Treatment of Animals for the tax year 1999, showing a 
disbursement to David
    \24\ ``Alleged eco-terrorist Tre Arrow denied bail while awaiting 
extradition hearing'' (Associated Press), December 3, 2004.
---------------------------------------------------------------------------
    The criminal record of accused ELF arsonist Tre Arrow, presently 
attempting to fight extradition from Canada,\25\ began with an arrest 
in 1998 during a PETA protest near Cincinnati.\26\
---------------------------------------------------------------------------
    \25\ ``Animal rights group steps up protest of Procter & Gamble'' 
(Associated Press), August 6, 1998.
    \26\ ``Backfire'' (The Mother Jones), March/April 1999.
---------------------------------------------------------------------------
    The current crop of ALF spokespersons, who now call themselves 
``press officers,'' \27\ includes a New Jersey activist named Angi 
Metler, who was once described in PETA News as a ``PETA spokesperson.'' 
\28\
---------------------------------------------------------------------------
    \27\ Current home page for the ``North American Animal Liberation 
Press Office'' (accessed on May 13, 2005).
    \28\ ``PETA-New Jersey Rescues Lambs'' (PETA News, vol. 1 no. 8), 
undated, circa 1986.
---------------------------------------------------------------------------
    Another self-appointed ALF ``press officer'' is Dr. Jerry Vlasak. 
In 2003, while acting as a spokesperson for the PETA-affiliated 
Physicians Committee for Responsible Medicine,\29\ Vlasak openly 
endorsed the murder of doctors who use animals in their medical 
research. ``For 5 lives, 10 lives, 15 human lives,'' he told an animal-
rights convention, ``we could save a million, 2 million, 10 million 
non-human lives.'' When an audience member objected, comparing his 
strategy to that of violent criminals who bomb abortion clinics, Vlasak 
responded: ``Absolutely. I think they had a great strategy going.'' 
\30\
---------------------------------------------------------------------------
    \29\ Official program from the ``Animal Rights 2003'' national 
conference in Los Angeles, California.
    \30\ Partial transcript of remarks by Dr. Jerry Vlasak at the 
``Animal Rights 2003'' national conference on August 3, 2003.
---------------------------------------------------------------------------
    In 2001 the Physicians Committee for Responsible Medicine engaged 
in a letter-writing campaign with the president of another terrorist 
threat group called SHAC (Stop Huntingdon Animal Cruelty). The letters 
were designed to threaten and intimidate companies targeted by SHAC for 
their business dealings with a biomedical research firm that uses 
animal-testing models.\31\ In addition to both veiled and overt threats 
of death and bodily harm, SHAC's tactics have included car bombings, 
identity theft, physical assault, and interstate stalking.\32\
---------------------------------------------------------------------------
    \31\ Letter on Physicians Committee for Responsible Medicine 
letterhead, co-signed by PCRM president Neal Barnard and then-president 
of SHAC USA Kevin Kjonaas.
    \32\ Excerpts from ``Stop Huntingdon Animal Cruelty: A Resource 
Guide'' (U.S. Dept. of Justice), August 2003.
---------------------------------------------------------------------------
    SHAC's current U.S. president is Pamelyn Ferdin, who is married to 
Dr. Jerry Vlasak.\33\ Ferdin also carries a Physicians Committee for 
Responsible Medicine business card.\34\
---------------------------------------------------------------------------
    \33\ Affidavit of Pamelyn Ferdin in the case of USA v. SHAG USA et 
al.
    \34\ Business card obtained in 2004 from Pamelyn Ferdin.
---------------------------------------------------------------------------
    Also on the current roster of ALF spokespersons is Dr. Steven Best, 
who chairs the Philosophy department at the University of Texas El Paso 
(UTEP). Like Vlasak, whose statements in support of violent terrorism 
carry weight primarily because of his medical license, Dr. Best's 
academic position affords him a position of regrettable influence 
within the animal rights movement.\35\
---------------------------------------------------------------------------
    \35\ Photo gallery of Dr. Steven Best, demonstrating his sphere of 
influence.
---------------------------------------------------------------------------
    He proclaims in one 2003 essay first published on his UTEP web 
page: ``I support the Animal Liberation Front (ALF). I support property 
destruction--violence is defensible in certain cases--The ALF ought to 
be respected and appreciated for the brave soldiers they are.''
    In 2004 when Dr. Best praised the ALF during an interview aired on 
the Showtime cable network, he spoke in the first person: ``We are 
breaking down doors, breaking into buildings, rescuing animals, and 
smashing property--These tactics are legitimate, they're necessary, 
they're powerful, they're effective.'' \36\
---------------------------------------------------------------------------
    \36\ Partial transcript of remarks by Dr. Steven Best, broadcast on 
the television program Penn & Teller: Bullshit (Showtime Network), 
April 1, 2004.
---------------------------------------------------------------------------
    Best chose his words similarly at the ``Animal Rights 2003'' 
national conference, while insisting upon the futility of promoting 
animal welfare among farmers and laboratory scientists. ``Rather than 
arguing with them,'' he said, ``we just shut them down the best we can. 
We cannot win the war of liberation through education and legislative 
tactics alone. More direct, militant, and confrontational tactics often 
are needed.''
    Mr. Chairman, I urge this Committee to fully investigate the 
connections between individuals who commit crimes in the name of the 
ALF, ELF, or similar phantom groups, and the above-ground individuals 
and organizations that give them aid and comfort. I would also urge 
members of this Committee to prevail upon their colleagues to re-
examine the tax-exempt status of groups that have helped to fund-
directly or indirectly these domestic terrorists.
    Thank you again for holding this important hearing.


    [GRAPHICS NOT AVAILABEL IN TIFF FORMAT]

Response by David Martosko to Additional Question from Senator Jeffords
    Question. On May 2, 2005, The Washington Post ran an article about 
the Center for Consumer Freedom (CCF) titled, ``Obesity Hype?'' 
According to the article, a group called Citizens for Responsibility 
and Ethics in Washington (CREW) has questioned CCF's 501(c)(3) tax 
exempt status. The concern is that the founder of CCF, Rick Berman, may 
be violating Federal tax law by channeling funds from CCF and other 
non-profits that he created into his own public affairs firm, Berman 
and Company. According to the article, CREW also asserts that CCF's 
activities are ``not remotely charitable.'' Could you please respond to 
these accusations?
    Response. We view CREW's complaint as an ordinary inside-the-
beltway partisan attack from an organization that disagrees with us. 
While the Center is nonpartisan by nature, CREW appears to be viewing 
our activities through the typical Washingtonian liberal-vs-
conservative lens, and has apparently decided that we are not 
``progressive'' enough to escape their truncheon.
    CREW itself is a self-described ``left leaning'' legal organization 
funded by two ``progressive'' philanthropies and a handful of former 
Clinton-era DNC political operatives. Consisting of one high-profile 
lawyer and three support staffers, the organization is best known for 
filing a flurry of lawsuits and ethics complaints against prominent 
Republicans including Rep. Tom DeLay, Sen. Ted Stevens, Sen. Mel 
Martinez, former Attorney General John Ashcroft, RNC Chairman Ken 
Mehlman, anti-tax crusader Grover Norquist, and the Swift Boat Veterans 
for Truth.
    On March 23, 2005, The Hill published an article (``Watchdogs in 
Soros's pocket: GOP'' by Alexander Bolton) which, in part, explored the 
nature of CREW's partisanship:

          One target of Republican criticism is Citizens for 
        Responsibility and Ethics in Washington (CREW), the group that 
        last year assisted former Rep. Chris Bell (D-Texas) in drafting 
        an ethics complaint against DeLay, which resulted in an 
        admonishment of DeLay from the ethics committee. At last week's 
        press conference, Melanie Sloan, CREW's executive director, 
        said that DeLay should step down as majority leader.
          From 1995 to 1998, CREW's Sloan served as minority counsel 
        for the House Judiciary Committee under Rep. John Conyers (D-
        Mich.). Before that, Sloan served as the nominations counsel on 
        the Senate Judiciary Committee under Sen. Joe Biden (D-
        Delaware.).
          According to GOP research, Mark Penn, who had been a pollster 
        for President Clinton, and Daniel Berger, a major Democratic 
        donor, are on CREW's board. Spokeswoman Naomi Seligman declined 
        several requests to reveal the membership of CREW's board, 
        although she confirmed that Penn and Berger are members. Last 
        year, Berger made a $100,000 contribution to America Coming 
        Together (ACT), a 527 group that was dedicated to defeating 
        Bush in the Presidential election, according to 
        politicalmoneyline.com, a website that tracks fundraising.
          CREW declined to respond to the RNC talking points or House 
        GOP research.

    As to the substance of CREW's charges, Berman and Company (BAC) is 
a communications and association-management firm. BAC manages the 
Center for Consumer Freedom (and other nonprofits, the names of which I 
listed at the opening of my testimony) on behalf of a Board of 
Directors and the Center's funders. Most of these funders are 
sophisticated businesses that understand the typical nature of this 
arrangement. BAC manages CCF's books, operates its educational 
programs, and keeps the organization on a course toward meeting its 
stated objectives.
    Expenses for which BAC bills the Center include personnel hours for 
research, communications, legal fees, and development; media expenses; 
information technology infrastructure; and ordinary office expenses. 
Still, the Center spends over 84 percent of its operating budget on its 
charitable, educational programs, and barely 15 percent on overhead and 
fundraising. These numbers are far better than the average for tax-
exempt nonprofits.
    CREW's claim that the Center's activities are ``not remotely 
charitable'' is false and defamatory, and appears calculated to do us 
harm. The IRS has ruled that the Center meets its guidelines for tax-
exempt status as a charitable organization with a legitimate 
educational purpose. It's worth noting that CREW's press release is the 
only communication we have received (or heard of) regarding its 
complaint. The IRS has not communicated with us about this issue.
                                 ______
                                 
Responses by David Martosko to Additional Questions from Senator Vitter
    Question 1. How do ALF and ELF recruit for membership?
    Response. It's important to note that neither the ALF nor the ELF 
are ``membership'' organizations in the way we typically think about 
the term. Anyone who sets a building on fire, issues a death threat 
against restaurant owner, or detonates a pipe bomb outside a biomedical 
research firm can claim to be acting on behalf of the ALF or ELF simply 
by stating so in a ``communique'' to the outside world.
    But it's becoming increasingly clear that a handful of high-profile 
activist leaders have made a habit of criss-crossing the country with 
the aim of recruiting young people into a lifestyle that may encourage 
such illegal activity. Individuals that I would categorize as 
recruiters in this fashion--those who have made repeated speeches, 
presentations, and lectures to young people promoting ``direct action'' 
and the ``animal liberation'' and ``earth liberation'' philosophies--
would include:
    Dr. Steven Best, Philosophy professor at the University of Texas El 
Paso and current ``press officer'' for the ALF; Rodney Coronado, 
Convicted ALF arsonist, recipient of over $70,000 in PETA subsidies, 
and editor of the Earth First! Journal; Bruce Friedrich, campaign 
coordinator at People for the Ethical Treatment of Animals (PETA); 
Pamelyn Ferdin, Wife of Dr. Jerry Vlasak and president of Stop 
Huntingdon Animal Cruelty USA; Camille Hankins, Leader of ``Win Animal 
Rights'' (W.A.R.) and current ``press officer'' for the ALF; Joshua 
Harper, Current Federal Animal Enterprise Terrorism defendant, 
filmmaker whose documentaries glorify arson in the pursuit of animal 
rights, and recipient of a $5,000 grant from PETA; Kevin Kjonaas, 
Former President of Stop Huntingdon Animal Cruelty USA and current 
Federal Animal Enterprise Terrorism defendant; Andrew Stepanian, Former 
PETA employee, ALF convict, and current Federal Animal Enterprise 
Terrorism defendant; Dr. Jerry Vlasak, California trauma surgeon, 
recent spokesperson for the PETA-affiliated Physicians Committee for 
Responsible Medicine, and current ``press officer'' for the ALF; Paul 
Watson, President and co-founder of the Sea Shepherd Conservation 
Society, co-founder of Greenpeace, current Board member of the Sierra 
Club; Gary Yourofsky, ALF convict and in-school lecture contractor with 
PETA.
    These names are merely the low-hanging fruit. It's likely that a 
more exhaustive list could be obtained from the FBI's Domestic Terror 
Operations Unit in Washington.
    In addition, there are some publications that exist for the purpose 
of glorifying ALF and ELF criminal activity. These periodicals serve as 
encouragement to young people who may be contemplating ``direct 
action'' (the current euphemism for arson, vandalism, burglary, or 
other crimes undertaken for political purposes): The Earth First 
Journal, Bite Back, No Compromise.

    Question 2. Do you believe that they intentionally target young 
members?
    Response. I believe that the animal-rights and environmental 
movements in general have always targeted young people, and their 
extreme fringes are no different. In general, activist groups target 
young people with political ideas (e.g., strict vegetarianism, the 
abolition of fossil fuels, strict limits on suburban growth) because 
they understand that adults are less likely to undertake severe 
lifestyle shifts. Adolescents, on the other hand, are in the process of 
forging their identities and can be moved toward embracing ideas that 
older Americans might dismiss as impractical.
    The kinds of actions for which claims of responsibility are 
typically issued by ALF and ELF are generally felonies that would 
suggest considerable jail sentences. While fully formed adults with 
families and careers tend to see prison time as a practical deterrent, 
some teens do not. Many animal-rights movement insiders who have spent 
time behind bars make a point of preaching to teens that prison time is 
``no big deal.'' And a far-flung support network has sprung up to 
ensure that those whom the movement considers ``political prisoners'' 
are inundated with encouraging letters, and can expect a supportive 
crowd at parole hearings.

    Question 3. Groups like PETA use funds donated in large part by 
well-meaning citizens concerned about animal welfare, to fund extremist 
groups whose activities are clearly detrimental to the U.S. economy. 
How can the donating public be better educated concerning the ultimate 
use of funds donated to groups such as PETA, so that they better 
realize the ultimate effects their donations are having on the U.S. 
economy?
    Response. Nonprofit groups either are tax-exempt or they're not. 
The United States Treasury Code does not provide for a middle ground 
that would permit (or require) disclaimers on fundraising appeals 
regarding the specific nature of a given group's charitable activities.
    So the best solution to this problem is not for the public to be 
burdened with additional fine print. It's for the Treasury Department 
to cancel the tax-exempt status of any group that crosses the line 
between (1) the advocacy of a controversial idea and (2) the 
bankrolling of extremist proponents of that idea whose actions are 
rightly deemed terrorist in nature.
    It should be a black-letter Internal Revenue Code violation for a 
501(c)(3) organization to donate any funds to an organization 
designated a ``domestic terror threat group'' by a Federal law-
enforcement agency. The FBI, BATFE, and Homeland Security Department 
can make these designations, but unlike when the State Department 
issues findings of fact regarding international terrorist threats, 
these pronouncements appear to have little practical weight. PETA knew 
that the ELF was considered a terrorist group when it made its 
donation. If our government takes the threat of terrorism seriously, it 
should not give PETA (or any similarly situated group) the chance to 
dissemble after the fact.
    If we were talking about a financial gift to Hamas or Al Qaeda (or 
the Ku Klux Klan), I seriously doubt anyone would listen to PETA's 
claim that it willfully supported a terrorist group without intending 
to support terrorist activity. In fact, there have been recent cases 
(e.g., the Holy Land Foundation and Benevolence International) where 
financial support of an international terrorist threat group was cited 
by the IRS as the primary reason for revocation of 501(c)(3) status.
                                 ______
                                 
       Response by David Martosko to an Additional Question from 
                           Senator Lautenberg
    Question. Mr. Martosko, do you believe it is possible to be a 
member of an organization, such as the Sierra Club, yet hold views that 
differ with that organization--or do you believe in ``guilt by 
association?''
    Response. Clearly, not every individual who professes membership in 
a given organization is likely to hold the same views on everything. So 
it would be unfair to characterize any membership organization as an 
opinion monolith.
    But I think a more important question is whether it's possible for 
a large membership group to openly countenance the controversial and 
lawless views of one of its legal officers, and still properly 
represent its larger constituency. In the case of the Sierra Club, a 
member of the group's Board of Directors (Mr. Paul Watson) openly 
endorses the use of illegal ``direct action'' tactics in the pursuit of 
animal rights.
    At the ``Animal Rights 2004'' convention, Watson said of animal-
activist attacks on fishermen:

          [T]o get our message across sometimes we've got to scare the 
        hell out of these people--We don't really want to hurt them. 
        Well, not yet, anyway. But in the mean-time let's try and 
        continue to scare the hell out of them.

    During another panel discussion at the same event, Watson added:

          If you can make the law work for you and for the animals, 
        that's all pretty good. But you'll find for the most part, of 
        course, that the law is working against you and the animals. 
        And there it becomes a question of manipulating the law in 
        order to make it work for you, or sometimes ignoring the law, 
        or sometimes just simply breaking the law. And remember that 
        breaking the law is not that bad of a thing.

    The next day, Watson clarified his position even further, making 
specific reference to ALF attacks on research laboratories:

          I am fully supportive of anybody who breaks into a lab to 
        rescue an animal today. I am fully supportive of anybody who 
        has to do anything to protect life, because justice must take 
        precedence over the law.

    At the same event 2 year earlier (the ``Animal Rights 2002'' 
convention), Watson had these things to say:
    <bullet> ``Destruction of property is not violence.''
    <bullet> ``There's nothing wrong with being a terrorist, as long as 
you win. Then you write the history.''
    <bullet> ``If you do not intend to kill anybody, if you make every 
effort to not kill and injure anybody, that's all you really can do. 
You can't stop somebody from walking into a situation, and we really 
can't be too overly preoccupied with this. The fact is that we live in 
an extremely violent culture, and we all justify violence if it's for 
what we believe in.''
    <bullet> ``Animal Liberation Front tactics are going to continue. 
There's not a damned thing you can do about it, you're not going to 
stop it. So you might as well incorporate it into the movement.''
    Watson puts his talk into action. His Sea Shepherd Conservation 
Society has trained several notable ALF-affiliated and otherwise 
criminally oriented activists, including arsonist Rodney Coronado, PETA 
co-founder Alex Pacheco, and SHAC terrorism defendants Kevin Kjonaas 
and Joshua Harper. Watson and Coronado openly discuss their work sunk 
whaling ships together. Watson's flagship is fitted with a cement hull 
specifically designed for ramming other vessels, and (literally) flies 
a skull-and-crossbones pirate flag.
    Do most rank-and-file Sierra Club members approve of the tactics 
practices by one of their Board members? I have far too much faith in 
ordinary Americans to believe that they would. But we should ask 
whether the Sierra Club is doing anyone a service by allowing such an 
extremist to help shape its future direction.
                               __________
 Statement of Bradley Campbell, Commissioner, New Jersey Department of 
                        Environmental Protection
    I would like to thank the Committee for the opportunity to appear 
before you to discuss the problems of ecoterrorism and other threats to 
domestic security.
    These are subjects that Governor Richard J. Codey and every New 
Jersey resident regard with urgent concern. Our residents live in the 
shadow of the attacks of September 11, 2001, which claimed the lives of 
674 New Jerseyans and transformed our northern waterfront into an 
evacuation zone. New Jersey also was the launching site for the first 
major bio-terror attacks on United States soil resulting in fatalities, 
when a still-unknown terrorist mailed anthrax-laden letters that 
severely contaminated the United States Postal Service facility in 
Hamilton, NJ.
    New Jersey's very strengths create particular vulnerability to acts 
of domestic terrorism. Our chemical, petroleum and other industrial 
plants that support the economy of the Nation are clustered around 
well-developed transportation infrastructure linking the New York and 
Philadelphia metropolitan regions. The Port of New Jersey and New York 
is the entry point for more than 4 million cargo containers and 55 
million tons of bulk cargo valued at over $100 billion. New Jersey is 
home to Newark Liberty International Airport--one of the busiest 
airports in the country serving more than 30 million passengers 
annually. New Jersey is well-known as the center of pharmaceutical, 
biotechnology, and other life science industries targeted by violent 
and extreme animal rights activists. All of these infrastructure sites 
and more are potential targets for terrorists, and all lie in the most 
densely populated State in the Union.
    I shall begin with a brief overview of New Jersey's domestic 
security preparedness activities, and then turn to the specific types 
of ecoterrorism that concern us.
     overview of new jersey's domestic security preparedness effort
    New Jersey's unique vulnerabilities have made us a leader among 
States in initiating and implementing measures to counter potential 
terrorist operatives, to reduce the risk of attack at critical 
infrastructure facilities, and to reduce the potential impacts to 
public health and safety if any such attacks should occur in the 
future. New Jersey undertakes these efforts through our Domestic 
Security Preparedness Task Force (DSPTF or Task Force), chaired by 
Attorney General Peter C. Harvey, and our Office of Counter-Terrorism 
(OCT), directed by Sidney Caspersen.
    As Commissioner of the Department of Environmental Protection 
(DEP), I serve as the DSPTF's lead for the pharmaceutical and 
biotechnology, chemical, nuclear, petroleum, wastewater, and dam safety 
sectors of our critical infrastructure. I share responsibility for the 
water sector as well in cooperation with our Board of Public Utilities. 
Through the DSPTF and the OCT, I also participate in New Jersey's 
preparedness and response effort for other sectors. Notably, the 
sectors within DEP's oversight are among the sectors in which ecoterror 
has been of greatest concern, and the sectors in which credible threats 
of other forms of terrorism have most often been identified in New 
Jersey.
    The DSPTF has undertaken a comprehensive program to reduce terror 
risk, to ensure preparedness at critical infrastructure facilities, and 
to test the efficacy of both public agencies and the private sector in 
responding to acts of terrorism. Every DSPTF agency and every sector of 
our critical infrastructure has developed, thorough a public-private 
collaboration, a series of ``Best Practices'' for domestic security. 
Each set of Best Practices has been reviewed and approved by the Task 
Force and the Governor. Every DSPTF agency and every sector of our 
critical infrastructure has also participated in appropriate exercises 
to test the strengths and limits of terror detection and response 
capability, most recently in the U.S. Department of Homeland Security's 
regional ``Top Officials'' (``TOPOFF'') exercise in April, 2005, which 
simulated a massive bioterror attack resulting in thousands of deaths 
throughout New Jersey.
    Another worthy program initiated by DHS and carried forward by the 
New Jersey OCT in conjunction with State and local law enforcement 
partners is the ``Buffer Zone Protection Program,'' which addresses 
protective measures outside a facility's perimeter. Sixteen of the most 
high consequence facilities in New Jersey have completed ``Buffer Zone 
Protection Plans.'' A program of similar scope and intensity focused on 
protective measures inside a facility's perimeter is what New Jersey 
hopes this Committee and Congress will undertake.
    New Jersey's current challenge is to ensure full implementation of 
security ``Best Practices'' across all sectors, consistent with 
Governor Codey's policy of ``Zero Tolerance'' for noncompliance, and to 
identify those additional regulatory and other measures that are 
appropriate to contend with emerging threats and challenges. Throughout 
this process, DEP is working with OCT, our State Police, our Attorney 
General's Office and private companies within our sectors to reduce or 
eliminate specific threats that we have identified on a case-by-case 
basis.
                 animal rights/environmental terrorism
    For New Jersey, animal rights/environmental terrorism, which I will 
loosely refer to as ``ecoterrorism'' is considered a significant 
threat. In our experience, the threat cleaves into two very different 
strains. The first strain consists of those groups with an ostensibly 
ecological ideology or agenda that are prepared to use acts or threats 
of violence to trumpet their message or interfere with legitimate 
industrial, commercial, or scientific enterprises. I shall refer to 
this strain as ``ideological ecoterrorism.'' The second strain consists 
of those groups who may use ecological harm--such as the sudden and 
catastrophic release of explosive, toxic, or other material--to expose 
the public on a scale that will create massive injuries and death and 
long term injury to the State's natural resources. I shall refer to 
this strain as ``impact ecoterrorism.''
1. Ideological Ecoterrorism
    As the home to many pharmaceutical, biotechnology, and other major 
firms concerned with the life sciences, New Jersey is particularly 
sensitive and attractive to the groups most likely to use threats or 
acts of terror to advance putatively ``environmental'' or ``animal 
protection'' causes.
    I use the terms ``environmental'' and ``animal protection'' 
guardedly, recognizing that there are mainstream environmental and 
animal welfare organizations that have contributed thoughtful advocacy 
to our domestic security preparedness effort or more broadly to 
environmental and wildlife policy. Thoughtful organizations 
participating in the public process of developing and implementing 
public policy should not suffer the stigma or suspicion that 
legitimately attaches to extreme and violent groups.
    New Jersey, primarily through the efforts of OCT, has worked with 
the DHS in closely monitoring groups advocating or promoting acts of 
violence or ecoterror, including any activities and potential threats 
associated with the Animal Liberation Front (ALF), the Earth Liberation 
Front (ELF), or similar organizations. In New Jersey's experience, the 
more significant threat has come from those groups espousing an extreme 
animal-rights agenda.
    These groups have had a particular focus on the pharmaceutical 
industry, which is one of the largest business sectors in New Jersey. 
The pharmaceutical industry contributes almost $30 billion annually to 
the State's economy and employs more than 62,000 people. Fully 75 
percent of the world's leading pharmaceutical companies maintain some 
presence in New Jersey.
    Ideological animal enterprise terrorist groups have in fact 
targeted our pharmaceutical facilities. Franklin Township is home to 
one of Huntingdon Life Sciences' (HLS) 3 worldwide animal research 
laboratories. This company and its employees, who provide contractual 
work for other chemical and pharmaceutical companies, have been the 
subject of repeated harassment for more than four years by members of 
Stop Huntingdon Animal Cruelty (SHAC), an organization considered an 
animal enterprise terrorist group by the Federal Bureau of 
Investigation (FBI).
    SHAC is just one of several single-issue environmental or animal 
rights groups active in the region, which include ELF and ALF. Our OCT 
has noted increasing signs of convergence among these groups. ELF, ALF, 
and SHAC share certain goals and have overlapping agendas. These groups 
employ similar leaderless resistance models and employ similar tactics.
    Notably, traditional law enforcement approaches, coupled with the 
vigilance of our OCT, have been sufficient to deal with the threats New 
Jersey has seen to date. The methods of these groups are more akin to 
those of traditional felons than they are to those of the international 
terrorist communities. Their intentions generally have been limited to 
interference with particular facilities, companies, or individuals. To 
date, we have seen no evidence of intent to wreak mass destruction or 
mass casualties in communities surrounding these facilities. While the 
acts and threats of these groups may be criminal and serious in many 
cases, both the threat and the potential impacts appear within the 
capability of traditional law enforcement.
    The success of traditional law enforcement tools has been 
demonstrated by the Federal grand jury indictment of seven of SHAC's 
leaders a year ago. I am grateful to U.S. Attorney Christopher Christie 
for his aggressive pursuit of these criminals. To offer a more personal 
example of the use of traditional law enforcement tools against 
ideological ecoterrorists, New Jersey's Attorney General Peter Harvey 
has successfully secured a civil protective order against an animal 
rights extremist who had threatened my home and my family.
    Moreover, the measures New Jersey has undertaken to protect its 
communities against more threatening terrorist groups will 
significantly reduce potential risks of harm from ideological animal 
rights/environmental terrorists. For example, our work to ensure 
appropriate site security and target hardening measures at sectors 
within DEP's oversight, and OCT's buffer zone protection program, will 
help to reduce the vulnerability of all of our facilities to these acts 
of single-issue terrorism in the future.
2. ``Impact Ecoterrorism''
    Traditional law enforcement tools are not adequate to prevent and 
respond to ``impact ecoterrorism,'' in which the materials, processes, 
or resources of industrial or utility facilities may be used by 
terrorist to create injuries, death, or environmental damage on a 
massive scale. In preventing and responding to this form of terrorism, 
both Federal and State measures are needed. Governor Codey and the 
DSPTF are particularly concerned with terror risks associated with 
chemical, petroleum and nuclear facilities.
    In New Jersey, there are nearly 100 chemical facilities that are 
considered critical infrastructure sites, as well as 22 petroleum 
facilities, and four nuclear power plants. South Jersey alone has four 
refining and chemical plants each of which could expose a million or 
more people to highly toxic chemicals in a worst-case chemical release.
    New Jersey's DSPTF has worked collaboratively with our critical 
infrastructure sectors to develop and implement ``Best Practices'' that 
will reduce risk and enhance preparedness at these types of facilities. 
Private sector leadership has been critical to this effort, including 
the example set by the American Chemistry Council (ACC) and the New 
Jersey Chemistry Council leadership to develop the Security Code of 
ACC's ``Responsible Care'' program. This and similar efforts have 
provided the critical building blocks of New Jersey's preparedness 
effort, and the DSPTF is implementing Governor Codey's policy of ``zero 
tolerance'' for noncompliance with these measures.
    But these measures alone are merely a starting point. Our knowledge 
of both the threat and the appropriate response is evolving daily. As 
we implement the ``Best Practices'' and work with facilities on site-
by-site review of security vulnerabilities, we also are beginning a 
public process to review what additional regulatory measures may be 
appropriate to harden potential targets, to reduce risk to surrounding 
communities, and to involve workers and communities in the process.
    While New Jersey is doing its part, we renew our call for Federal 
standards and protections that will reinforce our work and ensure a 
level playing field for firms operating in New Jersey.
    New Jersey is particularly concerned with the issue of chemical 
plant security. We share the concerns of President Bush's former 
security adviser, Richard Falkenrath, who has said that the complete 
lack of government oversight makes potential targets out of thousands 
of chemical plants, and who has called chemical plant security ``the 
single greatest danger of potential terrorist attack in our country 
today.''
    Recognizing this danger, the New Jersey strongly supports the 
Chemical Security Act, introduced in the last Congress by Senator Jon 
Corzine and unanimously reported out of this committee on July 25, 
2002. We strongly support Federal measures to require major chemical 
and petroleum facilities to conduct vulnerability assessments subject 
to Federal and State agency review; to require review of inherently 
safer technology that may improve plant safety; and to provide safe 
access to sensitive chemical facility security information. These 
requirements should, at a minimum, apply to the more than 15,000 
facilities that are subject to the EPA's Risk Management Plan (RMP) 
requirements.
    New Jersey also supports efforts to impose stricter Federal 
standards and protections in the nuclear power generation sector, 
another potential target for impact ecoterrorism. As the committee is 
aware, State action at these facilities is limited by the exclusive 
jurisdiction of the Nuclear Regulatory Commission (NRC). While the NRC 
has been cooperative with DEP, New Jersey is concerned that the 
``design basis threat'' that the NRC uses to evaluate terror threats is 
woefully inadequate. New Jersey strongly support Federal legislation, 
such as last session's S. 1043, that would direct the NRC and 
Department of Homeland Security (DHS) to assess security 
vulnerabilities at nuclear power plants and waste storage facilities; 
to make recommendations for reducing security risks, taking into 
account specified threats including attacks comparable to 9/11; and to 
conduct a rulemaking to upgrade security requirements for nuclear 
facilities. In this Congress, New Jersey supports passage of S. 864, 
the Nuclear Safety and Security Act of 2005, even as we would like to 
see the more rigorous requirements of S. 1043 retained in the newer 
legislation.
    In addition, New Jersey supports legislation that would increase 
Federal oversight of domestic security preparedness at facilities in 
other sectors. For example, according to the EPA, there are more than 
16,000 wastewater treatment facilities nationwide with approximately 
1,600 located near large metropolitan areas. Many of these facilities 
use chlorine to disinfect the water. Chlorine is a poisonous, greenish-
yellow gas that is fatal in large concentrations. It can also burn the 
eyes, lungs, and skin. When released, it quickly turns to gas, stays 
close to the ground, and spreads rapidly. In New Jersey, only one 
wastewater treatment plant still uses enough chlorine (more than 1,000 
pounds annually) to be regulated by our TCPA rules. However, we 
estimate that more than 12 million pounds of chlorine is stored at TCPA 
facilities around the State. Given the prevalence of this potentially 
lethal chemical, New Jersey strongly supports Federal legislation, such 
as S. 779 from the last Congressional session, that would authorize 
funds for wastewater utilities to conduct vulnerability assessments and 
required wastewater facilities to conduct and submit vulnerability 
assessments and emergency response plans to the government. As a 
February 2005, General Accounting Office (GAO) report concluded, any 
legislation overseeing improvements in wastewater treatment security 
should also emphasize replacing gaseous chemicals used in wastewater 
treatment with less hazardous alternatives; improving local, State, and 
regional efforts to coordinate responses in advance of a terrorist 
threat; and completing vulnerability assessments for individual 
wastewater systems.
    Added Federal safeguards in these areas would complement New 
Jersey's tradition of strict rules to ensure safety at major chemical 
and petroleum facilities and to protect surrounding communities. Almost 
20 years ago, the State adopted the Toxic Catastrophe Prevention Act 
(TCPA) statute after the Bhopal tragedy in India. TCPA rules require 
detailed ``risk management plans'' and ``off-site consequences 
analysis'' to be performed for all chemical sites that manage 
extraordinarily hazardous substances. In the wake of the September 11 
tragedy, we have redoubled our efforts to ensure safety at these 
facilities. On August 5, 2003, New Jersey became the first State to 
regulate reactive hazard substances when present at a facility above a 
specified threshold, Reactive hazard substances are those that can 
explode when inadvertently exposed to air or water or when mixed with 
certain other chemicals.
    New Jersey also requires facilities subject to TCPA regulations to 
evaluate their risk reduction options every 5 years to ensure the 
options reflect the most up-to-date, practicable technologies available 
for minimizing the risk of catastrophic accidental releases, and to 
implement this technology if cost-effective. Facilities must evaluate 
their new processes to ensure they incorporate, where feasible and 
cost-effective, inherently safer technologies that minimize or 
eliminate the threat of chemical releases by using safer chemicals, 
reducing chemical inventories, and improving equipment maintenance and 
design.
    In addition to our TCPA program, DEP also regulates facilities 
through its Discharge Prevention, Containment and Countermeasure (DPCC) 
program. The DPCC program is basically an above-ground storage tank 
program that regulates facilities that store either 20,000 gallons of 
hazardous substances or 200,000 gallons of petroleum products and 
hazardous substances. Each facility is required to prepare a DPCC Plan 
and a Discharge Cleanup and Removal Plan (DCR). The DCR plan is the 
emergency response plan for the facility in the event of a discharge. 
DEP must review and approve of these plans.
    The primary focus of both the DPCC and TCPA programs has been to 
ensure that the hazardous substances used by these facilities are not 
accidentally discharged into the State's environment. These programs 
are proving to be useful tools in domestic security preparedness, and 
will inform any additional regulatory requirements we develop at the 
State level.
    But we remain persuaded that both security and interstate fairness 
would be advanced significantly, and with far less economic impact, if 
State measures were coupled with a Federal framework of regulatory 
protections. New Jersey is prepared to work with all members of the 
committee to achieve appropriate legislation to establish that 
framework.
                       homeland security funding
    In responding to the threats of both single-issue, or ideological 
ecoterrorists, and impact ecoterrorists, funding is critical. Governor 
Codey has repeatedly pointed out that current homeland security funding 
formulas seriously undervalue actual intelligence about the presence of 
potential and known terror targets.
    For all of the types of terrorists discussed today, New Jersey 
presents a greater array of pharmaceutical, chemical and petrochemical 
targets, in much closer proximity to population centers, than many 
other States. The same is true in States like California and Louisiana, 
especially when compared to States like Wyoming or Nebraska.
    New Jersey's Federal homeland security funds overall decreased by 
more than 36 percent in Fiscal Year (FY) 2005. We estimate that the 
Federal budget will translate to $4.35 per capita in homeland security 
funding for New Jersey versus $25.45 per capita in Wyoming. Moreover, 
the current Federal budget cuts Federal Urban Area Security Initiative 
funding to Jersey City by more than 60 percent and to Newark by nearly 
20 percent; this despite the fact that Newark faced a Terror Level of 
Orange last year after it was learned that terror groups might be 
plotting to bomb major financial targets in Newark.
    Greater homeland security funding is needed more than ever as we 
also try to be mindful of other sectors that might also be targets of 
terror groups. In his 2005 State of the State address, Acting Governor 
Codey launched an unprecedented effort to make New Jersey's students 
safer by introducing a statewide school security checklist, law-
enforcement visits to schools and training of teachers and staff to 
prepare for possible terror attacks on schools. This initiative was 
prompted by concerns last fall when information about two New Jersey 
elementary schools, one in Monmouth County and one in Gloucester 
County, was found on a computer disk in Iraq. This was at the same time 
that terrorists seized a middle school in Russia and killed more than 
300 children and other hostages. As a result, the New Jersey State 
Police are helping our schools pinpoint widespread security weaknesses 
that should be remedied. The need for this initiative, while not 
falling under the jurisdiction of this Committee, is yet one more 
demonstration of why New Jersey and all States need greater financial 
and regulatory support from the Federal government to address all 
fronts in the fight to improve homeland security.
                               conclusion
    New Jersey considers both single-issue, or ideological 
ecoterrorism, and impact ecoterrorism to be serious risks to the safety 
and health of our communities. New Jersey's experience has been that 
traditional law enforcement tools, coupled with domestic security 
preparedness measures implemented to date, appear commensurate with the 
threat of single-issue or ideological ecoterror groups. With regard to 
``impact ecoterrorism,'' New Jersey urges Congress to enact additional 
regulatory safeguards and protections, and to revise Federal funding 
formulas to respond to available intelligence concerning the nature of 
the relevant threats.
                               __________
      Responses by Bradley Campbell to Additional Questions from 
                            Senator Jeffords
    Question 1. What are the potential consequences of ``impact eco-
terrorism'' in New Jersey, such as a terrorist attack on a chemical 
plant?
    Response. The New Jersey Office of Counter-Terrorism maintains a 
Critical Infrastructure List (``CI List'') that identifies the 
infrastructure within the chemical sector which have the greatest 
vulnerability based on threat information, consequence to life and/or 
the economy, or the ability to disrupt the routine of daily life, if 
subjected to terrorist attack. The CI List contains Tier 1 (Department 
of Homeland Security criteria) and Tier 2 (New Jersey criteria) 
facilities. Tier 1 includes sites that could cause death or serious 
injury in the event of a chemical release and have greater than 300,000 
people within a 25-mile radius of the facility. Tier 2 facilities 
include the remaining sites that have off site consequences and those 
that have greater than 500,000 gallons of aboveground storage tank 
capacity for hazardous substances. There are a total of 93 chemical 
facilities on the CI List.
    The potential population impact of a terrorist attack at one of the 
CI facilities is site specific. There are 7 facilities were the impact 
exceeds a residential population of 1,000,000, 16 facilities that 
exceed 100,000, and 80 facilities that have off site consequences less 
than 100,000 people. In summary, 80 of the 93 CI facilities have the 
potential for off site consequences resulting from a terrorist attack.
    In addition to the potential population impact, the economic 
ramifications of a terrorist attack are also quite severe. The chemical 
industry is a critical and indispensable part of New Jersey's 
infrastructure. The business of chemistry is a nearly $30 billion 
industry in New Jersey, ranking the State second in the $460 billion-a-
year enterprise throughout the United States.

    Question 2. Compared to the risks posed by ``impact eco-
terrorism'', how great is the threat of ALF or ELF attacks in your 
State?
    Response. It is highly likely that New Jersey will continue to 
experience terrorist acts perpetrated by ALF and its affiliates. 
Currently, the most active animal enterprise terrorist group in New 
Jersey is the ALF affiliate Stop Huntington Animal Cruelty (SHAC). SHAC 
was formed in 1999 in the United Kingdom as part of an international 
campaign to close Huntington Life Sciences (HLS), a Contract Research 
Organization (CRO) which performs testing on animals. HLS does 
contractual work for other pharmaceutical and chemical companies, and 
the only HLS facility in the United States is located in New Jersey. In 
recent months, SHAC has expanded its target list well beyond HLS to 
include pharmaceutical companies and others that are HLS clients, 
suppliers, or otherwise do business with HLS. Since New Jersey is 
widely acknowledged as the global epicenter of the pharmaceutical and 
medical technology industry, serving as corporate headquarters for many 
of the world's largest drug companies, it is truly a target-rich 
environment for SHAC and ALF.
    The majority of the attacks committed by ALF and SHAC have 
consisted of vandalism and harassment attacks perpetrated on the 
personal property of employees of pharmaceutical and biosciences 
companies. In addition, there have been several instances in which ALF 
has conducted incendiary attacks against fur stores and the property of 
amusement parks and circuses that incorporate animal acts. And three 
years ago, SHAC managed to steal fourteen dogs from HLS.
    Thus far, ELF has not been particularly active in New Jersey, 
though it is active in the region. Moreover, since ALF and ELF share 
similar goals and tactics, support each other, and likely draw on the 
same pool of activists, the threat from ELF cannot be discounted.
    While causing human casualties is not among the explicitly stated 
goals of these groups, the parent organizations have little control 
over their more violent elements. In August and September 2003, an 
animal rights activist named Daniel Andreas San Diego was linked to 
bomb attacks committed against facilities operated by the Chiron and 
Shaklee corporations to protest their sponsorship of animal 
experimentation. He is still at large, and is believed to be the leader 
of a violent ALF splinter faction called the ``Revolutionary Cells: 
Animal Liberation Brigade.'' Also, SHAC activists in the UK, where HLS 
is headquartered, followed the HLS President home and severely beat 
him. Finally, a prominent ELF activist in the region has threatened 
police with bodily harm if they stand in ELF's way.

    Question 3. Are you aware of any evidence that any mainstream 
environmental group supports the Earth Liberation Front?
    Response. The Sierra Club has issued several statements condemning 
the activities of ELF, including the following, made by the Sierra 
Club's executive director in August '03: ``No matter what the 
motivation, the Sierra Club does not condone acts of violence.'' And 
the eco-group Greenpeace, while frequently engaging in acts of civil 
disobedience, actually contributed to the creation of ELF by refusing 
to engage in criminal activity, prompting the most radical members of 
Greenpeace to form ELF.
    In contrast, the animal rights group People for the Ethical 
Treatment of Animals (PETA) has made numerous contributions to the 
defense funds of jailed animal rights activists, has partially 
underwritten a speaking tour by a convicted eco-terrorist, and has sold 
a book, ``Free The Animals,'' that champions ALF's activities. In the 
book, PETA director Ingrid Newkirk romanticizes ALF's activities and 
its violent methods.
    PETA recently has been active in New Jersey, specifically targeting 
Covance, Inc. PETA activists in the region also have spoken out in 
support of SHAC.
      Response by Bradley Campbell to an Additional Question from 
                           Senator Lautenberg
    Question. You stated that New Jersey has adequate law enforcement 
tools to combat the ``ideological terrorists'' such as ALF and ELF. 
What tools did New Jersey use to arrest and indict the seven leaders of 
the group Stop Huntington Animal Cruelty, last year?
    Response. The 6 SHAC leaders in New Jersey were charged under the 
Animal Enterprise Protection Act of 1992 which prohibits, among other 
activities, the causing of ``physical disruption to the functioning of 
an animal enterprise.'' The Newark Joint Terrorism Task Force 
investigated the matter, with the assistance of the New Jersey Office 
of Counter-Terrorism, the New Jersey State Police, and local law 
enforcement entities.
    What makes the successful prosecution of groups like ALF, SHAC, and 
ELF difficult is the fact that they are organized into small, 
independent cells that have minimal contact with their respective 
leadership. Unlike organized crime groups, the parent organizations 
function as information and propaganda centers, and have little direct 
control over how these independent cells operate.
                               __________
       Statement of David Skorton, President, University of Iowa
    Chairman Inhofe, Ranking Member Jeffords and distinguished members 
of the Senate Committee on Environment and Public Works: My name is 
David Skorton, and I am President of The University of Iowa. I am also 
a physician and professor in the Colleges of Medicine and Engineering. 
I am honored to have been asked to provide testimony today concerning a 
series of events on The University of Iowa campus and in our community 
of Iowa City, Iowa, triggered by a destructive break-in at one of our 
campus research facilities. This incident raises a variety of issues 
related to academic freedom, a safe working and living environment, the 
place of civil disobedience on a university campus and, most 
importantly, the future environment and accessibility of a publicly 
supported institution of higher education.
    In the early morning hours of Sunday, November 14, 2004, 3 or more 
individuals, later claiming to represent the Animal Liberation Front, 
broke into our Seashore Hall and Spence Laboratories facility, 
including research laboratories associated with the Department of 
Psychology. The intruders smashed and overturned equipment and poured 
acid and other chemicals on equipment and papers. Over 300 rodents were 
removed from the facility. Many of these rodents, purpose-bred for 
research and being cared for by faculty members, veterinarians and 
other animal care professionals, likely suffered and died as a result 
of this action. The individuals also broke into faculty offices, dumped 
books, research materials, and computers on the floor, and poured acid 
on these items.
    The University of Iowa Police in conjunction with the State of Iowa 
Department of Criminal Investigation involved the Federal Bureau of 
Investigation, which was central to this investigation of domestic 
terrorism. Many other health and safety officials were also involved. 
All affected units had to be temporarily closed or relocated, including 
offices, classrooms, research labs and psychology clinics. Not only was 
research disrupted, but the academic activities and careers of faculty, 
undergraduate and graduate students and post-doctoral trainees were 
impaired, in some cases adding months to the conduct of their federally 
funded, peer-reviewed research.
    Four days after the break-in, on Thursday, November 18, individuals 
claiming responsibility for this act sent an e-mail to multiple local 
and national media outlets. The e-mail claimed responsibility on behalf 
of ALF for the vandalism on the facility. It also included the names, 
home addresses, phone numbers, e-mail addresses, and spouse's or 
partner's names for Psychology Department faculty who conduct animal 
research, as well as for some graduate students and laboratory 
assistants. Publicizing this personal information was blatant 
intimidation. It was also successful, as these individuals are still 
being harassed and are still concerned about their own safety, as well 
as their families'. To cite 1 example of harassment, 5 faculty members 
as well as some of their spouses received a total of over 400 
unsolicited magazine subscriptions under the ``bill me later'' option. 
In terms of safety issues, numerous researchers are even concerned 
about allowing their children to play in their own yards.
    In addition to the human cost to the researchers, their colleagues 
and families, the total direct costs for the incident are approximately 
$450,000. The cost for the chemical cleanup, both by our own Health 
Protection Office and outside contractors, is estimated at $150,000. 
The cost to our Department of Public Safety, including increased 
contract-based security on campus, is approximately $25,000, and 
replacement estimates for equipment and supplies are over $250,000. 
With this incident prompting a review of all of our security measures, 
the eventual cost for additional research facility protection will be 
much more. What cannot be measured in monetary terms is the loss of 
progress in research.
    Because the vandalized research space is located within a larger 
shared-use academic building, the work of dozens of faculty, staff and 
students who were not in any way connected to the research was 
disrupted for many days during a very busy time of the academic year 
while health and safety officials cleared the building. Though the 
destruction was to research equipment and materials, it is clear from 
the videos the group provided to the media that the message of fear and 
intimidation was meant for a much larger audience--the University as a 
whole and the general public.
    Was this an act of either informed debate or civil disobedience? I 
think not. As a long-time student of the writings of Mohandas K. Gandhi 
and Dr. Martin Luther King, Jr., I recognize several critical and 
undeniable differences between the criminal behavior that is the focus 
of my comments and that of classic practitioners of civil disobedience.
    First, the perpetrators of the vandalism at our University took no 
personal responsibility for the acts, but performed the actions wearing 
ski masks or other garments to protect their identities. At the heart 
of Gandhi's philosophy of non-violent resistance was openness and 
forthrightness in one's actions, ``daring to do the right and facing 
consequences whether it is in matters social, political or other.'' \1\ 
Second, direct intimidation of the researchers and their families, 
intended to cause fear and personal anxiety, was a deliberate tactic in 
our case. To my knowledge, such personal and familial intimidation has 
never been a feature of the nonviolent civil disobedience respected in 
our country. Third, and perhaps most ironically, the attack occurred on 
a campus which has for decades prided itself on exceeding Federal 
regulations regarding the humane care and use of animals in research 
and teaching.
---------------------------------------------------------------------------
    \1\ Attributed to Mohandas K. Gandhi by the Official Mahatma Gandhi 
eArchive and Reference Library of the Mahatma Gandhi Foundation of 
Mumbai, India at http://www.mahatma.org.in/quotes/quotes.jsp?link=qt.
---------------------------------------------------------------------------
    If not civil disobedience, what was this action? In my estimation 
it was, purely and simply, a criminal act meant to disrupt an endeavor 
which is highly valued by our society. In the face of society's support 
for this research, the illegal tactics of a violent group have been 
unsuccessful in eradicating it.
    Let us explore for a moment the place of public civil discourse in 
the nationwide discussion on the use of animals in research and 
teaching. Thanks to effective interactions among researchers, 
administrators, and constructive animal welfare groups, the handling 
and use of research animals have been greatly improved in recent 
decades. Animal Care and Use Committees at institutions receiving 
Federal funding are responsible for extremely careful review and 
approval, disapproval or modification of all proposals to use animals 
in research. On the University of Iowa campus, training in the handling 
of research animals is mandatory before principal investigators, 
researchers, or other personnel can acquire a single animal for 
research or teaching activities. In addition, these committees conduct 
ongoing monitoring of activities in which animals are used for research 
and educational purposes. Many campuses, including The University of 
Iowa, have gone beyond these regulations by, for example, seeking and 
obtaining voluntary accreditation with the Association for Assessment 
and Accreditation of Laboratory Animal Care International, Inc.
    What has been the result on our campus of the deplorable criminal 
action by a group of vandals acting in the dark of night, taking no 
responsibility for their actions?
    First, the environment for researchers at The University of Iowa 
has been permanently altered. These researchers, who have devoted their 
careers to fundamental and applied research directed at increasing the 
corpus of life science knowledge and improving health for animals and 
humans, now live lives of fear and anger. Second, the University and 
Federal and State taxpayers indirectly have had to spend funds that 
were, in essence, wasted on the sequelae of this action rather than on 
advancing the state of animal and human health. This, no doubt, was 
part of the strategy of the organization at work. Third, in the wake of 
many other national security issues, this action and others like it add 
to the increasingly significant changes in the openness of American 
university campuses. No longer can those of us in positions of 
responsibility consider our campuses to be largely open areas, and we 
must increasingly consider security concerns that affect the openness 
of the environment.
    Most importantly, what has not changed and will not change is that 
The University of Iowa is completely and unalterably committed to 
allowing faculty, staff and students to pursue their chosen research 
that is scientifically sound, legal and humane. When there are problems 
in the conduct of animal research at our University, they are 
identified, corrected and handled by a well-established system of peer 
review and administrative oversight. This criminal act will do nothing 
but strengthen our resolve to stand behind the principles of academic 
freedom in conducting publicly supported research toward the 
advancement of knowledge and the improvement of animal and human 
health.
    Thank you.
                               __________
 Statement of Monty A. McIntyre, Esq., on behalf of Garden Communities
    Chairman Inhofe, Ranking Member Jeffords, and Members of the U.S. 
Senate Committee on Environment and Public Works:
    My name is Monty McIntyre, and it is my privilege and honor to 
testify before you today on behalf of my client, Garden Communities.
    President Abraham Lincoln, in his Gettysburg Address, said these 
immortal words:

        That we here highly resolve that these dead shall not have died 
        in vain, that this nation under God shall have a new birth of 
        freedom, and that government of the people, by the people, and 
        for the people shall not perish from the earth.

    I've come here to tell you about the devastating consequences of 
violent acts by groups like the Earth Liberation Front (``ELF''). They 
certainly don't believe in government of the people, by the people, and 
for the people. On August 1, 2003 ELF torched an apartment building 
that Garden Communities was building in San Diego, totally destroying 
the building and causing millions of dollars of damage.
    Garden Communities is a company that builds and operates apartment 
buildings in California and Arizona, providing homes for thousands of 
people. It creates jobs, not only for its employees, but also for the 
many subcontractors and construction professionals that it works with.
    Garden Communities properly follows the environmental laws 
applicable to its projects. California has one of the toughest 
environmental laws in the country, known as the California 
Environmental Quality Act (``CEQA''). Under CEQA the Garden Community 
project, known as La Jolla Crossroads, was required to undergo the most 
intensive environmental study which is called an Environmental Impact 
Report (``EIR''). When an EIR is being prepared, the public is notified 
and given the opportunity to provide iriput. The EIR considers the 
potential environmental impacts of the project, how those impacts might 
be eliminated or mitigated, and also considers alternative uses of the 
property. The La Jolla Crossroads project went through the extensive 
EIR process and was approved.
    When completed, La Jolla Crossroads will include nine apartment 
buildings and one scientific research building. Before the ELF attack, 
the first building was expected to be completed by April 2004, and the 
project completion date was scheduled for August of 2009. Approximately 
50 to 60 companies and approximately 150 people were working on the 
project.
    On August 1, 2003, ELF started a fire that completely destroyed the 
first building under construction. Why do we think that ELF is 
responsible? On the ground next to the burned building was a white bed 
sheet with spray painted letters that said ``You make us mad. You build 
it. We bum it. ELF.''
    All framing and the foundation for the building were completely 
destroyed. All construction work stopped immediately. Many of the 
companies who were working on the project struggled financially after 
the fire, and at least two companies either went bankrupt or stopped 
functioning all together. The fire loss also interrupted good working 
relationships that Garden Communities had developed with several of its 
subcontractors. After the fire, Garden Communities was forced to spend 
time and resources figuring out its fire loss, removing the damage and 
debris, renegotiating numerous contracts with subcontractors, and 
working to get the construction going again.
    This fire loss will delay the total project completion by at least 
1 year. Garden Communities has suffered approximately $22 million in 
damages from this terrorist act. The damages include overhead and 
general conditions, hard costs for the reconstruction of the building 
that was destroyed, and other damages related to the entire project 
including loss of rental income, increased carrying costs, and 
increased construction costs.
    Garden Communities has further suffered because its fire loss claim 
has been wrongfully denied by Illinois Union Insurance Company, the 
second excess carrier. Illinois Union denied this fire loss claim, even 
though the primary carrier and the first excess carrier have paid their 
policy limits. Illinois Union's bad faith acts mean that Garden 
Communities has been victimized twice, first by ELF and later by 
Illinois Union Insurance Company.
    Garden Communities is a good company. It provides jobs for our 
citizens and builds much needed housing for folks in California and 
Arizona.
    Garden Communities followed the environmental rules and was 
properly building this project.
    By violently taking matters into their own hands, terrorist groups 
like ELF threaten our nation's fundamental values including the idea 
that our government should be of the people, by the people, and for the 
people.
    We hope that the U.S. Senate will do everything in its power to 
stop future unlawful acts by terrorist groups like ELF.
    [GRAPHICS NOT AVAILABEL IN TIFF FORMAT]

American Rivers, Friends of the Earth, Greenpeace, 
  League of Conservation Voters, Natural Resources 
      Defense Council, Sierra Club, The Wilderness 
Society, Union of Concerned Scientists, U.S. Public 
                           Interest Research Group,
                                                      May 17, 2005.
Hon. James Inhofe,
Chairman, Committee on the Environment and Public Works,
U.S. Senate, Washington, DC.

Hon. James Jeffords,
Ranking Member, Committee on the Environment and Public Works,
U.S. Senate, Washington, DC.
    Dear Senators: It has come to our attention that the Environment 
and Public Works Committee is holding a hearing to look into acts of 
violence ostensibly committed in the name of the environment. On behalf 
of the millions of members of our organizations, we would like to 
reiterate that our groups strongly condemn all acts of violence, 
including those committed in the name of environmental causes. 
Moreover, we would like to stress our opposition to all forms of 
violence related to terrorism on behalf of any cause.
    While we can respect the decision of those who, as a matter of 
conscience, undertake acts of nonviolent civil disobedience, peaceful 
disobedience and violence are vastly different acts. Our groups do not 
condone any acts of violence or violent crime, no matter what the 
motivation.
    In fact, we urge Congress to focus on important matters related to 
terrorism and the rule of law that demand immediate and careful 
attention. Regarding safety from terrorist attack, we urge Congress to 
enact legislation to make vulnerable targets here in the United States, 
like chemical and nuclear plants, more secure against terrorist 
attacks. We respectfully urge you to move meaningful legislation 
forward on this issue.
    We are also disturbed by conspicuously narrow and exclusive 
legislative approaches considered by Congress in the past regarding 
political violence or crime that focus only on acts of violence 
allegedly committed in the name of the environment. Such legislation 
should condemn violence regardless of the cause, helping to ensure that 
the threat from other kinds of terrorist groups is not ignored, or 
worse, unintentionally encouraged. Furthermore, some of this narrow 
legislation has been written in a way that potentially covers non-
violent forms of protest, which could chill freedom of political 
expression and dissent.
    Thank you for your consideration of our views. Please be assured 
that we stand ready to work with your committee on any issue that will 
make America safer and more secure.
            Sincerely,
                    Anna Aurilio, Legislative Director, U.S. Public 
                            Interest Research Group; S. Elizabeth 
                            Birnbaum, Vice President for Government 
                            Affairs, American Rivers; Debbie Boger, 
                            Deputy Legislative Director, Sierra Club; 
                            Rick Hind, Legislative Director, Toxics 
                            Campaign, Greenpeace; Linda Lance, Vice 
                            President for Public Policy, The Wilderness 
                            Society; Tiernan Sittenfeld, Legislative 
                            Director, League of Conservation Voters; 
                            Karen Wayland, Legislative Director, 
                            Natural Resources Defense Council; Marchant 
                            Wentworth, Washington Representative for 
                            Clean Energy, Union of Concerned 
                            Scientists; Sara Zdeb, Legislative 
                            Director, Friends of the Earth.
                               __________
Statement of Jeffrey S. Kerr, General Counsel and Director of Corporate 
                      Affairs, The PETA Foundation
    Mr. Chairman and Distinguished Members of the Committee:
    Thank you for the opportunity to submit these brief comments to the 
Committee in order to place the activities of People for the Ethical 
Treatment of Animals, Inc. (PETA) in the proper perspective.
                       peta's charitable programs
    PETA is the largest animal rights organization in the world, with 
more than 800,000 members and supporters around the country and around 
the globe. Since its founding in 1980, PETA has had a tremendous impact 
on the treatment of animals in the United States and internationally, 
evidenced by the following small list of just some of its most recent 
accomplishments, more of which can be found at PETA.org:
    <bullet> PETA convinced fast-food giants McDonald's, Burger King, 
and Wendy's to improve living conditions for the animals provided by 
their suppliers. These were immense steps forward that greatly reduce 
the suffering of billions of animals.
    <bullet> PETA has convinced almost 600 companies, including 
Gillette, Colgate-Palmolive, Mary Kay, L'Oreal, and many others, to 
stop testing their products on animals.
    <bullet> PETA has convinced international retailers Limited Brands, 
Timberland, J. Crew, Abercrombie & Fitch, and New Look, among others, 
to pledge not to sell cruelly-obtained Australian wool until the 
practice of mulesing (in which farmers use gardening shears to cut 
large sections of flesh from sheep's' rumps without any painkillers) 
and the live export of millions of discarded sheep to the Middle East 
for slaughter every year are stopped.
    <bullet> PETA released details of cruelty to pigs found during an 
investigation of the third-largest pig farm in the U.S. One manager was 
charged with four counts of felony animal cruelty--only the second time 
in U.S. history that a factory farm employee has been charged with 
felony animal abuse. (The first time was a PETA case involving a North 
Carolina pig farm in 2000).
    <bullet> PETA convinced international retail giants like Nike, 
Gucci, Eddie Bauer, Nordstrom, Reebok, Kenneth Cole, The GAP, and L.L. 
Bean to boycott Indian leather after PETA exposed the immense animal 
abuse in the Indian leather industry, including breaking animals' tails 
and rubbing hot peppers into their eyes in order to force them to march 
long distances to slaughter.
    <bullet> PETA convinced the U.S. Department of Transportation to 
stop painful tests in which corrosive chemicals were poured onto 
rabbits' shaved backs, burning holes into their skin. PETA successfully 
argued that the D.O.T. should use a modern, non-animal test that had 
already been approved by the government.
    <bullet> PETA convinced Sears, Roebuck & Company to cancel its 
sponsorship of Ringling Bros. & Barnum and Bailey Circus after 
explaining Ringling's record of repeatedly violating the Federal Animal 
Welfare Act in which they have failed to satisfy even minimum standards 
for the animals beaten and forced to perform tricks in its circus.
    <bullet> PETA saved more than 800,000 animals from painful 
poisoning tests slated for the U.S. Government's high production volume 
(HPV) chemical program designed to test thousands of chemical 
substances on animals. The government agreed to replace many of the 
tests with non-animal methods, delay some of the tests for two years to 
allow for the development of non-animal tests, and to dedicate $5 
million to fund non-animal methods.
    <bullet> PETA's SNIP (Spay and Neuter Immediately Please)-mobile, a 
mobile spay-neuter clinic serving mostly low-income families, has 
sterilized nearly 25,000 animals for those people who could not 
otherwise afford the procedures and for shelter cats and dogs prior to 
adoption.
    <bullet> PETA staff and dedicated volunteers travel regularly to 
one of the country's poorest communities in North Carolina to deliver 
hundreds of doghouses hand-made by PETA to exacting specifications for 
animals exposed to the elements at the city's rundown animal shelter 
and for ``backyard dogs'' huddled under card tables, inside rusting 
cars, and in mud holes, unable to get away from searing summer heat and 
freezing winter cold.
    We have enclosed a sampling of several news articles regarding 
PETA's ground-breaking and effective campaigns for the protection of 
animals, along with some of the thousands of news releases PETA has 
issued over the last 5 years informing the public about our work.
                          the present inquiry
    The allegations directed against PETA in this inquiry are old news, 
some dating from as far back as the 1980s. It is all too predictable 
that PETA's work for the improvement of our society by seeking to 
reduce the suffering and abuse inflicted on billions of animals 
annually raised and killed for food, experimented upon, slaughtered for 
their skins and fur, or beaten and abused in circuses would be attacked 
by the industries profiting from that abuse. We take these attacks as a 
sign of our effectiveness in eroding the support that props up their 
businesses. These smear attacks, using half-truths, false innuendo, and 
outright lies have been a regular occurrence since PETA's founding a 
quarter century ago.
    PETA has no involvement with alleged ALF or ELF actions. PETA does 
not support terrorism. PETA does not condone violence. In fact, PETA 
exists to fight the terrorism and violence inflicted on billions of 
animals annually in the meat, dairy, experimentation, tobacco, fur, 
leather, and circus industries.
    The matters asserted against PETA in this inquiry have also been 
reviewed during one of two comprehensive Internal Revenue Service 
audits of PETA, the first between 1990-1992, and the second one, a 20-
month-long major case audit from 2003-2005, both of which resulted in 
reaffirmation of PETA's tax exempt status.
                            peta fact sheet
    The fact sheet in question was written in the late 1980s and was 
not updated, other than to change PETA's address after relocating to 
Norfolk nine years ago. The fact sheet is no longer in use and was 
discontinued as being out of date during a routine review. It 
accurately identifies PETA as a legal organization that merely informed 
the public and proper authorities about animal abuse information 
received by it anonymously, consistent with its First Amendment rights 
and charitable mission. The last time PETA issued any such information 
was in 1992. It also accurately states that PETA has no way to contact 
the people who sent the information and no way of knowing if it will 
ever hear from them again.
    The Activist Defense Fund referred to in the fact sheet never came 
into being. The grants about which the Committee inquired were made 
from PETA's general operating funds and properly and publicly reported. 
Those grants represent an infinitesimally small portion of PETA's 
expenditures in furtherance of its charitable animal protection mission 
over the years, totaling more than $100 million since 1999 alone.
                          2001 grant of $1,500
    PETA made a grant to assist Craig Rosebraugh in paying legal fees 
associated with responding to a subpoena he received in connection with 
a grand jury investigation in Oregon. PETA does not know the precise 
nature of the grand jury investigation and has no information that Mr. 
Rosebraugh was ever alleged to have been involved in or charged with 
any wrongdoing related to the ELF or otherwise. PETA believed that Mr. 
Rosebraugh was subpoenaed as a result of the fact that he had engaged 
in protected First Amendment activity by publicizing the mistreatment 
of animals. The grant request was referred to PETA's outside counsel 
for review and approval. The IRS reviewed this grant as part of the 
recently completed audit which resulted in reaffirmation of PETA's tax-
exempt status.
                       grant to support committee
    PETA provided funds to assist in paying legal fees incurred in 
connection with the defense of charges that arose out of a grand jury 
investigation. PETA also provided a loan, which was repaid, to assist 
in posting bond pending trial, the terms of which bond were complied 
with fully. As with the Rosebraugh grant, PETA referred this matter to 
outside counsel for review and approval. The IRS reviewed this grant 
and loan as part of its recent audit which resulted in reaffirmation of 
PETA's tax-exempt status.
    We are proud of what we have accomplished with the vital support of 
our members and volunteers, but we will not rest on that record. PETA 
will continue to expose animal abuse and to work for a better world in 
which the rights of all animals to be free from exploitation and abuse, 
to have food and shelter, or to simply be left alone are recognized by 
every nation.

    [GRAPHICS NOT AVAILABEL IN TIFF FORMAT]

                                 Report

 Statement of Representative Bennie G. Thompson, Ranking Member, House 
             Committee on Homeland Security, April 19, 2005

 ten years after the oklahoma city bombing, the department of homeland 
     security must do more to fight right-wing domestic terrorists
    According to a recent public report, a U.S. Department of Homeland 
Security (DHS) 5-year budget planning document failed to mention right-
wing domestic terrorist groups in its list of terrorist threats facing 
the United States, even though the document listed left-wing domestic 
groups such as environmental terrorists.\1\ Democratic Members of the 
House Committee on Homeland Security are very concerned that this 
oversight demonstrates DHS administrators are not adequately 
considering right-wing domestic terrorist groups that are focused on 
attacking America in order to further their political beliefs.
---------------------------------------------------------------------------
    \1\ Justin Rood, ``Animal Rights Groups and Ecology Militants Make 
DHS Terrorist List, Right-Wing Vigilantes Omitted,'' Congressional 
Quarterly (March 25, 2005) can be seen at http://www.cq.com/corp/
show.do?page=crawford/20050325--homeland. The actual 5-year planning 
document, entitled ``Integrated Planning Guidance, Fiscal Years 2005-
2011,'' was produced in a ``sensitive'' and ``for official use only'' 
format, and now is marked ``Sensitive.'' Therefore, any discussion of 
the contents of the DHS document in this report is based solely on the 
public reports of the document, not an actual review of it.
---------------------------------------------------------------------------
    As the bombing of the Alfred P. Murrah Building in Oklahoma City 10 
years ago demonstrated, right-wing domestic terrorists are capable of 
harming America in ways similar to Al Qaeda. Indeed, white 
supremacists, violent militiamen, anti-abortion bombers, and other 
right-wing hate groups have shown a remarkable ability to resist law 
enforcement authorities. In 2003, for example, the American radical 
right staged a ``comeback,'' with the number of skinhead groups 
doubling from the prior year.\2\
---------------------------------------------------------------------------
    \2\ ``The Year in Hate,'' Southern Poverty Law Center Intelligence 
Report, Issue Number 113, Spring 2004, available at http://
www.splcenter.org/intel/intelreport/article.jsp?aid=131.
---------------------------------------------------------------------------
    The Federal Bureau of Investigation (FBI) is the lead agency for 
investigating acts or preparation of domestic terrorism.\3\ However, 
the Department has a key role in fighting domestic terrorism, 
especially with respect to its duties to conduct threat analysis and 
protect critical infrastructures. As DHS implements its new plan to 
focus on risk as a means of allocating scarce anti-terrorism 
resources,\4\ it must consider the threat that right-wing domestic 
terrorists pose to critical infrastructure and America as a whole. 
Moreover, it must re-define what it considers to be critical 
infrastructure by re-evaluating the risk that right-wing domestic 
terrorists pose to schools, large churches, or other public places in 
order to publicize their beliefs. Better coordination and sharing of 
information between the FBI and DHS may be necessary in order to 
evaluate these risks.
---------------------------------------------------------------------------
    \3\ Both Presidential Decision Directive-39 (PDD-39), titled ``U.S. 
Policy on Terrorism,'' dated June 21, 1995, and Executive Order 12333 
designate the FBI as the lead agency for countering acts of terrorism 
within the United States.
    \4\ On March 16, 2005, in his first major policy address, the new 
Secretary of DHS, Michael Chertoff, stated that DHS needs to adopt a 
``risk-based approach in both our operations and our philosophy.'' The 
speech is available at http://www.dhs.gov/dhspublic/
display?content=4391.
---------------------------------------------------------------------------
    If DHS' long-term planning documents do not consider these and 
other risks posed by right-wing domestic terrorists, then lower-level 
agents working to fight these groups may not be receiving enough 
budgetary, policy, or administrative support from their superiors. This 
means possible threats to our homeland could go undetected. In order to 
correct this potential security gap, a renewed effort should be made to 
catalogue the risks posed by right-wing domestic terrorists, determine 
how DHS is already working to fight these risks, and evaluate what can 
be done to improve these efforts.
    This report provides some of the framework for this analysis, but 
it is only a first step in the process. As 9/11 showed us, America's 
security can only be assured if our intelligence and law enforcement 
agencies do a better job evaluating threats, including thinking of 
risks that are ``outside the box,'' and break down bureaucratic 
barriers to information sharing and action. There may be right-wing 
terrorists here in America that want to create just as spectacular a 
disaster as the 9/11 attacks, and we cannot fail to meet this threat.
                       domestic terrorism defined
    Incidents such as the 1995 Oklahoma City Bombing and the 1996 
bombing of Olympic Park in Atlanta, GA during the 1996 Summer Olympics 
prove that domestic groups with radical agendas, or people inspired by 
them, will continue their attempts to attack America in order to make 
their message heard. Thus, law enforcement agencies are continually 
redefining the line between criminal acts and acts of terrorism. The 
definition of domestic terrorism differs across Federal agencies, but 
the Federal Bureau of Investigation (FBI), which has been designated as 
the lead Federal agency to investigate domestic terrorism or related 
acts,\5\ defines domestic terrorism as
---------------------------------------------------------------------------
    \5\ Presidential Decision Directive 39 and Executive Order 12333.

        the unlawful use, or threatened use, of force or violence by a 
        group or individual based and operating entirely within the 
        United States or its territories without foreign direction 
        committed against persons or property to intimidate or coerce a 
        government, the civilian population, or any segment thereof, in 
---------------------------------------------------------------------------
        furtherance of political or social objectives.\6\

    \6\ FBI, Counterterrorism Threat Assessment and Warning Unit, 
Counterterrorism Division, ``Terrorism in the United States, 1999,'' 
available at http://www.fbi.gov/publications/terror/terror99.pdf.

    The U.S.A. Patriot Act, passed shortly after the September 11 
attacks, defines domestic terrorism as criminal acts that ``involve 
acts dangerous to human life . . . and appear to be intended to 
intimidate or coerce a civilian population, to influence the policy of 
a government by intimidation or coercion; or to affect the conduct of a 
government--'' \7\
---------------------------------------------------------------------------
    \7\ Uniting and Strengthening America by Providing Appropriate 
Tools Required to Intercept and Obstruct Terrorism (USA PATRIOT ACT) 
Act of 2001, Sec. 802 (P.L. 107-56), codified at 18 USC Sec. 2331.
---------------------------------------------------------------------------
    According to a 2004 issue paper written by the Council on Foreign 
Relations and the Markle Foundation, the FBI also distinguishes three 
primary categories of domestic terrorism: left-wing, right-wing, and 
special interest.\8\ Left-wing groups generally are opposed to 
capitalism, while right-wing groups are opposed to taxation, the 
Federal government, and international organizations, or motivated by 
racial or religious hatred.
---------------------------------------------------------------------------
    \8\ Terrorism: Questions & Answers,'' issue paper by the Council on 
Foreign Relations and the Markle Foundation can be found at http://
www.terrorismanswers.org/groups/american2.html.
---------------------------------------------------------------------------
    The FBI's third domestic terror group targets ``special interest'' 
issues, which can be left or right-wing in affiliation--such as animal 
rights, environmental protection or abortion. While the FBI does not 
consider these groups to pose a terrorist threat, last week's guilty 
plea by Eric Rudolph \9\ proved that even ``special interest'' groups 
are capable of conducting attacks beyond their ``traditional'' targets. 
Although Eric Rudolph and his family were connected with the Christian 
Identity movement, a militant, racist and anti-Semitic organization 
that believes whites are God's chosen people,\10\ he indicated that he 
bombed the 1996 Summer Olympics in Atlanta, Georgia because he wanted 
to shame the United States for its legalization of abortion. He said 
his goal was to knock out Atlanta's power grid and shut down the 
Olympics.\11\
---------------------------------------------------------------------------
    \9\ Eric Rudolph plead guilty to 3 bombings in Atlanta, Georgia--
including the fatal 1996 Olympics attack which killed one person and 
injured more than 100--and a blast at a Birmingham, AL, women's clinic 
that killed an off-duty police officer.
    \10\ http://www.cnn.com/2003/US/05/31/rudolph.profile/index.html.
    \11\ http://www.cnn.com/2005/LAW/04/13/eric.rudolph/index.html.
---------------------------------------------------------------------------
    FBI officials say right-wing militants--including skinheads, neo-
Nazis, violent militia members, and the so-called Christian Patriot 
movement--now pose America's most serious domestic terrorist 
threat.\12\ In fact, white supremacists, traditionally the most violent 
right-wing group, have strengthened their recruiting and rhetoric since 
9/11.\13\
---------------------------------------------------------------------------
    \12\ Terrorism: Questions & Answers,'' issue paper by the Council 
on Foreign Relations and the Markle Foundation can be found at http://
www.terrorismanswers.org/groups/american2.html.
    \13\ FBI, Strategic Plan 2004-2009, 27, available at http://
www.fbi.gov/publications/strategicplan/strategicplanfull.pdf.
---------------------------------------------------------------------------
            dhs' current efforts to fight domestic terrorism
DHS' Statutory Duties
    Congress established DHS after the 9/11 terror attacks ``to prevent 
terrorist attacks within the United States.'' \14\ In the Homeland 
Security Act of 2002, DHS is specifically required to
---------------------------------------------------------------------------
    \14\ The Homeland Security Act of 2002, Sec. 101 (P.L. 107-296).
---------------------------------------------------------------------------
    <bullet> identify and assess the nature and scope of terrorist 
threats to the homeland;
    <bullet> detect and identify threats of terrorism against the 
United States; and
    <bullet> understand such threats in light of actual and potential 
vulnerabilities of the homeland.\15\
---------------------------------------------------------------------------
    \15\ Homeland Security Act of 2002, Sec. 201 (P.L. 107-296).
---------------------------------------------------------------------------
    These requirements necessarily include preventing terror attacks 
posed by domestic groups as well as traditional foreign groups such as 
Al Qaeda.\16\
---------------------------------------------------------------------------
    \16\ Domestic terrorism is defined in 28 CFR Sec. 0.85 and in the 
USA Patriot Act of 2001 (P.L. 107-56).
---------------------------------------------------------------------------
How DHS Defines Threats
    DHS officials noted in staff interviews \17\ that the Information 
Analysis and Infrastructure Protection (IAIP) Directorate reviews 
intelligence information from the FBI, Central Intelligence Agency 
(CIA) and other intelligence agencies on a daily basis. In addition, 
IAIP also reviews intelligence information from its own agencies such 
as the Secret Service, the Coast Guard, and U.S. Customs and Border 
Protection. When the Department encounters intelligence information 
indicating a possible terrorist threat, it forwards an investigation 
request to one of the FBI's joint terrorist task forces (JTTF), and the 
FBI then decides how to proceed.
---------------------------------------------------------------------------
    \17\ Democratic staff of the House Homeland Security Committee 
conducted a telephone conference call with Department officials on 
April 15, 2005.
---------------------------------------------------------------------------
    Regarding domestic terror threats, IAIP officials stated that they 
analyze the information to determine whether domestic groups possess 
the ``capability and intent'' to conduct a ``catastrophic'' attack on 
U.S. critical infrastructure or resources.\18\ However, nothing in the 
Homeland Security Act limits IAIP analysis to ``catastrophic attacks'' 
or critical infrastructure or resources. It is unclear why the 
Department has chosen this limited interpretation of its statutory 
responsibility to identify and assess ``the nature and scope of 
terrorist threats to the homeland.''
---------------------------------------------------------------------------
    \18\ Democratic staff of the House Homeland Security Committee 
conducted a telephone conference call with DHS officials on April 15, 
2005.
---------------------------------------------------------------------------
    DHS' lack of certainty over how to categorize the risk posed by 
domestic terrorist groups is further revealed in its strategic 
planning. According to a recent news article, DHS distributed a January 
2005 budgetary planning document entitled ``Integrated Planning 
Guidance, Fiscal Years 2005-2011,'' which identified certain domestic 
terror groups as posing potential threats to the homeland.\19\ Given 
the FBI's designation of right-wing groups as ``the most serious 
domestic threat,'' it is surprising that, according to the article, 
DHS' planning document did not name right-wing domestic terrorists or 
terrorist groups as a potential threat. However, the document 
reportedly does list left-wing domestic groups, ``such as the Animal 
Liberation Front (ALF) and the Earth Liberation Front (ELF),'' as 
terrorist threats.\20\ A subsequent interview with DHS officials 
revealed that the document included eco-terrorists because they ``will 
continue to focus their attacks on property damage in an effort to 
change policy.'' The document notes that although ``publicly ALF and 
ELF promote nonviolence toward human life . . . some members may 
escalate their attacks.'' \21\
---------------------------------------------------------------------------
    \19\ Justin Rood, ``Animal Rights Groups and Ecology Militants Make 
DHS Terrorist List, Right-Wing Vigilantes Omitted,'' Congressional 
Quarterly (March 25, 2005).
    \20\ Ibid.
    \21\ Ibid.
---------------------------------------------------------------------------
    Other terrorism experts still consider right-wing terrorists as 
serious threats, and were surprised that DHS did not. ``They are still 
a threat, and they will continue to be a threat,'' said Mike German, a 
16-year undercover agent for the FBI who spent most of his career 
infiltrating radical right-wing groups. ``If for some reason the 
government no longer considers them a threat, I think they will regret 
that,'' said German, who left the FBI last year. ``Hopefully it's an 
oversight,'' he added.\22\ Another terrorism expert, James O. Ellis 
III, a senior terror researcher for the National Memorial Institute for 
the Prevention of Terrorism (MIPT), stated that whereas left-wing 
groups, which have been more active recently, have focused mainly on 
the destruction of property, right-wing groups have a much deadlier and 
more violent record and should be on the list. ``The nature of the 
history of terrorism is that you will see acts in the name of [right-
wing] causes in the future.'' \23\
---------------------------------------------------------------------------
    \22\ Ibid.
    \23\ Ibid.
---------------------------------------------------------------------------
DHS' Risk Assessment Differs from Other Agency Views
    The war on terror is a huge undertaking that requires consistent 
cooperation between Federal, State, and local law enforcement agencies 
that each monitor different domestic terror groups based on their 
agency's mission.
    The FBI develops and continually revises a long-term strategic plan 
that identifies potential threats, sources of those threats, and 
actions needed to confront and prevent these threats. However, neither 
the FBI nor any other Federal agency maintains a comprehensive list of 
domestic terror groups or individuals.\24\
---------------------------------------------------------------------------
    \24\ Terrorism: Questions & Answers,'' issue paper by the Council 
on Foreign Relations and the Markle Foundation can be found at http://
www.terrorismanswers.org/groups/american2.html.
---------------------------------------------------------------------------
    Nonetheless, the FBI's Strategic Plan does consider domestic 
threats from both right-wing and left-wing terrorists, stating 
``[r]ight-wing extremists exposing anti-government or racist sentiment, 
will pose a threat because of their continuing collection of weapons 
and explosives coupled with their propensity for violence.'' \25\
---------------------------------------------------------------------------
    \25\ FBI Strategic Plan, 15.
---------------------------------------------------------------------------
    According to DHS officials, even though the FBI and DHS are working 
closely, they do not consider the same groups to present the same 
terrorist threat.\26\ This is because they are ``looking for different 
types of threats.'' \27\ Given the FBI analysis of the risk posed by 
right-wing extremists, it remains unclear why DHS does not give higher 
priority to this threat, such as by mentioning it in the Department's 
planning document.
---------------------------------------------------------------------------
    \26\ Justin Rood, ``Animal Rights Groups and Ecology Militants Make 
DHS Terrorist List, Right-Wing Vigilantes Omitted,'' Congressional 
Quarterly (March 25, 2005).
    \27\ Democratic staff of the House Homeland Security Committee 
conducted a telephone conference call with Department officials on 
April 15, 2005.
---------------------------------------------------------------------------
    It should be noted that while both the FBI's Strategic Plan and 
DHS' planning document both reportedly name Al Qaeda as the greatest 
threat to the United States, the two agencies categorize the risk posed 
by other international terrorist groups differently.\28\ Considering 
the emphasis placed on fighting international terrorists since 9/11, if 
the two agencies are still assessing different risks to these groups, 
then we should be very concerned about their ability to coordinate 
threat assessment of domestic terrorists.
---------------------------------------------------------------------------
    \28\ FBI Strategic Plan, 26; Justin Rood, ``Animal Rights Groups 
and Ecology Militants Make DHS Terrorist List, Right-Wing Vigilantes 
Omitted,'' Congressional Quarterly (March 25, 2005).
---------------------------------------------------------------------------
Post-9/11 Risks and DHS' Need to Think of Risks ``Outside the Box''
    According to USA Today, there have been some chilling cases of 
right-wing domestic terrorism planning since 9/11.\29\ For example, in 
May, 2004, William Krar, of Noonday, Texas, was sentenced to more than 
11 years in prison after he stockpiled enough sodium cyanide to kill 
everyone inside a 30,000-square-foot building. Krar, described by 
Federal prosecutors as a white supremacist, also had nine machine guns, 
67 sticks of explosives and more than 100,000 rounds of ammunition. 
Investigators and the Federal prosecutor said they didn't know what 
Krar intended to do with the potentially deadly chemicals.
---------------------------------------------------------------------------
    \29\ Larry Copeland, ``Domestic terrorism: New trouble at home,'' 
USA TODAY, November 14, 2004, available at http://www.usatoday.com/
news/nation/2004-11-14-domestic-terrorism--x.htm.
---------------------------------------------------------------------------
    The Krar case demonstrates that white supremacists and other right-
wing groups or individuals can obtain the capability to perform a 
large-scale terrorist attack in America on a scale similar to those Al 
Qaeda seeks to conduct. If DHS' planning document and difference in 
approach to right-wing domestic terrorism compared to the FBI are any 
indication of the type of threat analysis the Department is conducting, 
then there may be a failure to think of risks ``outside the box'' that 
is eerily reminiscent of the intelligence failures that led to the 9/11 
attacks.
                            recommendations
    There are many opportunities for DHS to revise its approach and 
think as creatively as some right-wing terrorists may.
    <bullet> DHS must reassess the threat posed by right-wing domestic 
terrorists and revise its long-term planning to address this risk.
    First and foremost, DHS must return to its overall statutory 
mandate to determine ``the nature and scope of terrorist threats to the 
homeland'' by including in its long-term planning a genuine 
consideration of the risks posed by right-wing domestic terrorists. 
Without this planning, the intelligence analysts and agents on the 
front-line may not get the budgetary and administrative support they 
need from above.
    <bullet> Congress or DHS should establish an advisory council of 
groups with experience monitoring right-wing domestic terrorists
    There are several organizations, such as the Southern Poverty Law 
Center, the Simon Wiesenthal Center, the Anti-Defamation League, the 
National Association for the Advancement of Colored People, the 
National Coalition of Anti-Violence Programs, the National Abortion 
Federation, and others with long-standing experience in monitoring 
right-wing domestic terrorist groups and assessing their danger. 
Congress or DHS should establish an advisory council of these groups in 
order to ensure that the Department has as much information as possible 
about the risks right-wing domestic terrorists pose.
    <bullet> DHS and the FBI should work together to create and 
maintain a comprehensive list of domestic terror groups or individuals.
    DHS and the FBI should close the security gap identified by the 
Council on comprehensive list of domestic terror groups or individuals.
    <bullet> DHS must expand its definition of ``critical 
infrastructure'' for purposes of collecting intelligence on domestic 
terror groups.
    DHS must redefine its definition of ``critical infrastructure'' to 
include those ``soft targets'' most at risk of attack by right-wing 
domestic terrorists. Just as Al Qaeda may want to destroy prominent 
symbols of America authority and inflict mass casualties, as on 9/11, 
and left-wing domestic environmental terrorist groups may attack what 
they perceive as anti-environmental structures, such as dams, right-
wing domestic terrorists may strike at what best communicates their 
message of hate. For example, a single African-American church in a 
large city can have several thousand people in it on a Sunday, and 
large inner-city schools can have thousands of minority students. Both 
of these could be prime targets for an attack by a white supremacist 
group.
    We cannot protect every ``soft-target'' as well as we can protect 
``hard targets,'' like airplanes or nuclear power plants, but DHS 
should consider these risks when evaluating the stream of intelligence 
``chatter'' it receives on right-wing domestic terrorists. If this 
intelligence reveals a credible threat, DHS must work closely with the 
FBI and other law enforcement authorities, but it should also provide 
the threatened entity with at least some recommendations on how to 
reduce its risk.
    <bullet> DHS must think ``outside the box'' about the types of 
attacks right-wing domestic terrorists may conduct.
    Eric Rudolph's bombing of Atlanta's Olympic Park in order to raise 
his anti-abortion views demonstrates that right-wing domestic 
terrorists may choose to attack a symbol that is not directly 
associated with their particular political objection in order to prove 
their point. DHS must consider these risks when evaluating the threats 
to critical infrastructure as well as to everyday large-scale events. 
For example, large gatherings of women, such as a ``Take Back the 
Night'' rally, could be a target for right-wing anti-abortion 
terrorists.
    America as a whole should not develop paranoid views about the 
risks to every place or event posed by unassociated domestic 
terrorists, but that does not mean that intelligence analysts and law 
enforcement should not consider these risks and consider basic 
precautions to prevent them.
    <bullet> The FBI and DHS should work closely to set government-wide 
standards for focusing on right-wing domestic terrorists and sharing 
information on these risks.
    By focusing on both left and right-wing domestic terrorists, the 
FBI has a considerably more thorough view of domestic terrorism than 
DHS. As the lead agency in fighting domestic terrorism, the FBI should 
work to ensure that DHS and other agencies understand the risks posed 
by right-wing domestic terrorists.
    Additionally, while DHS should not interfere with ongoing FBI 
investigations, the Department should have access to the relevant data 
it needs to make a determination of the risks to America posed by 
right-wing domestic terrorists. According to IAIP officials, this type 
of information sharing is presently occurring, but the two agencies 
should be constantly vigilant to ensure it continues. If Congress must 
act to ensure any bureaucratic ``stovepipes'' of information are 
eliminated, than it should do so. A prime lesson from 9/11 was that 
failures to share information can lead to catastrophic results.
                               __________
    Statement of Mindy Kursban, Esq., General Counsel and Executive 
        Director, Physicians Committee for Responsible Medicine
    Thank you for the opportunity to submit this testimony to address 
and clarify the false allegations made about the Physicians Committee 
for Responsible Medicine (Physicians Committee) by the Director of 
Research for the so-called ``Center for Consumer Freedom,'' a lobbying 
group for the restaurant, food, tobacco, and alcohol industries.
    The Physicians Committee is a nonprofit health advocacy 
organization founded in 1985 that currently has over 100,000 members 
and supporters. The Physicians Committee conducts clinical research 
studies, advocates for preventive medicine, and promotes higher 
standards in research. The Physicians Committee's research studies have 
been published in peer-reviewed medical journals such as the American 
Journal of Cardiology, the Archives of Family Medicine, Preventive 
Medicine, and Obstetrics and Gynecology, among others. The Physicians 
Committee educates the public through extensive publication of 
materials such as books, brochures, booklets, and audio tapes; 
exhibiting at medical, nutrition, and scientific conferences; and 
developing, publishing, and submitting public service announcements 
promoting preventive medicine, working with celebrities such as Keenen 
Ivory Wayans, Alicia Silverstone, Ed Asner, Marilu Henner, Bill Maher, 
Alexandra Paul, and Ziggy Marley.
    The President of the Physicians Committee is a federally funded 
nutrition researcher, author of eight books on diet and health, and an 
adjunct faculty member at the George Washington University Medical 
Center. They Physicians Committee's Director of Research and Senior 
Toxicology Advisor, who has his Doctorate in Toxicology from Emory 
University, is a former EPA employee, where he served on the Pesticide 
Research Committee, worked as toxicology team leader, and served as 
senior author of numerous EPA documents. He is currently a core expert 
panel member for the EPA's Voluntary Children's Chemical Exposure 
Program. Our Nutrition Director, who has his Masters of Public Health 
degree and his Doctorate in Public Health Nutrition from California's 
Loma Linda University, conducted a postdoctoral fellowship at the 
University of California-Davis' Department of Nutrition, and served as 
a nutritionist for the USDA Western Human Nutrition Center in 
California. Information about other staff members and consultants of 
the Physicians Committee can be found at PCRM.org/news/experts.
    The Physicians Committee is an independent 501(c)(3) organization 
supported primarily by public donations. The Physicians Committee is 
affiliated with only three other organizations: The PCRM Foundation, 
Washington Center for Clinical Research, and The Cancer Project. Each 
of these is a not-for-profit charitable corporation recognized as tax 
exempt under Internal Revenue Code section 501(c)(3). The Foundation, 
in addition, is recognized as tax exempt under IRS Code section 
509(a)(3) as a supporting organization.
    It is one of the Physicians Committee's core principles that 
research involving human subjects must be in accordance with the 
highest ethical standards and all applicable laws. We also extend this 
concept of ethics and morality to animal research subjects. Research, 
testing, and educational exercises involving animal subjects virtually 
always involve significant suffering and ultimately the deaths of the 
animals involved. As such, it is incumbent on investigators, educators, 
and research institutions to incorporate non-animal research methods 
without limit.
    In accordance with these principles, in 2001, the Physicians 
Committee signed a letter with Stop Huntington Animal Cruelty asking 
the recipient companies to review two scientific critiques of animal 
experiments conducted at Huntington Life Sciences (HLS) because of 
HLS's documented abuses to animals and inappropriate animal 
experimentation. It was noted that because of the myriad anatomical, 
physiological, and pathological differences between human and other 
animals, toxicity or carcinogenicity tests on animals are poor 
indicators for safety and effectiveness in humans. The Physicians 
Committee has had no other involvement with Stop Huntington Animal 
Cruelty aside from writing this single request that companies choose 
better options.
    The Physicians Committee also maintains the principle that when 
physicians are exercising their obligation to advocate for the life and 
health of patients and to safeguard the subjects of research, they 
shall adhere to and promote the principles of nonviolent advocacy. As 
such, no person acting as a Physicians Committee spokesperson has ever 
advocated violence, nor would the Physicians Committee tolerate any 
such comment. If any person speaking on his or her own behalf were to 
make comments that could be interpreted as condoning violence, such a 
person would not be eligible to act as a Physicians Committee 
spokesperson.
    We note that ``Center for Consumer Freedom,'' quoted comments from 
Jerry Vlasak, M.D. Dr. Vlasak is not a Physicians Committee 
spokesperson, has not been one for some time, and made no comments 
related to the topics cited while acting as a Physicians Committee 
spokesperson.
    Despite all the rhetoric surrounding the issue of animal research, 
most Americans agree that animal research should be performed humanely 
or, better yet, not at all when an alternative exists. In furtherance 
of this laudatory goal, we would suggest that, rather than vilify those 
who express concern about animals through lawful and peaceful means, 
Congress direct the National Institutes of Health to shift an ample 
percentage of its funding for animal research to finding non-animal 
research methods and funding studies using non-animal research.
  

                                  <all>

</pre></body></html>
